<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                       WEDNESDAY, APRIL 30, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:04 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Tom Harkin (chairman) presiding.
    Present: Senators Harkin, Landrieu, Merkley, Moran, 
Alexander, and Kirk.

                        DEPARTMENT OF EDUCATION

                        Office of the Secretary

STATEMENT OF HON. ARNE DUNCAN, SECRETARY
ACCOMPANIED BY THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE


                opening statement of senator tom harkin


    Senator Harkin. The Appropriations Subcommittee on Labor, 
Health and Human Services, Education, and Related Agencies will 
come to order. Good morning and welcome, everyone.


        department of education fiscal year 2015 budget request


    Welcome back, Secretary Duncan. It is great to see you 
again. I am glad to have you here to talk about your 
Department's fiscal year 2015 budget request.
    Your budget's proposed $1.3 billion increase is one of the 
largest of any Federal agency, second only to Veterans Affairs. 
The increase proposed for the Department of Education 
demonstrates this administration's continued commitment to our 
Nation's future. And the budget goes a step further with the 
Opportunity, Growth, and Security Fund, which would fully 
replace sequester in fiscal year 2015 and the subsequent 6 
years of the budget.
    This stands in stark contrast with the approach of Chairman 
Ryan's budget. That budget would cut nondefense discretionary 
spending by $43 billion, or about 9 percent, in fiscal year 
2016 and $791 billion over 10 years.


              fiscal year 2014 omnibus appropriations bill


    The Ryan budget charts a different course than that 
established by the 2014 omnibus appropriations bill. Congress 
passed that bill on a bipartisan basis earlier this year. This 
subcommittee negotiated over $l billion in new funding for 
early learning programs at Education and the Department of 
Health and Human Services.
    We also secured over $1 billion total for title I and IDEA 
(Individuals with Disabilities Education Act), the core Federal 
programs for elementary and secondary education. The increases 
for these programs allowed us to restore most of the sequester 
cuts in fiscal year 2013.
    For higher education, we included a new investment of $75 
million for the First in the World initiative to address 
college affordability. Colleges and universities will be able 
to compete for funding to test and develop strategies that 
reduce college costs and improve student outcomes. This is the 
first competition to support innovation in higher education 
since fiscal year 2010.
    We made a good start in the bipartisan omnibus bill, and I 
think we need to continue these important investments, not cut 
them and leave fewer of our students served.


                 nondefense discretionary spending cap


    However, as the Secretary knows, there are some tough 
choices to be made under our nondefense discretionary spending 
cap. The fiscal year 2015 spending cap is roughly the same as 
the funding level for the current fiscal year.
    As I noted earlier, the Education Department's proposed 
increase of $1.3 billion is more than the increase allowed for 
all of nondefense discretionary spending.
    This makes it very difficult to provide the kind of 
investments this budget so wisely advocates. But that is not 
our only challenge. I am hopeful that this hearing will give 
the Secretary an opportunity to answer those who question the 
necessity of continuing to support the important work being 
done by your Department at all levels of education.


                           prepared statement


    Again, Secretary Duncan, I want to thank you for appearing 
before the subcommittee.
    [The statement follows:]
               Prepared Statement of Chairman Tom Harkin
    The Subcommittee on Labor, Health and Human Services, Education and 
Related Agencies will now come to order.
    Welcome back, Secretary Duncan. It's great to see you again. I'm 
glad to have you here to talk about your Department's fiscal year 2015 
budget request.
    Your budget's proposed $1.3 billion increase is one of the largest 
of any Federal agency, second only to Veterans Affairs. The increase 
proposed for the Department of Education demonstrates this 
administration's continued commitment to our Nation's future. And, the 
budget goes a step further with the Opportunity, Growth, Security Fund 
which would fully replace sequester in fiscal year 2015 and the 
subsequent 6 years of the budget.
    This stands in stark contrast with the approach of Chairman Ryan's 
budget. That budget would cut nondefense discretionary spending by $43 
billion, or about 9 percent, in fiscal year 2016, and $791 billion over 
10 years.
    The Ryan budget charts a different course than that established by 
the 2014 Omnibus appropriations bill. Congress passed that bill on a 
bipartisan basis earlier this year. This subcommittee negotiated over 
$1 billion in new funding for early learning programs at Education and 
the Department of Health and Human Services.
    We also secured over $1 billion total for Title I and IDEA, the 
core Federal programs for elementary and secondary education. The 
increases for these programs allowed us to restore most of the 
sequester cuts in fiscal year 2013.
    For higher education, we included a new investment of $75 million 
for the First in the World initiative to address college affordability. 
Colleges and universities will be able to compete for funding to test 
and develop strategies that reduce college costs and improve student 
outcomes. This is the first competition to support innovation in higher 
education since fiscal year 2010.
    We made a good start in the bipartisan omnibus bill and I think we 
need to continue these important investments, not cut them and leave 
fewer of our students served.
    However, as the Secretary knows, there are some tough choices to be 
made under our nondefense discretionary spending cap. The fiscal year 
2015 spending cap is roughly the same as the funding level for the 
current fiscal year. As I noted earlier, the Education Department's 
proposed increase of $1.3 billion is more than the increase allowed for 
ALL of nondefense discretionary spending.
    This makes it very difficult to provide the kind of investments 
this budget so wisely advocates. But that's not our only challenge. I 
am hopeful that this hearing will give the Secretary an opportunity to 
answer those who question the necessity of continuing to support the 
important work being done by your Department at all levels of 
education.
    Again, Secretary Duncan, I want to thank you for appearing before 
the Subcommittee. I turn now to Senator Moran for his opening 
statement.

    Senator Harkin. I turn now to Senator Moran for his opening 
statement.

                    STATEMENT OF SENATOR JERRY MORAN

    Senator Moran. Secretary Duncan, thank you very much for 
joining us today.
    Thank you, Mr. Chairman.

                        VALUE OF EARLY LEARNING

    There is no doubt about the important role education plays 
in a child's life. As I walk the halls of Kansas schools, I am 
struck by the faces of students who have such high hopes for 
their future. Whether opening doors to new opportunities or 
serving as a catalyst to achieving the American dream, it is 
clear that the foundation of our society is access to a quality 
education.
    And like you, Mr. Secretary, I believe that begins in the 
early years of development.
    Decades of research demonstrate that access to quality 
early childhood programs produce lasting effects on children's 
cognitive and social development. Children who are not 
proficient in reading by third grade are four times more likely 
to drop out of high school than children who read at or above 
grade level. A child's brain grows to approximately 85 percent 
of its full capacity in the first 5 years of life. Simply put, 
early learning is essential to the success of our students and 
society.
    However, as we strive to ensure all students have access to 
quality early learning and pre-kindergarten through grade 12 
programs, we must refrain from simply proposing new programs as 
the only solution, especially new competitive programs.

          FUNDING OF COMPETITIVE VERSUS FORMULA GRANT PROGRAMS

    I remain concerned with this administration's continued 
emphasis on competitive grant programs. Once again, this budget 
directs new or increased funding primarily to competitive grant 
programs. Of the administration's proposed $1.3 billion 
increase to the Department of Education's budget, no increase 
is provided for title I of ESEA (Elementary and Secondary 
Education Act) or Special Education Grants that are distributed 
by formula to every State. In fact, rather than increasing base 
funding for Special Education Grants to States, the budget 
request provides $100 million in new funding for competitive 
incentive grants under special education. Students in every 
State should benefit from any increase in funding for the 
Department of Education, yet that is not what is supported by 
the Department's budget request.
    Further, the fiscal year 2015 budget request proposes $300 
million for a new Race to the Top: Equity and Opportunity 
competition at the expense of an increase in funding for ESEA 
Title I grants. This new competition, as envisioned by the 
administration, is aimed at improving academic performance of 
students in the Nation's highest poverty schools by closing 
opportunity and achievement gaps. Yet rather than increasing 
funding for ESEA Title I grants, the cornerstone of Federal 
education funding for disadvantaged students since 1965, this 
budget invests in another new component of Race to the Top, the 
fifth since the program was created. It is important to note 
that not one of the Race to the Top components has yet 
demonstrated sustainable results.
    Mr. Chairman, the success of every student in every State 
should be our goal. The Department of Education should not pick 
winners and losers by funding only a few States to the 
detriment of students in all States.
    I look forward to working with you and the Department to 
ensure that fiscal year 2015 funding is directed toward 
initiatives that benefit all students and support increased 
educational opportunities in every State.
    Thank you, Mr. Chairman.

                 INTRODUCTION OF SECRETARY OF EDUCATION

    Senator Harkin. This is Arne Duncan's sixth appearance 
before this subcommittee. He became the ninth Secretary of the 
U.S. Department of Education on January 20, 2009.
    Before his appointment, Secretary Duncan served as the 
chief executive officer of the Chicago Public Schools. Before 
serving in Chicago, he ran the Ariel Education Initiative, 
which covered college costs for a group of inner-city youth and 
was instrumental in starting a new public elementary school, 
which ranks among the top schools in Chicago.
    Secretary Duncan also played professional basketball in 
Australia. Secretary Duncan graduated from Harvard University 
and played basketball at Harvard. He stills plays the game, so 
I guess you could say he still shoots a mean hoop.
    Welcome, Secretary Duncan.

                 SUMMARY STATEMENT OF HON. ARNE DUNCAN

    Secretary Duncan. Chairman Harkin, Ranking Member Moran, 
and Senators, the story of American education today is a good 
news/bad news story.

                    GOOD AND BAD NEWS FOR EDUCATION

    Let me begin by thanking you for your work on the 2014 
budget, which increased our investment in education over the 
previous year.
    This investment is essential for the ``good news'' side of 
the story, which is that our students are making substantial 
progress in graduating from high school and enrolling in 
college.
    Our Nation's on-time high school graduation rate reached a 
record high in 2012 of 80 percent. That is a great testament to 
the hard work of our Nation's teachers, school leaders, 
students, and their families. College enrollment is up as well 
since President Obama took office, with Latino and African-
American students leading the way.
    The bad news is that we still have unacceptable opportunity 
gaps in America, and it will be very difficult to close those 
gaps when Federal discretionary funding for education, 
excluding Pell grants, remains below the 2010 level.
    Our international competitors are not making the mistake of 
disinvesting in education, and their students are making more 
progress than America's students, endangering our country's 
competitiveness and prosperity.
    In a knowledge-based, global economy, the need to close 
these opportunity gaps and strengthen our competitiveness is 
one of the most urgent challenges facing our Nation. To 
continue to fall behind would hurt our country economically for 
generations to come.

          BIPARTISAN SUPPORT NEEDED TO CLOSE OPPORTUNITY GAPS

    So I appeal to you today to continue America's 
longstanding, bipartisan commitment to investing in education.
    Dating back to our Nation's founding, the Federal 
Government has provided incentives to State and local 
governments to invest in education and expand educational 
opportunity. Before the States ratified the Constitution, the 
Continental Congress required townships to reserve money for 
the construction of schools and granted Federal lands to States 
to create and support public schools.

                  PRESCHOOL EDUCATION OPPORTUNITY GAP

    Despite the educational progress we have made as a Nation, 
large opportunity gaps remain at a time when education is more 
important than ever to accelerate economic progress, increasing 
upward mobility and reducing social inequality.
    President Obama's fiscal year 2015 budget would increase 
investment in education to boost that progress and close those 
opportunity gaps. Sadly, those opportunity gaps start with our 
youngest learners in early childhood education. If we could 
look at our first slide, America today is 25th, 25th in the 
world, in our enrollment of 4-year-olds in preschool.
    [The graphic follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                SUPPORT FOR HIGH-QUALITY EARLY LEARNING

    Secretary Duncan. Four in 10 public school systems in the 
United States don't even offer preschool, setting the stage for 
a huge gap in school readiness that not only President Obama, 
but most of our Nation's Governors, find unacceptable.
    In the real world, outside of Washington, and away from 
congressional dysfunction, this has become a truly bipartisan 
issue. In fact, last year alone, 30 Governors--17 Republicans 
and 13 Democrats--increased funding for preschool in their 
State budgets.
    In tough economic times, these leaders chose to use scarce 
taxpayer dollars to expand access to high-quality early 
learning opportunities. Budgets, not just words, not empty 
rhetoric, reflect our true values. And these 30 Governors, in a 
bipartisan way, chose to walk that walk.
    Just one quick example, this year, Governor Snyder of 
Michigan committed to putting $65 million more into the State 
program to ensure children in need of preschool actually have 
access to it. He said he was going to make Michigan ``a no-wait 
State for early childhood education.''

          PRESCHOOL EDUCATION FUNDS IN FISCAL YEAR 2015 BUDGET

    We need to help every State to be able to make that claim.
    And that is why the President requests $500 million for 
Preschool Development Grants and $75 billion in mandatory 
funding for the Preschool for All program; programs essential 
to our Nation's future. They would support State efforts to 
provide access to high-quality preschool through a mixed 
delivery system of both public and private providers, for all 
4-year-olds from low- and moderate-income families.

                    VALUE OF EARLY LEARNING PROGRAMS

    Very encouragingly, a diverse, highly unusual coalition is 
working together to support these efforts. State attorneys, 
sheriffs, and police associations all support high-quality 
early learning because it reduces crime when those young 
children grow up.
    Military leaders support it, because a staggering three-
quarters of young adults today are not able to serve in our 
voluntary military, because they have dropped out of high 
school, can't pass the entrance exam, are physically unfit for 
service, or have a criminal record. High-quality early learning 
reduces all of those problems.
    Our military has always been our strongest defense. Our 
education system must be our strongest offense.
    In addition, hundreds of hardheaded business leaders and 
CEOs are big advocates of early learning, because they know 
high-quality opportunities produce a better workforce and have 
a high ROI, or return on investment.
    In fact, Nobel Prize-winning economist Dr. James Heckman 
found a return of $7 to every $1 of public investment in high-
quality preschool programs. I would ask how many other uses of 
taxpayer dollars have such a high rate of return for the 
American people.
    Unfortunately, opportunity gaps in early learning continue 
all the way through high school, as new data from our civil 
rights data collection shows. I will show you the next slide, 
please.
    [The graphic follows:]
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
          OPPORTUNITY GAP IN ACCESS TO POSTSECONDARY EDUCATION

    Secretary Duncan. Today, students of color, students with 
disabilities, and English language learners simply don't get 
the same opportunity as their white and Asian-American peers to 
take the basic math and science courses necessary that figure 
so importantly in preparing for college and careers.
    Often, this lack of access means students can't take the 
required classes they need to apply to 4-year universities. Or 
it means they go to college but must burn through Pell grants 
and other financial aid taking noncredit-bearing remedial 
classes because they simply weren't ready. They weren't 
prepared.
    Nationwide, black and Hispanic students are close to 40 
percent of high school students overall, but just over a 
quarter of students taking AP (Advanced Placement) classes and 
only 20 percent of those enrolled in calculus classes.
    This dumbing down of expectations is devastating to 
students, their families, their communities, and ultimately to 
our Nation as a whole.

                 GAP IN ACCESS TO HIGH-SPEED BROADBAND

    And the final slide highlights opportunity gaps in access 
to high-speed broadband in our schools. Most schools today have 
nowhere near the bandwidth they need to support current 
applications and instruction. Fully two-thirds of our teachers 
wish they had more technology in their classrooms.
    Technology both empowers teachers and engages students in 
their own learning. Simply put, other nations take these 
responsibilities and these opportunities more seriously than we 
do here.
    [The graphic follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
            PERCENTAGE OF U.S. SCHOOLS WITH BROADBAND ACCESS

    Secretary Duncan. In South Korea, for example, 100 percent 
of schools have high-speed Internet. Here in the United States, 
it is only about 20 percent, so 20 percent versus 100 percent.
    So our students, our teachers, and our schools often lack 
the bandwidth to take advantage of new technologies and tools 
that could accelerate efforts to close those insidious 
achievement gaps, to individualize instruction, and ensure that 
all students graduate from high school truly college- and 
career-ready.
    How is that fair to our children or to their hardworking 
teachers? How is that in our Nation's self-interest?

         FISCAL YEAR 2015 BUDGET GOAL--CLOSING OPPORTUNITY GAPS

    Making progress in closing these opportunity gaps is the 
ribbon, the theme that runs throughout President Obama's 2015 
education budget request. It is the overarching goal of the 
Preschool Development Grants and Preschool for All. It is 
behind our request for a $300 million Race to the Top: Equity 
and Opportunity Fund to help States and districts develop 
roadmaps to ensure that all students can reach their potential, 
and our $200 million Connect Educators initiative to provide 
teachers with the expertise they need to use technology to 
teach students to high standards and to personalize 
instruction.

                    RYAN BUDGET IMPACT ON EDUCATION

    By contrast, the House Republican budget would widen, would 
increase, opportunity gaps. OMB (Office of Management and 
Budget) estimates that the Ryan budget would cut funding for 
education by 15 percent in 2016, or by about $10 billion.
    If that 15-percent cut were applied to this year, ESEA 
Title I would be cut by $2.2 billion, and IDEA grants to States 
would be cut by $1.7 billion. That is exactly the wrong 
direction to go for our children and for our Nation's future. 
We can and we must do better, and do better together.
    The American dream has always been about opportunity. 
Today, our Nation is failing to live up to that core American 
idea for all of our citizens. We must do more now to level the 
playing field and make great public education available to 
every child. That is who we are, and that is who we should be. 
As former Florida Governor Jeb Bush says, ``The sad truth is 
that equality of opportunity doesn't exist in many of our 
schools . . .  That failure is the great moral and economic 
issue of our time, and it is hurting all of America.''
    So I ask, can we please get back to working together to 
close those opportunity gaps that we all agree are deeply at 
odds with the American promise of equal opportunity?

              LEADERSHIP CONTRIBUTIONS OF CHAIRMAN HARKIN

    And just quickly, Mr. Chairman, before I close, I just want 
to thank you so much for your leadership. I know this is 
probably the last hearing that we will do together. I have 
learned so much from you over these past 5\1/2\ years. You have 
been a lifelong advocate on very tough issues and you have 
always had a heart for those folks who don't always have the 
strongest voice themselves.
    Your leadership in the disability community is just 
exemplary. Like so many of us doing this work, this work is 
very personal for you. I have heard you speak eloquently about 
the opportunities--or, frankly, the lack of opportunities--your 
brother missed out on because he was deaf. And you have helped 
create more opportunities for literally millions of children 
who needed a voice.

                           PREPARED STATEMENT

    And finally, both you and Mr. Moran, Senator Moran, spoke 
as well on this push on early childhood education. And if we 
think about return on investment, if we think about 
strengthening our families, strengthening our country, I can 
make a pretty compelling case that the best investment we can 
make is in high-quality, early learning opportunities. And no 
one has been a clearer and more passionate advocate for that 
than you, so thank you so much. It has been a fantastic journey 
together. I will miss working with you greatly.
    [The statement follows:]
                   Prepared Statement of Arne Duncan
    I want to begin by thanking Chairman Harkin, Ranking Member Moran, 
and other Members of this Subcommittee for your work on the 2014 
appropriation for education. I appreciate the funding increases that 
you included in the fiscal year 2014 appropriation. However, it's 
important to recognize that total discretionary funding for the 
Department of Education, excluding Pell Grants, remains below the 
fiscal year 2010 level, and I worry about the long-term impact of the 
continuing slide in Federal education funding on the health of our 
economy and our democracy.
                 president obama's 2015 budget request
    Turning to 2015, the overall discretionary request for the 
Department of Education is $68.6 billion, an increase of $1.3 billion, 
or 1.9 percent, over the 2014 level. Within this total, we have six key 
priorities: (1) increasing equity and opportunity for all students; (2) 
strengthening support for teachers and school leaders; (3) expanding 
high-quality preschool programs; (4) improving school safety and 
climate; (5) promoting educational innovation and improvement; and (6) 
ensuring access to affordable and quality postsecondary education.
                         equity and opportunity
    We are requesting $300 million for a new Race to the Top--Equity 
and Opportunity competition centered on improving the academic 
performance of students in our Nation's highest poverty schools. RTT--
Opportunity grantees would support: (1) developing systems that 
integrate data on school-level finance, human resources, and academic 
achievement; (2) developing and retaining effective teachers and 
leaders in high-poverty schools; (3) increasing access to rigorous 
coursework; and (4) other evidence-based activities that mitigate the 
effects of concentrated poverty.
                support for teachers and school leaders
    A second priority in our 2015 request is to provide significant 
support for school teachers and leaders who are implementing new 
college- and career-ready (CCR) standards, turning around our lowest 
performing schools, and using new evaluation systems to improve their 
practices. A key request in this area is $200 million that would help 
educators transition to using technology and data to personalize 
learning and improve instruction, in support of the FCC's ConnectED 
initiative to equip our Nation's schools and libraries with high-speed 
connectivity. The program would benefit educators and students by 
creating high-quality, open digital learning resources aligned to CCR 
standards; using digital tools to personalize learning and implement 
new assessments; analyzing real-time data to improve student outcomes; 
using technology to increase student engagement; and providing remote 
access to effective educators.
    We are requesting $2.3 billion for Excellent Instructional Teams, 
which would provide both formula grants and competitive awards to help 
States and LEAs increase the effectiveness of teachers and principals. 
This total includes $2.0 billion for Effective Teachers and Leaders 
State Grants to provide flexible, formula-based support for States and 
LEAs; $320 million for the Teacher and Leader Innovation Fund to reform 
school leader advancement and compensation systems; and $35 million for 
a transformed School Leadership program to expand the Department's 
focus on current school leaders aimed at strengthening essential 
leadership skills.
                    expanding high-quality preschool
    The third major priority in the 2015 request is to continue the 
President's commitment to expanding educational opportunity for 
millions of children through a $75 billion mandatory Preschool for All 
program that would partner with States to support universal access to 
high-quality preschool for all 4-year-olds from low- and moderate-
income families. Our preschool request also includes $500 million to 
expand the Preschool Development Grants program that would help build 
State and local capacity to implement high-quality preschool programs.
    In addition, we are requesting $441.8 million for the Grants for 
Infants and Families program under the Individuals with Disabilities 
Education Act (IDEA), an increase of $3.3 million to help States 
implement statewide systems of early intervention services for all 
eligible children with disabilities from birth through age 2 and their 
families.
          affordability and quality in postsecondary education
    Our 2015 request also includes key initiatives to improve 
affordability and quality in postsecondary education. For example, we 
are asking for $7 billion in mandatory budget authority over 10 years 
for new College Opportunity and Graduation Bonus grants to reward 
colleges that successfully enroll and graduate a significant number of 
low- and moderate-income students on time. This initiative would 
support innovations to further increase college access and success by 
providing funding to eligible institutions based upon the number of 
Pell students they graduate on time. The Satisfactory Academic Progress 
initiative would make changes to the Pell Grant eligibility provisions 
by strengthening academic progress requirements to encourage students 
to complete on time. The Budget would also provide Pell Grant 
eligibility to students who are co-enrolled in adult and postsecondary 
education as part of a career pathway program to allow adults without a 
high school diploma to gain the knowledge and skills they need to 
secure a good job.
    Second, we would use $4 billion in mandatory funding to create a 
State Higher Education Performance Fund that would make 4-year 
competitive grants to States to support the successful implementation 
of performance-based policy and funding reforms that encourage and 
reward college affordability and ensure that students attend and 
complete postsecondary education.
    Third, our 2015 request proposes $100 million to expand support for 
the First in the World fund to make competitive awards to support 
improving educational outcomes, including on time completion rates, and 
making college more affordable for students and families, particularly 
for low-income students. The request also asks for $75 million for 
College Success Grants for Minority-Serving Institutions, which would 
make competitive awards to minority-serving institutions designated 
under Title III and Title V of the Higher Education Act.
    Lastly, we are continuing our efforts to help student borrowers 
with existing debt to manage their obligations through income-driven 
repayment plans. Our 2015 request proposes to extend Pay As You Earn, 
which caps student loan payments at 10 percent of discretionary income, 
to all student borrowers.
                 educational innovation and improvement
    We continue to support innovation and improvement in elementary and 
secondary education, beginning with $165 million for Investing in 
Innovation (i3), an increase of $23.4 million, to maintain strong 
support for using an evidence-based approach to scale up the most 
effective approaches in high-need areas. The i3 request would provide 
up to $49.5 million for the Advanced Research Projects Agency for 
Education, an initiative that would pursue technological breakthroughs 
with the potential to improve the effectiveness and productivity of 
teaching and learning.
    Second, we are requesting $150 million for a new High School 
Redesign program to support the transformation of the high school 
experience by funding competitive grants to school districts and their 
partners to redesign high schools to help ensure all students graduate 
from high school with college credit and career-related experiences or 
competencies.
    Third, our 2015 request seeks $170 million in new funding for a 
comprehensive STEM Innovation proposal to transform STEM education. 
This total includes $110 million for STEM Innovation Networks to 
provide competitive awards to LEAs in partnership with institutions of 
higher education, other public agencies, and businesses to help 
increase the number of students who are effectively prepared for 
postsecondary education and careers in STEM fields. We also are asking 
for $40 million to support STEM Teacher Pathways that would make 
competitive grants for recruiting recent college graduates and mid-
career professionals in the STEM fields in high-need schools. An 
additional $20 million would support the activities of a National STEM 
Master Teacher Corps, which would identify models to help America's 
brightest math and science teachers make the transition from excellent 
teachers to school leaders and advocates for STEM education.
    In addition, the Budget provides a $100 million increase for 
Special Education State Grants. This increase would support Results 
Driven Accountability incentive grants to improve special education 
services for children with disabilities. States awarded these grants 
would identify and implement promising, evidence-based reforms while 
also building State and local capacity to improve long-term outcomes.
    Our 2015 request also includes a request of $1.1 billion for a 
reauthorized Carl D. Perkins Career and Technical Education program. 
The reauthorization proposal would build on the experience of the i3 
program by creating a discretionary fund aimed at promoting innovation 
and reform in CTE and replicating the success of proven models.
                  improving school safety and climate
    The 2015 request would continue support for the Now is the Time 
school safety initiative by providing $50 million for School Climate 
Transformation Grants to help create positive school climates that 
support effective education for all students; $45 million for a 
Successful, Safe, and Healthy State and Local Grants program that would 
award grants to increase the capacity of States, districts, and schools 
to create safe, healthy, and drug-free environments; and $25 million 
for Project Prevent grants to help LEAs break the cycle of violence 
through expanded access, school-based strategies that prevent future 
violence.
              opportunity, growth, and security initiative
    The Administration's Budget also includes a separate $56 billion 
Opportunity, Security, and Growth Initiative. Our Education Budget 
would use this initiative to include additional investments of $250 
million for Preschool Development Grants, $300 million for the Connect 
Educators initiative, and $200 million for Promise Neighborhoods. All 
of these funds are in addition to the discretionary requests under the 
caps.
                               conclusion
    In conclusion, our 2015 Budget reflects the President's 
determination to make the investments necessary to secure America's 
future prosperity. I look forward to working with the Subcommittee to 
secure support for the President's 2015 Budget for education.

               PRESCHOOL EDUCATION LEADERSHIP AND SUPPORT

    Senator Harkin. Well, thank you very much, Mr. Secretary. I 
will respond in kind and just say that it has been great 
working with you for these last 5 years. You have been a great 
Secretary. You have really pushed the envelope on a lot of 
different things. And I think there has been tremendous change 
for the better in our schools in America because of your 
leadership.
    And I especially appreciate your strong and forceful 
leadership on early education. As you mentioned, that is 
something that I think we all--bipartisan, bicameral, 
executive, legislative--all agree on.
    Hopefully, we can come up with a good funding level for the 
preschool program. I think it has finally caught on around 
America. I did not know the number that you stated about the 30 
Governors who have increased their funding for preschool. But I 
think finally the American people, and, certainly, the business 
community has been behind this forever. For 25, 30 years, the 
business community has been pushing for more funding for 
preschool.
    So now it is really catching on. It is not too late, but I 
wish we would have done this 25 years ago.
    But your leadership has been great on this. I appreciate it 
very much.
    And this is the last time I will chair a budget hearing 
with you, with the Department of Education. And wouldn't you 
know it, my last year here, we have a tough budget. So we have 
some tough things to work out, but we will. We will work them 
out, and we will do our best to meet our obligations and do our 
best to work out with you and the President a meeting of the 
minds between the interests of the people on this committee and 
the legislative branch and the interests of the executive 
branch. I am sure we will get that done.
    So again, Mr. Secretary, I thank you for your great 
leadership. I am going to miss our association a lot.

          SPECIAL EDUCATION IN FISCAL YEAR 2015 BUDGET REQUEST

    Mr. Secretary, we will start a 5-minute round of questions 
now. Let's start with kids with disabilities. We made great 
progress on access, thanks to IDEA. We are improving quality of 
services. We have lifted IDEA funding in the Recovery Act. We 
did up to 33 percent, which got us close to the 40 percent, 
which we had promised so many years ago when I was a House 
Member.
    But we have more to do to make sure that students with 
disabilities are graduating with the skills and knowledge 
needed to succeed in postsecondary education and the workplace.

             RESULTS DRIVEN ACCOUNTABILITY INCENTIVE GRANTS

    That is why I was concerned to see the lack of any increase 
in IDEA formula funds. However, you do have an increase 
proposed--targeted to the Results Driven Accountability (RDA) 
incentive grants, which I am all for, because we are trying to 
change, as I said to you one time before, the focus on kids 
with IEPs (Individualized Education Program), so that when they 
get out of school, they won't feel that the only place for them 
to go is into subminimum wage jobs, that they can actually go 
out for competitive, integrated employment in the workplace.
    So many businesses have found that these people with 
intellectual disabilities can do a lot more than what we 
thought they could do in the past.
    And so I want to know more about the RDA incentive grants, 
and how you are going to work with, let's say, Vocational 
Rehabilitation on the HHS (Health and Human Services) side and 
the Department of Labor side to mesh these, to look at what 
schools can do, how they can work with the States' workforce 
development programs, to get these kids ready for competitive, 
integrated employment when they get out of school.

                 CHANGING SPECIAL EDUCATION TO OUTCOMES

    Secretary Duncan. So I really appreciate the opportunity to 
talk about this. And Michael Yudin, who leads this office, I 
think is doing extraordinary work, and really challenging us to 
challenge the status quo.
    As you know, we try to push States and districts very hard 
to raise expectations and raise the bar, and we have to do the 
same internally. And while we have done some really good things 
and good things together, I think a pretty compelling case can 
be made that, in this area, there probably has been too much 
focus on compliance, too much focus on checking boxes, and not 
enough focus on exactly what you are saying. Are we preparing 
these young people to be successful, to be self-sufficient in a 
competitive workforce, and focusing not just on inputs and on 
compliance, but on outcomes?
    What are we doing to increase high school graduation rates? 
What are we doing to increase college graduation rates? What 
are we doing to increase a successful transition into the 
workforce? We want to challenge people to step up and do more 
here.
    We want to identify those best practices. We want to 
replicate them. We want to take them to scale.
    So I am happy to talk further off-line. It would be great 
to have you and Michael Yudin spend some time together.
    But we think there is a chance to take the hard work that 
is going on around the country to a different level, and we 
want to be part of the solution, not part of the problem.
    Senator Harkin. Thank you, Mr. Secretary. I look forward to 
working with Mr. Yudin and our staff, if not on this committee, 
on the authorizing side, too.
    But I am just very interested in this funding for that new 
initiative.

            COLLEGE OPPORTUNITY AND GRADUATION BONUS GRANTS

    Let me just ask about college affordability. As you know, 
this is one of the key things we are going to be looking at, 
both on the authorizing level and on the appropriations level, 
too.
    We included a new investment of $75 million for the First 
in the World initiative in last year's omnibus. It will provide 
competitive grants to colleges and universities to develop and 
test strategies to make college more affordable and improve 
student completion rates. The higher education community has 
not had an opportunity to compete for funds that support 
innovation since fiscal year 2010.
    So this recent investment represents a long overdue 
opportunity to start moving the needle on college costs and 
student success at campuses across the country.
    Can you just provide a few details on what the Department 
hopes to accomplish with the upcoming competition for these 
funds?
    Secretary Duncan. Well, I think that the cost of college 
and college affordability is just a hugely important issue and 
one that we have a lot of work on ahead of us.
    And hardworking American families, not just in 
disadvantaged communities, but middle-class families, in far 
too many places, people are starting to think that college is 
for the wealthy, not for them.
    And I always tell the story--it was actually a visit to 
Iowa--where we did a town hall meeting and a young girl came up 
to me afterward and was talking--very sharp, very committed--
and ended up saying, she is a twin. She was a senior in high 
school, and this is like 2 years ago. But she said her parents 
had been trying to decide which twin to send to college, her or 
her brother.
    It was absolutely devastating. And families should not be 
put in that position. So we all have a lot of work to do to 
make college more accessible, more affordable.

                FIRST IN THE WORLD IN COLLEGE COMPLETION

    What we are trying to do in First in the World is 
incentivize universities to move in that direction, to focus on 
keeping costs down, to focus not just on access but completion 
rates at the backend. The goal is not to go to college; the 
goal is to complete at the backend.
    We are going to put out a notice on the First in the World 
competition in probably the next month, in mid-May, and then 
awards would go out by the end of the fiscal year in September.
    Senator Harkin. Well, that is good. That is good to know. I 
didn't know that. Thank you very much, Mr. Secretary.
    Senator Moran.

                    COLLEGE RATINGS SYSTEM CRITERIA

    Senator Moran. Mr. Secretary, let me start with my 
questions about, in this case, higher education. The President 
has directed that the Department develop a new college rating 
system for the 2015-2016 school year. And in this budget 
request, the request is made for $10 million to further develop 
that program.
    Let me raise a couple questions and thoughts about this 
topic.
    First of all, I would like to know, to date, what has 
transpired. And if we don't specifically include the $10 
million in this appropriation bill, does the Department intend 
to continue to develop this college rating system?
    Secondly, let me raise the topic of performance information 
for the college rating system that could be used to determine 
that criteria. I know it is in the works. You don't have the 
criteria in place yet.
    But I am concerned that, depending upon that criteria or 
the incentive that is created by this rating program, will it 
discourage universities from encouraging students from 
difficult backgrounds to pursue a college education? I guess 
they don't discourage the student; they just discourage them 
from coming to their university.
    And then finally on this topic, depending upon those 
metrics, how will you take into account something that I think 
is very important for us to, certainly, not discourage and if 
we can encourage, it is good, but if there is any criteria that 
is based upon the college graduate's income, what we would call 
financial success, are we not excluding people who enter the 
military, young people who decide they want a faith-based 
career, missions work----
    Secretary Duncan. Teachers.
    Senator Moran. Teachers. Yes, I almost beat you to that 
word.
    Are we not discouraging some things that are very noble in 
our society, if there is any criteria based upon what we would 
call ``success'' by those college graduates?

             CONSIDERATIONS IN DEVELOPING RATINGS CRITERIA

    Secretary Duncan. Those are all great questions, and we are 
working through all of those very tough issues as we speak. 
Again, I would be happy to have these conversations with you 
and your staff in detail.
    So to be clear, if we come up with something that does 
those things that you talked about, then we would have failed. 
So we absolutely want to not discourage, but encourage 
universities to take young people who are Pell grant 
recipients, who are first-generation college-goers. And if we 
do the incentive structure wrong, that will be a problem.
    We have some very clear thoughts about how to do it, to 
encourage universities to do it, and not discourage it. But 
happy to do that.
    We need more teachers. We need more social workers. We need 
more people to go into Government service. We need more people 
to go into the Peace Corps. And so making sure we encourage 
that, rather than discourage that, will be key.
    So we are being very, very thoughtful in how we put this 
system together. We are taking a huge amount of time. I have 
said repeatedly, we are going into this work with a great sense 
of humility.
    We have had dozens and dozens of roundtables with college 
students and college presidents and boards. I am happy to sit 
down with you and your staff to work it through. And our only 
interest is getting this right.
    Let me talk to you about, as difficult and intellectually 
challenging as this is, why it is so important.

                EDUCATION INVESTMENT IN HIGHER EDUCATION

    Together, you and I, all of us, we put out about $150 
billion in grants and loans to support higher education each 
year, $150 billion. Similar to the IDEA special education 
grants conversation, virtually all of that is based on inputs. 
Virtually none of that is based on outcomes.

             NEED FOR FOCUS ON COMPLETION AS WELL AS ACCESS

    So taxpayers are supporting a massive investment each year 
and have very little sense of whether they are getting a good 
return on that or not.
    As you know, some universities do a great job of increasing 
access. Others, frankly, don't. Some do a great job of 
encouraging first-generation college students to come. Others 
don't.
    I am very focused not just on access, but on completion, on 
attainment. Some universities do a great job of supporting 
students through mentoring programs and bridge programs. Others 
let them walk in the door, and they sort of sink or swim on 
their own.
    So we think we have to do something better. We have to do 
it together. We have to do it very thoughtfully.
    But having none of our money moving toward universities 
that are taking these responsibilities that you and I think are 
so significant, so profound, the status quo doesn't make sense 
to me.

           COMMITTED TO DEVELOPMENT OF COLLEGE RATINGS SYSTEM

    Senator Moran. In the absence of that $10 million being 
included in our appropriation bill, do you have the money and 
the authority to pursue this program?
    Secretary Duncan. We absolutely need to pursue this. We 
will pursue it. The money would be very, very beneficial. It 
would be very helpful. But we are moving forward on this, yes.
    Senator Moran. Thanks very much, Mr. Secretary.
    I don't have enough time to ask a second question. I will 
have an opportunity later.
    Senator Harkin. Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    Mr. Secretary, welcome. It is good to see you.
    Let me discuss something that I am sure we agree on, and 
something I am afraid we disagree on, and ask you a question 
about it.

              STUDENT PERFORMANCE-BASED TEACHER EVALUATION

    We agree that we want higher standards for our 100,000 
public schools. I am pretty sure we agree that teacher 
evaluation based on student performance is sort of the Holy 
Grail of elementary and secondary education.
    Where I am afraid we disagree is that I believe that is a 
State and local responsibility, and you believe it can be 
required from Washington, DC.

                 NO CHILD LEFT BEHIND WAIVER AUTHORITY

    For example, you revoked a waiver the other day for the 
State of Washington because the legislature there wouldn't 
enact a teacher evaluation system according to your standards. 
Now, I looked at the law, Federal law, and section 9527 of the 
Elementary and Secondary Education Act says: An employee of the 
Federal Government can't mandate, direct, or control a school's 
curriculum, program of instruction. Section 1232 of the 
Elementary and Secondary Education Act said: Any department or 
agency here cannot exercise any direction, supervision, or 
control over curriculum, program of instruction, personnel. 
Section 3403 of the Department of Education Organization Act 
prohibits any direction over curriculum, instruction, 
personnel.
    In other words, it is clear to me that Congress says no 
national school board.
    Looking for the authority for you to make decisions like 
this, I go to the Secretary's waiver under No Child Left 
Behind, which is very simple. It says you may waive any 
requirement of the act that a State asks you to waive.
    But it seems to me, if it were ``Mother, May I,'' the old 
childhood game, you have turned it into where the child says, 
``Mother, may I go outside and play,'' and you say, ``Yes, you 
may, but you need to sweep the floor, and make your bed, and 
cook the breakfast, and go to school, and do your homework, and 
be nice to your father,'' and do all these things. And the kid 
said, ``I didn't ask about that.'' And the mother said, ``Well, 
that is what you have to do.''

           REQUIREMENTS TO OBTAIN NO CHILD LEFT BEHIND WAIVER

    To get a waiver for No Child Left Behind, for example, your 
requirements say you have to adopt standards. There are two 
versions of that that are approved, only two. You have to adopt 
ambitious, achievable performance goals about whether schools 
are succeeding or failing. There are two versions of that, only 
two. You have to have prescriptive turnaround models if schools 
are low-performing and have significant achievement gaps. There 
are four types of that, only four. And you have to have a 
certain kind of teacher and principal evaluation. It has to 
meet each of seven Federal criteria. And this didn't happen in 
Washington State.
    Now you know how much I care about teacher evaluation. 
Tennessee became the first State to do it when I was Governor. 
But I don't think you can do it from here or order it from here 
or define it from here.
    And in my opinion, what you are doing with this very well-
intentioned overreach, I think, is creating a backlash among 
conservatives who don't like the Federal Government involved, 
and a backlash among teachers unions who don't want any form of 
student achievement related to teacher evaluation. And you are 
undermining, I am afraid, the very high standards and teacher 
evaluation systems that I think both of us want to do.
    In other words, I think the way to get to where both of us 
would like to go is not by ordering it from here, but by 
letting the Governors and the States have the responsibility to 
do it.

            TEACHER EVALUATION AND FEDERALLY GRANTED WAIVERS

    So my question is: Would you please explain to me how using 
your waiver authority to place conditions on States about 
common standards, about performance targets, about teacher 
evaluation systems that are not otherwise required by Federal 
law--and in the case of standards, in my opinion, is prohibited 
by the law--how does that not amount to, in effect, a national 
school board?
    Secretary Duncan. This is a conversation you and I have had 
a number of times. Just to be very, very clear, to paraphrase a 
former Senator, I know what it is to be a superintendent. As 
you know, I used to be a superintendent, and I am not a 
national superintendent now.
    And what we have tried to do is very simple. Where States 
want to move away from the onerous provisions of No Child Left 
Behind, where they want to partner with us, and where we want 
to provide some flexibility, we just say some very simple 
things. You have to have high standards. And they can be State-
developed. They can be common. We are open there. There is lots 
of flexibility there in terms of what folks have done. We just 
say you can't dummy down standards.
    Again, you have the right to do that. We are just not going 
to provide you additional flexibility, if you are dumbing 
things down.
    We think that the goal of teaching is not to teach. The 
goal of teaching is to actually have children learn and to have 
a piece of teacher evaluation be based upon student learning, 
we think, is just sort of basic common sense.
    I think it is very important that we use language very 
precisely, encouraging high standards. Again, common, or not 
common, our goal is high standards. We feel very good about 
that.

              NO FEDERAL ROLE OR INVOLVEMENT IN CURRICULUM

    We never have, never will, touch curriculum. Curriculum is 
not standards. Those things get conflated either through--well, 
I won't get into why they get conflated. But standards are the 
bar we want people to reach, which is college- and career-ready 
once they graduate from high school.
    How you teach to those standards is curriculum. And it 
would be the height of arrogance for us to say anything about 
it. We never have, and we never will. That is always best left 
up to local communities.
    And so again, I would just use as a case study of where I 
think we have been a very important, effective partner, Exhibit 
A, quite candidly, Senator, is your State, the State of 
Tennessee.
    I came to that State 2 or 3 years ago. Tennessee was one of 
the lowest performing States in the Nation. I challenged the 
State to figure out, could it be the fastest improving State in 
the Nation, not the highest performing, but the fastest 
improving.
    I think if you asked your Governor, who I have a tremendous 
relationship with, if you asked your State superintendent, who 
I have a tremendous relationship with, have I and my Department 
supported them in their efforts--not told them what to do, not 
mandated things, but supported them in their efforts--I think 
we will let their words speak for themselves.
    And we are thrilled--thrilled--that Tennessee is the 
fastest improving State in the Nation. And all the credit goes 
to the great work at the local level. But I would like to think 
a small bit of the help of support they got from us has been 
part of that story.
    So I will stop there.
    Senator Alexander. Thank you, Mr. Chairman.
    This is a longer conversation, and my time is up.
    Senator Harkin. Thank you, Senator.
    Senator Landrieu.
    Senator Landrieu. Thank you very much, Mr. Chairman. And 
let me begin by thanking you for your extraordinary leadership 
all these years on this committee. And as an appropriator and 
an authorizer, you have had just an enormous impact for good 
for our country, for our children's health and education. And 
it has been an honor to work with you, and I look forward to 
our next few months together in these roles.

                         CHARTER SCHOOL PROGRAM

    Mr. Secretary, you know that I have been, along with many 
Members of Congress, both Democrats and Republicans, a strong 
champion for charter schools, for public charter schools--
public, open access, free charter schools--that are really, in 
essence, independent, entrepreneurial, inspirational, exciting 
places in this country, for the most part. Not every charter 
school is inspirational or working. But the idea of it, the 
model of it, is very entrepreneurial.
    I know that you are familiar with the just unbelievable 
growth in grades and academic achievement happening in Orleans 
Parish, which is sort of ground zero in a positive way for the 
charter school movement that Senator Alexander has been so 
supportive of, and Representative Miller, Representative 
Cantor, and Representative Kline, and a growing number of 
Senators here of both parties.
    So it was perplexing to me, having been able to see so 
carefully and so closely the tremendous opportunity that kids 
of all races and backgrounds are achieving in public charter 
schools, to see in your budget flat funding for this 
initiative, the charter school program. It was disappointing to 
see the level of charter school funding flat.
    Can the Department outline your expectations for successful 
implementation of the charter school program, given the level 
of funding at $248 million for 2015?
    And the reason I say that is because I know that moving to 
charter schools is not the answer for every failing public 
school. I realize that there are other choices, good choices, 
that can be made.
    But the evidence is in and clear that charter schools that 
are operating with quality leadership, it is in--the evidence 
is in; it is indisputable. With quality leadership, with open 
enrollment, with choice, it is actually working. And I see it 
every day when I go home.
    So why did you all flat fund it? And do you not agree with 
the evidence that has been presented to you and your 
department?
    Secretary Duncan. I appreciate your tremendous leadership 
and courage on this issue and others.
    I think the charter community has felt very well-supported 
by me and our administration. I think we have lots of bows and 
arrows, slings, to show for some of the challenges we have 
faced in support of that.
    These are, obviously, very tough budget times. We are 
thrilled to be able to maintain funding there.
    I just want to be very clear, for the record, that I am 
just a huge proponent of high-performing public schools, be 
they traditional schools or charter schools. And so many of the 
extraordinary public schools that I have seen in disadvantaged 
communities are charters, where they are changing the 
opportunity structure for kids and families----

        FUNDS FOR CHARTER SCHOOLS AND SCHOOL IMPROVEMENT GRANTS

    Senator Landrieu. Let me ask you this, then, because you 
and I have had a long conversation about this, like you have 
with Senator Alexander over the issues that he raised.
    You always say that, ``I am a strong supporter of high-
performing public schools.'' So we have $248 million for public 
charters, which are a proven model, when they work correctly. 
We then gave you, over the last several years, billions of 
dollars for traditional public school improvement.
    Do you know how much money to date this administration has 
been given, to you by Congress, for that? What is it, $6 
billion? Is that the number for----
    Secretary Duncan. Which fund? Which item are you talking 
about?
    Senator Landrieu. School Improvement Grants.
    Secretary Duncan. Oh, okay.
    Senator Landrieu. How much money have you had for School 
Improvement Grants? How much?
    Secretary Duncan. Yes, that is the right ballpark, yes.
    Senator Landrieu. About $6 billion.
    Secretary Duncan. Yes.
    Senator Landrieu. Okay, for School Improvement Grants.
    So my question is: You have given a very small amount of 
money for public high-performing charters. The evidence is in 
that they work. We have given 10 times that much money to 
School Improvement Grants for traditional public schools. So 
can you take 30 seconds, and then submit in writing to me, what 
evidence do you have that the $6 billion that we have spent for 
general improvements in public schools, not charters, what 
other models are working? And are they working as well as 
charters?
    Secretary Duncan. A couple things. Let me just walk through 
the math.
    That $6 billion is aggregated over a couple years. If you 
aggregate the charter money, it would be closer to $1 billion 
or so.
    Senator Landrieu. Okay, so it is $1 billion versus $6 
billion.
    Secretary Duncan. Roughly.
    Senator Landrieu. That is good.

                    SCHOOL IMPROVEMENT GRANTS FUNDS

    Secretary Duncan. This funding is going to the bottom 5 
percent of schools in the Nation, to turn them around. This is 
tough work. It is challenging. No one ever has funded this 
before.
    Part of the reason high school graduation rates are up 
across the Nation is we are challenging those dropout 
factories.

          CHARTER SCHOOLS AS MEANS FOR TURNING AROUND SCHOOLS

    One of the potential models that Senator Alexander talked 
about for those turnarounds is to convert to charters. Quite 
honestly, one of the challenges we have faced is that I would 
love more folks in the charter community to think about turning 
around traditional schools, and there has not been a lot of----
    Senator Landrieu. That is exactly what we have done in New 
Orleans. And I know I am taking my time, but 20 more seconds.
    The charter community, which is $1 billion with 1 million 
kids on the waiting list, is turning around, in our State, the 
lowest performing schools, taking them from the lowest to the 
highest. It is a model that works. It has been proven, proven, 
proven, proven.
    Secretary Duncan. So charter----
    Senator Landrieu. Let me just finish.
    It is a proven model. So I am going to be pressing this 
budget to spend our money where it works, and stop spending 
money where it doesn't. It is just as simple as that.
    So I am going to be looking for some very hard evidence on 
the $6 billion that you all have spent on general turnaround 
models, because I want you to prove to me that those other 
models work, because I know the charter model works.

            CHARTER SCHOOL ACCESS TO SCHOOL TURNAROUND FUNDS

    Secretary Duncan. Okay, just to be very, very clear, 
charters can access that $6 billion as a turnaround, and we 
don't have many charter providers who want to do this work.
    Senator Landrieu. I don't agree with that, but we will look 
into it.
    Secretary Duncan. Okay.
    Senator Harkin. Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary.

          COMPETITIVE GRANT VERSUS FORMULA ALLOCATION PROGRAMS

    Mr. Secretary, one thing I wanted to draw to your attention 
that I am sure you have heard many times before; we have 200 
school districts in Oregon, many of them very small. They 
consistently ask me to encourage the Department to focus on the 
formula funding distributions, simply because they don't have 
grant writers.
    They don't have extra administrators who can write grants. 
They are stressed as it is. This is something I can relate to. 
I ran small nonprofits, and I was a grant writer. And I was a 
grant writer between midnight and 2 a.m. to try to get those 
grants out. And after you write five or six of them, and 
nothing comes back, you kind of give up.
    So they feel like the emphasis on grant writing is highly 
disadvantageous to small schools. And I have heard that in 
every part of my State. So I just wanted to emphasize that 
message back to you.
    Is that something you are familiar with?

      COMPETITIVE GRANT PROGRAMS AS PERCENTAGE OF EDUCATION FUNDS

    Secretary Duncan. Very aware of. And just to be clear, and 
it is sometimes a misconception here, approximately 89 percent 
of our budget is formula based. Only about 10 percent or 11 
percent is competitive. So the majority of every dollar, $.89, 
is going out on a formula basis.
    Having said that, we feel very good about the few programs 
we have on the competitive side. We have seen, increasingly, 
rural districts come in. We have seen consortia of districts 
come in. And we can sort of walk through whether it is a 
Promise Neighborhoods initiative or the Investing in Innovation 
Fund, where we have gotten some very nontraditional players, 
folks who think they can't compete or can't play are able to 
come into the game and do very, very well.
    So please challenge us to make sure we continue to level 
the playing field when we do that. But we think we have 
actually gotten better at that over time.
    Senator Merkley. Well, I will just note that the 2015 
proposals take the discretionary grant funds from 10 percent of 
the budget to 16 percent of the budget, which is the opposite 
of the direction my school districts would like to see us go. 
So I would just share that back with you.

                  HIGH COST OF POSTSECONDARY EDUCATION

    One of the things I am extremely concerned about is the 
cost of higher education. In this regard, certainly, I support 
more Pell grants. I support tuition freezes. I support low 
interest rates on student loans.
    But even with all that, in working-class communities, there 
is a growing conversation about whether or not there is really 
a pathway for children to succeed. And they are worried. And 
their parents are worried about having their kids trapped 
between high loan payments and low wages, and being squeezed 
between those.
    And demographically, we are actually seeing this impact in 
terms of people living in their parents' spare bedrooms, their 
basement, and marriage being postponed. It is not just an 
unfounded fear; it is a real thing.
    And it goes to the heart of an aspirational society where 
every child has a path to succeed.

                    OREGON'S PAY IT FORWARD PROGRAM

    There is a concept that has started in Oregon called Pay It 
Forward, which is designed to address this. It basically says, 
instead of getting a loan, you get a Pay It Forward grant. And 
in exchange, you pledge to pay back 2 percent of your future 
income over 2 decades, roughly, roughly speaking.
    The details are more complicated to work it out, but I am 
proposing experimenting with this, because it solves that 
compression, because you can't be trapped between low wages and 
high loan payments, because if your wages are low, your 
payments are low. And if you are the next Bill Gates, then you 
have the blessing of putting $1 billion or $2 billion into the 
grant fund for the next generation.
    It would create a different message that, indeed, there is 
an aspirational path for every child to succeed.
    Do you support experimenting with this type of different 
approach? Are you willing to engage deeply in the conversation, 
because our current system is not working?
    Secretary Duncan. First of all, Senator, I just want to say 
how much I appreciate your sensitivity on these issues. You 
understand them at a level of detail and nuance that most folks 
don't. You have lived this. You represent folks who are living 
this. And so having your thoughts, having your advice on this, 
is hugely helpful.
    That Pay It Forward model is very, very interesting to me. 
As you may know, it is based on the Australian and New Zealand 
models. I spent 4 years in Australia. My wife is Australian. 
She went to school there. So I am very, very familiar with it. 
I am happy to discuss it further. I am happy to look at whether 
you can experiment or do an exercise or do something 
interesting there in Oregon.
    But together, whether it is that or something else, I think 
we all have to find ways to do something radically better than 
what is happening today.
    So thinking outside the box, thinking differently, this 
idea came not from a bunch of academics, but from students in 
Oregon who are very, very thoughtful in doing the research and 
looking internationally. So we would love to continue the 
conversation in a meaningful way.
    Senator Merkley. Thank you. I will take you up on that 
offer to continue that conversation, because for untold numbers 
of high school students right now, they are getting the message 
from their community that they might as well give up, because 
they are not going to be able to afford to go forward. And that 
is something that should concern all of us.
    This is the American dream just slipping through our 
fingers for millions of working Americans.
    Secretary Duncan. Just quickly, we have tried to do as much 
as we can. There is a lot of work to do. We had, as you know, a 
$40 billion increase in Pell grants, without going back to the 
taxpayers for a nickel. It went from 6 million Pell recipients 
to almost 9 million, a 50-percent increase, many first-
generation college-goers, probably many of the residents you 
represent.
    So we feel great about that, but we have a lot of hard work 
ahead of us. We are not where we need to be.
    Senator Merkley. Thank you, Mr. Secretary.
    Senator Harkin. Senator Moran.
    Senator Moran. Mr. Secretary, there is an irony here that 
at least I see as an irony, that I want to explore with you.
    The President announced the ConnectED initiative last June, 
and the goal was to get 99 percent of our schools across the 
country to be connected. And, certainly, I am pleased by that. 
We work hard at bringing broadband services to rural America. 
It is a high priority for me.
    You have a part of that, and your budget request is for 
$200 million for a new Connect Educators part of that program. 
It is to train and bring our teachers up to a level of 
understanding and appreciation for what may come when 
connectivity actually occurs.
    But 84 percent, almost 85 percent, of the money that you 
are requesting of that $200 million is based upon a competitive 
grant. So you are asking rural and underserved areas of the 
country to compete for the $200 million that is in your budget.
    The irony of that to me is this: That we have already 
determined that we have these rural schools that will struggle 
to connect. And then we are making them compete for the money 
to help them be prepared for the money that will come.

          ABILITY OF RURAL SCHOOLS TO COMPETE FOR GRANT FUNDS

    To me, this is the broader issue that I tried to raise in 
my opening statement, in which we have competitive grants--and 
this is in part me being an advocate for rural America, an 
advocate for a State like ours.
    I will speak at graduation in 1\1/2\ weeks. There are 11 
high school seniors graduating from the class. Those kind of 
circumstances can't lend themselves to being capable of 
competing for the grants that your Department so actively 
promotes.
    And it seems to me, the point I want to make and have you 
respond to, is here we have a program that is initially 
designed to help rural schools. But even rural schools have to 
compete for those dollars. And already the decision has been 
made that there is a disadvantage.
    And my point being that those disadvantaged schools, 
whether it is this interconnectivity issue or it is Title I or 
it is IDEA, we just have school districts that are unlikely to 
be able to compete. They don't have the personnel. They don't 
have the grant writing expertise. It is hard to find somebody.
    Many of our school districts in Kansas will have a school 
superintendent who is also the building principal. And yet, we 
are asking those schools to figure out how they can compete for 
dollars that you want to use to promote excellence. I want to 
promote excellence, but I want to make certain we don't leave 
behind those that we claim already are underserved or 
disadvantaged because they are rural.
    Secretary Duncan. Great questions. I actually think we have 
very good answers. Again, I would be happy to follow up with 
you later.
    So we have, frankly, thought all these things through. When 
we do these competitions, we are not going to the wealthy 
communities. When we do Promise Neighborhoods, we are going to 
the most disadvantaged communities.
    So we are very intentionally targeting in these 
competitions those areas of the greatest need, not of the 
greatest grant writers, not of the greatest wealth.
    And again, if you look program by program, School 
Improvement Grants, Promise Neighborhoods, the Investing in 
Innovation Fund, when we did the School Improvement Grants that 
Senator Landrieu talked about, there was a huge outcry that 
rurals couldn't compete, it wouldn't work in rural communities. 
Quite surprisingly, to us, rural communities actually got 
slightly more than their ``fair'' share; they got 
disproportionately more of the dollars than did urban and 
suburban areas and have, frankly, done very, very well.
    So you can look across what we have done. We have made some 
significant grants in places like Appalachia. We have made 
grants in poor rural communities in other parts of the Nation.
    We have done competitive priorities. We have done absolute 
priorities and set asides. And again, I would be happy to talk 
through the structure with you. But we think we have done, 
frankly, over time, a pretty good job of making sure those 
rural communities who don't have the fancy grant writers are 
being very well-served.

                  MAXIMIZING IMPACT WITH LIMITED FUNDS

    The other important point to make is that, as you guys 
know, $200 million sounds like a lot. Spread across 15,000 
school districts, that is like pennies. And trying to maximize 
the benefits with scarce tax dollars--we are asking for $200 
million. I could use $2 billion, $4 billion, pick a number. It 
is just not realistic in these financial times. I understand 
that.
    We are trying to make sure that we have maximum impact in 
the places that could use the money the most, again, not the 
wealthiest districts, not those with the best grant writers, 
but to have maximum impact in the places that could use it the 
most.
    The final thing I will say is that, as we do the Connected 
Educators part, as the FCC (Federal Communications Commission) 
looks to increase access to high-speed broadband, we know rural 
communities have the greatest need. We know that is where the 
greatest cost is going to be. Just know that we are absolutely 
committed to serving those communities.
    Senator Moran. I don't think that there is a set aside for 
rural districts in Connected Educators. It is a broad program 
for all schools across the country to compete.
    Secretary Duncan. Again, we are happy to work it through, 
but whether it is a set aside, whether it is a competitive 
advantage, we want to make sure that every competition we do is 
being used in very different communities because we are trying 
to create spots that can demonstrate best practices.
    So we can work through with you, technically, how we are 
going to set this up. But rest assured, we will make sure that 
rural communities get their fair share of those resources.
    Senator Moran. Thank you.
    Senator Harkin. Thank you, Senator Moran.
    We have been joined by our neighbor to the east, Senator 
Kirk.
    Welcome. I yield to you, if you are prepared.
    Senator Kirk. I am.

                  ALL YEAR SCHOOL STUDY ACT (S. 2029)

    Mr. Secretary, I have a present for you. I wanted to give 
you this chart, which shows countries that have all-year 
schools substantially outscoring the United States. It is for 
you and your office, so you can always look at it and be 
reminded of S. 2029, which Senator Booker and I have endorsed.
    [The chart and information on All Year School Study Act 
from Senator Kirk's office follow:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

                  From the Office of Senator Mark Kirk
                   all year school study act, s. 2029
    Kirk-Booker bill to establish a pilot program for year-round 
schools to boost academic achievement in low-income, low-performing 
districts
The Problem
    A long summer vacation within the school calendar is an outdated 
relic from the agricultural economy of 19th century. We no longer need 
kids to bring in the harvest. Moreover, the long summer breaks of the 
traditional school calendar can be detrimental to academic achievement.
  --Over the course of the summer, students lose on average one-month 
        of math skills
  --Low-income students lose as much as 3 months of learning in reading 
        skills while their higher-income peers actually make gains in 
        the same skills
    However, very few schools have adjusted their calendars.
Year-Round Schools Are an Effective Solution
  --In Illinois, year-round schools have been consistently successful 
        at increasing academic achievement. At Alain Locke Elementary 
        in Chicago, 25% and 23% more low-income students hit state 
        benchmarks in reading and math than the state overall. It was 
        also recognized by the U.S. Department of Education as 1 of 7 
        schools in the nation best at ``Closing the Achivement Gap.''
  --A 2012 study of year-round schools in Virginia found that certain 
        student groups are more likely to improve faster. 74% and 65% 
        of African American students at year-round schools improved 
        faster than their traditional calendar peers in reading and 
        math respectively.
  --The United States overall has seen stagnant growth for student 
        performance in recent years, while other OECD countries that 
        employ year-round schools such as Singapore, Japan, and 
        Austrailia routinely dominate on international math testing.
  --According to 2013 PISA results, the U.S. average math score was 13 
        points below the OECD average, meanwhile Singapore, whose 
        average scores ranked 2nd overall, outscored the OECD average 
        by 79 points.
    We need to cultivate our future workforce to be prepared to master 
the skills of the 21st century information economy--and follow the 
example of some of our toughest competitors by embracing innovative 
approaches to education.
All Year School Study Act
  --Authorizes a $4 million multi-year pilot program to establish year-
        round schools in the U.S.
  --Target low-income, low-performing areas and focus on STEM 
        education.

    Staff Contact: Jordan Hynes

                          YEAR-ROUND SCHOOLING

    Senator Kirk. I just wanted to get you on the record: Do 
you endorse this legislation to encourage all-year school?
    Secretary Duncan. First of all, it is great to see you and 
to be able to work with you.
    And there are other areas where we need lots of studies. I 
am not sure if we need another study on summer reading loss. We 
have study after study after study, particularly in 
disadvantaged communities, where teachers work hard to get 
children to a certain point in June, and they come back in the 
fall, in September, and they are further behind than when they 
left. It is absolutely heartbreaking.
    So I will take it one more step. We don't need just longer 
years. We need longer days. We need longer weeks. We need to 
think about time in a very different way. And again, not for 
every single child.
    When Senator Landrieu, before you got here, Senator Kirk, 
talked about high-performing charter schools, many of those 
high-performing charter schools, they just have longer school 
days. They are working on Saturdays. They are working through 
the weekend.
    We talked a lot in my opening statement about opportunity 
gaps. We have to close those opportunity gaps with more time 
with great instruction, more time with great academic 
enrichment, more time for debate and academic decathlon, and 
yearbook, and drama, and sports, and robotics. All those types 
of things--summer months, after school, Saturdays--give us a 
chance to give children what they need to be successful.
    Senator Kirk. As you remember, in Chicagoland, we increased 
the learning time for Chinese to make sure that people could 
get some sophistication in that language, which was a key thing 
for Chicago Public Schools to make sure we had kids who were 
prepared for the 22nd century economy.
    Secretary Duncan. So when I talk about more time and longer 
days and longer weeks, adults usually cheer and kids usually 
boo or throw tomatoes at me. So be prepared for a few tomatoes 
to be thrown your way as you talk about this.
    Senator Kirk. I think Cory and I can handle it.
    Senator Harkin. Senator Kirk, anything else?
    Senator Kirk. That is it.

                       CHAIRMAN'S CLOSING REMARKS

    Senator Harkin. We are going to close up here. I will just 
say that I tend to think that we do need longer school days. I 
don't know about a longer week.
    Longer school days and a longer school year, I would agree 
with Senator Kirk on that. Our days are very, very short. I do 
think we need to look at longer school years also.
    Mr. Secretary, do you have anything else that you want to 
add?
    Secretary Duncan. Again, thank you very much for your 
leadership.
    Senator Harkin. Thank you.
    Secretary Duncan. And I know you, as a leader here, have 
some very tough budget decisions to make. But you have always 
been collaborative. You have always been thoughtful. And no one 
is more passionate about the closing of opportunity gaps, so 
thank you for your leadership.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Harkin. Well, thank you very much, Mr. Secretary, 
and we will work with you on getting this appropriations bill 
through in the next few months anyway.
    The hearing record will remain open for 1 week for Senators 
to submit other statements and questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Tom Harkin
                      high quality early learning
    Question. Mr. Secretary, I applaud the President and you for your 
continued commitment to advance early learning in the United States. I 
have been calling for this kind of investment for a number of years, 
and I think it's just what we need. We've been able to move the needle 
some on the issue. Last year's omnibus included an increase of $1 
billion in Head Start. It included new resources and authority under 
Race to the Top for Preschool Development Grants. And, the 
administration's fiscal year 2015 budget request builds on these 
investments.
    Some have suggested that we don't need another Federal program or 
more Federal resources invested in high quality early learning 
programs. I disagree. I'd like to hear your response to that criticism 
of your budget proposal.
    Answer. It is important to understand that despite existing 
investments in programs like Head Start, there is tremendous unmet need 
in this country for access to high-quality preschool. There is near-
universal agreement on the importance of high-quality preschool 
education, and parents want what is best for their children, but there 
simply are not enough affordable, high-quality slots for children to 
attend these programs. Nationally, only 3 in 10 children are enrolled 
in high-quality preschool programs. In almost every State, the unmet 
need for early learning is enormous. For example, in Pennsylvania, 
6,700 children are waiting for openings in the State preschool program; 
in Colorado, districts report that over 8,000 eligible children cannot 
be served; and in Michigan, Governor Snyder reported last year that 
29,000 needy preschool age children didn't have an opportunity to go to 
subsidized preschool.
    In addition, we need to recognize that what parents and children 
need is access to high-quality early learning opportunities from birth 
through age 5. So we're not talking about just creating more slots, but 
slots in high-quality preschool programs. Very few existing programs 
are meeting the demand for both access and quality, whether you're 
talking about cities, suburbs, or rural communities.
                   high school graduation initiative
    Question. Mr. Secretary, I am pleased that your budget proposes to 
continue investing in high school reform, building on activities 
currently funded through the High School Graduation Initiative. Please 
tell me more about what we are learning through the high school 
graduation initiative and how this would inform high school reform 
activities proposed in the fiscal year 2015 budget request.
    Answer. High School Graduation Initiative grantees are implementing 
a variety of research-based and other promising strategies to keep at-
risk students from dropping out and re-engage out-of-school youth. 
These include using data tools to identify and serve at-risk students 
more effectively, such as early warning indicator systems; offering 
personalized support services, including graduation coaching and 
mentoring, through proven approaches like Check and Connect and 
Advancement Via Individual Determination (AVID); and implementing 
school climate interventions such as Positive Behavioral Interventions 
and Supports.
    Although targeted strategies such as these hold promise, the 
President and I believe that more fundamental reforms are needed if 
efforts to improve the graduation rates of our Nation's chronically 
underperforming high schools and to prepare students graduating from 
these schools truly for college and careers are to meet with lasting 
success. The proposed High School Redesign program, funded at $150 
million in the President's budget, would call on local educational 
agencies and their partners to provide a radically overhauled and more 
engaging high school experience through instruction that is 
personalized to the needs and interests of individual students; 
relevant for the careers of the 21st century, including through 
improved use of technology; and complemented by an array of support 
services, including those currently supported with High School 
Graduation Initiative funds. Similarly, College Pathways and 
Accelerated Learning, which under the administration's reauthorization 
proposal would consolidate the High School Graduation Initiative and 
other current-law programs and for which we request $75 million in 
fiscal year 2015, would support local efforts to improve and sustain 
student interest by introducing more challenging curricula in high 
schools with low graduation rates, such as Advanced Placement and 
International Baccalaureate courses, dual-enrollment programs, and 
early college high schools, while providing support services for 
students not on track to graduate.
           student outcomes and 21st century workforce needs
    Question. Also, how would the program address the misalignment 
between student outcomes and the needs of the 21st century workforce, 
particularly through partnerships among school districts, employers, 
and institutions of higher education?
    Answer. The High School Redesign program would incorporate a number 
of strategies to improve alignment between workforce needs and programs 
serving high school students. Under our proposal, eligible entities 
would have to include organizations that can help structure and 
facilitate career-related experiences for students as well as help 
schools prepare students to apply academic concepts to real-world 
challenges and entities. Such organizations might be nonprofits, 
community-based organizations, government agencies, or other business 
or industry-related organizations. In addition, all grantees would be 
expected to provide students with career-related experiences or 
competencies, obtained through organized internships and mentorships, 
structured work-based learning, and other related experiences. We would 
also give special consideration to projects that plan to work with 
employers that help participants attain career-related credentials.
    In addition, our fiscal year 2015 budget request also provides $1.1 
billion for a reauthorized Perkins Career and Technical Education (CTE) 
program that would increase alignment between CTE and labor market 
needs and strengthen collaboration among secondary and postsecondary 
CTE programs and business and industry.
 elementary and secondary education act waivers and student protections
    Question. Mr. Secretary, last month you responded to my February 
19, 2014, letter related to ESEA flexibility granted to State 
Educational Agencies. As you know, I expressed great concern about how 
waiver implementation may erode protections for our most vulnerable 
students. I was hopeful that the response would provide more details 
about the Department's plans to address the concerns I identified in my 
letter. Specifically, my letter outlined four main concerns:
      (1) Waiver States identifying drastically lower numbers of 
        schools for interventions;
      (2) Waiver States not providing interventions in schools that are 
        low-performing, but not identified as priority and focus 
        schools;
      (3) The use of super subgroups in States' accountability systems; 
        and
      (4) The lack of accountability for high school graduation rates 
        in States' accountability systems.
    Could you please provide more details about the Department's plans 
for addressing each of these concerns?
    Answer. I want to emphasize that I share your concern about 
improving educational opportunities for our most vulnerable students, 
including low-income and minority students, students with disabilities, 
and English learners. This concern was a driving force behind our ESEA 
flexibility initiative, under which we are working with States to 
ensure access to a high-quality education for all students, and I would 
be pleased to have my staff meet with yours to discuss how we are 
addressing your concerns in ESEA flexibility, to date. As we continue 
to develop, in the coming months, our plans for the ESEA flexibility 
renewal process, we will continue to closely examine the issues you 
raise in your letter, and look forward to continuing to work with you 
on behalf of America's students.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    guidance provided on use of title i funds for homeless students
    Question. The number of homeless students in America's public 
schools has increased 72 percent since the great recession. Although 
homeless students are eligible to be served under Title I, the 
Department of Education's guidance has actually made it challenging for 
school districts to effectively serve these vulnerable children. To 
address this, the fiscal year 2014 appropriations bill includes 
language specifically stating that funds under Title I can be used to 
provide homeless students with transportation to school, and to support 
homeless liaisons, and the school district staff that identify homeless 
students and help to stabilize their education during this time of 
extreme hardship for the students and their families.
    Guidance issued by the Department of Education in a March 21, 2014, 
Dear Colleague letter directly contradicts the language of the fiscal 
year 2014 appropriations bill. Specifically, the Department's guidance 
poses the question: May a local educational agency use funds it 
reserves under section 1113(c)(3)(a) of the Elementary and Secondary 
Education Act (ESEA) to pay for a homeless liaison or to provide 
transportation to the school of origin?
    The answer provided by the Department is: ``No,'' followed by 
additional commentary that undercuts the very clear congressional 
intent of our fiscal year 2014 bill language. Can you explain why the 
Department took this action, and what the Department will do to fix it 
so that the Department is in compliance with the law that was passed 
last year?
    Answer. Our intention was to make clear that, in addition to the 
new authority to pay for the liaison and school-of-origin 
transportation, the requirement to provide comparable Title I services 
remains. We are continuing to work with your staff on this issue.
   american printing house resources with enhanced accessibility for 
                             learning plan
    Question. The American Printing House for the Blind (APH) is the 
world's largest nonprofit organization creating educational, workplace, 
and independent living products and services for people who are blind 
and visually impaired. APH has worked in partnership with the Federal 
Government since 1879 to fulfill their mission. The Department of 
Education's fiscal year 2015 request for APH is $24.456 million, the 
same level the APH has received each year since fiscal year 2010.
    Digital technology is rapidly changing the ways in which 
educational materials are delivered to students. The APH has developed 
a ``Resources with Enhanced Accessibility for Learning'' (REAL) Plan to 
streamline and speed up the delivery of digital educational materials 
from publishers to students who are legally blind in accessible 
formats--both hard copy and digital braille and large print. This work 
is important for students who are blind and visually impaired to 
continue receiving the same educational content as their sighted peers.
    Secretary Duncan, given the high cost of developing technology, 
does the Department plan to increase funding for the American Printing 
House for the Blind's REAL Plan?
    Answer. The President's fiscal year 2015 budget request would 
provide a total of $24.5 million in discretionary funding to the 
American Printing House for the Blind (APH). The President recognizes 
the historical legacy of APH and its commitment to creating 
educational, workplace, and independent living products and services 
for people who are blind and visually impaired. ``Resources with 
Enhanced Accessibility for Learning (REAL) Plan'' is a new initiative 
for which APH has already proposed to use its endowment funds to cover 
costs associated with consultation and production for fiscal year 2015.
     ensuring timely access to printed text for blind and disabled
    Question. What additional investments can the Department make to 
ensure timely access to accessible content for students who are blind 
or have another disability affecting their ability to read printed text 
and graphics?
    Answer. Due to budgetary constraints, the President's fiscal year 
2015 budget request of $24.5 million would maintain level funding at 
the fiscal year 2014 level. The Department has met with APH to discuss 
the development of performance measures for APH's newest technologic 
innovations, with the intent to ensure timely access to accessible 
content for students who are blind or have another disability affecting 
their ability to read printed text and graphics.
  funding for high school equivalency program and college acceptance 
                            migrant program
    Question. The High School Equivalency Program (HEP) and the College 
Assistance Migrant Program (CAMP) are critical to promoting educational 
access, retention, and completion for children of migrant farmworkers 
which are some of the most underserved, disadvantaged, and at-risk 
students in the country. Frequent moves contribute to very high dropout 
rates and the low enrollments in higher education. Yet, according to 
the Department's own estimates, HEP and CAMP programs are very 
successful: 89 percent of all CAMP participants successfully completed 
their first year at an institution of higher education and 74 percent 
of HEP students who completed their course of study earned a GED. 
CAMP's freshman cohorts have higher continuation rates than most 
college's general freshman population.
    Given the success of this program, please explain why the 
Administration for fiscal year 2015 proposed $34.6 million for the HEP 
and CAMP programs which is the post-sequestration level, and did not 
propose the pre-sequestration level funding of $36.6 million for the 
HEP and CAMP programs in fiscal year 2015 which the Administration 
proposed in fiscal year 2014?
    Answer. We agree that the High School Equivalency Program and the 
College Assistance Migrant Program programs provide important support 
for helping individuals from migrant populations to receive their GED 
credential and to complete their first year of postsecondary education. 
There are many good, effective programs in the Department, but in order 
to maintain fiscal discipline and adhere to the spending levels set in 
the Bipartisan Budget Act of 2013, we had to make tough choices and set 
priorities for spending increases among programs, even increases that 
would only bring back program spending to pre-sequester levels.
    Please note that HEP and CAMP programs are not the only source of 
funding that can assist youths and adults from migrant farmworker and 
seasonal worker populations who are interested in obtaining their GED 
credential or completing their first year of postsecondary education. 
The administration's fiscal year 2015 budget request also provided 
$898.3 million for Federal TRIO programs and $597.7 million for Adult 
Education State grants.
       professional development through the connected initiative
    Question. I was very interested to see that your fiscal year 2015 
budget request proposes $200 million for a new Connect Educators 
initiative that helps educators transition to using technology and data 
to personalize learning and improve instruction and assessment. As a 
strong supporter of the Enhancing Education Through Technology program, 
which has not received funding since fiscal year 2010, as well as the 
ATTAIN Act--the Accelerating Technology Transfer to Advance Innovation 
for the Nation Act of 2014, I was pleased to see a renewed focus from 
your Agency on education technology.
    Can you please provide more information about the types of 
professional development that you envision being provided through this 
program?
    Answer. The administration's ConnectED initiative will connect 99 
percent of America's students to the digital age through next-
generation broadband and high-speed wireless in their schools and 
libraries. The initiative invests in improving the skills of teachers, 
ensuring that every educator in America receives support and training 
in using education technology tools that can improve student learning.
    ConnectED calls for additional funding and support for schools to 
improve their network connectivity and provide device access to all 
students. Connect Educators is designed to help teachers and principals 
understand how to use technology to help with the implementation of new 
assessments as well as to leverage technology to support needed 
professional development and increase access to online resources, 
including sample lessons and e-books that are aligned with college- and 
career-ready standards.
    The increased connectivity called for through ConnectED opens up 
opportunities for teachers and principals to engage and collaborate 
with other educators across the country to improve practice and share 
approaches. Becoming a connected educator can accelerate the adoption 
of best practices for all teachers and principals, but is crucial for 
teachers in schools where there may only be one teacher in a particular 
grade/subject in the school, who otherwise may have limited 
opportunities for collaboration, and for principals so that they can 
connect with other principals across schools. Connect Educators calls 
for funding for teachers and principals to receive ``at the elbow'' 
support in both of these areas as well as to get connected to online 
communities and personalized professional development that meets the 
individual learning needs of educators, much like personalized/blending 
learning is used to improve instruction and support for students.
               connect ed and teacher evaluation systems
    Question. How would this program support school districts as they 
implement new teacher evaluation systems?
    Answer. This program would support district efforts to align their 
professional development with new educator evaluation systems by 
offering teachers and principals access to personalized professional 
supports, in the form of Web-based professional development courses or 
online communities, that are designed to address needs identified in 
evaluations and help educators improve their practice and become more 
effective over time.
                 connect ed and common core assessments
    Question. How would this program support school districts as they 
implement new assessments linked to the Common Core State Standards?
    Answer. Providing schools with the connectivity and device access 
that they need is essential to helping them implement new assessments 
linked to college- and career-ready standards, whether they are in a 
State that has chosen to adopt the Common Core State standards or to 
use other college- and career-ready standards. There are a number of 
advantages of computer-based assessments, including more immediate 
feedback and the possibility for adaptive assessment (assessing 
students at the most appropriate level regardless of which grade they 
may be taking the assessment for). But these advantages require student 
access to devices and connectivity. ConnectED calls for additional 
funding and support for schools to improve their network connectivity 
and provide device access to all students. Connect Educators is 
designed to help teachers and principals understand how to use 
technology to help with the implementation of new assessments as well 
as to leverage technology to improve access to needed professional 
development and other online resources, including sample lessons and e-
books that are aligned to college- and career-ready standards.
           ensuring privacy of student data under connect ed
    Question. How would your agency ensure privacy of student data 
under this program; in particular, how would you ensure that student 
data would not be used for advertising and marketing purposes?
    Answer. As part of the requirement to receive eRate funding, 
schools must implement filtering software to restrict access to 
potentially harmful sites (such as those that might be using student 
personal information in inappropriate ways). ConnectED, administered by 
the FCC, will not require any new student data to be collected. 
However, as Internet access improves under the ConnectED Initiative, it 
is critical that school systems and educators understand the major laws 
and best practices protecting student privacy while using online 
educational services.
    The Department shares your concerns about commercialization of 
student data, and our Privacy Technical Assistance Center released 
guidance in February 2014 about how schools and districts can protect 
student data in connection with contracting for online educational 
services. The guidance clarifies that FERPA would not permit a school 
or district to give FERPA-protected data to a third party solely for it 
to develop a product to market to a school or district and that the 
Protection of Pupil Rights Amendment (PPRA) also provides parents with 
rights with regard to some marketing activities. This guidance can be 
found at the following Web link: http://ptac.ed.gov/sites/default/
files/Student%20Privacy%20and%20Online%20
Educational%20Services%20%28February%202014%29.pdf.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
                   funding for charter school program
    Question. For years I have been very supportive of the Charter 
Schools Program (CSP), and thus was disappointed that the 
administration level-funded the Charter Schools Program in its fiscal 
year 2015 budget. As you know, the most recent independent research 
confirms that charter schools have made significant strides in closing 
the achievement gap. In communities across the country, students are 
making significant learning gains in core academic subjects. In 
particular, I have continued to advocate for the Charter Management 
Organization (CMO) Replication and Expansion Grant, and appreciate that 
the President's budget does request $75 million for it. However, the 
President's budget does not allocate any new funds for the SEA grants 
program. Can the Department outline its expectations for a successful 
implementation of the Charter School Program given the level funding of 
$248 million for fiscal year 2015?
    Answer. The administration strongly supports efforts to expand the 
number of high-quality educational options available to our Nation's 
students, especially those living in poverty. The fiscal year 2015 
President's budget would help accomplish this by directing scarce 
Federal resources to a new charter schools program, Supporting 
Effective Charter Schools, which under the administration's proposal to 
reauthorize the Elementary and Secondary Education Act would support, 
through subgrants from State educational agencies (SEAs) or charter 
school authorizers and through grants directly from the Department, the 
start-up or expansion of high-quality charter schools, prioritizing 
projects that serve concentrations of students from low-income 
families.
    If the Elementary and Secondary Education Act is not reauthorized 
prior to enactment of fiscal year 2015 appropriations, the Department 
will conduct a competition for new grants to SEAs under current law. At 
level funding, we anticipate allocating approximately $100 million for 
10 to15 new SEA grants, in addition to the $46 million we will use for 
continuation awards to current SEA grantees. We expect to pursue 
rulemaking to ensure these grants support the start-up only of high-
quality schools.
    As you note, the fiscal year 2015 budget includes a request to use, 
absent reauthorization, up to $75 million for the high-quality charter 
school replication and expansion grants currently authorized in 
appropriations language, which in fiscal year 2014 requires that not 
less than $45 million be used for these grants. This request recognizes 
the need to increase students' access to proven charter school models 
while providing the Department with flexibility to direct funds to the 
most deserving projects across CSP competitions.
                   title ii funding for seed program
    Question. In my State of Louisiana, the Supporting Effective 
Educator Development (SEED) Grant program has been used to train 604 
teachers over the past 2 years, and will be used to train approximately 
230 additional teachers for placement next year. Can you tell the 
committee whether and why or why not, you think a percentage of Title 
II funding should be designated specifically for the SEED grant 
program, which supports evidence-based teacher preparation programs, 
such as Teach for America and the National Writing Project, who have 
won these competitive awards in the past?
    Answer. We think the current set-aside under Title II, Part A of 
the ESEA that supports the SEED program is one of the most effective 
uses of Title II funds, largely because, as you stated, it supports 
evidence-based teacher preparation programs. As you know, we have long 
sought to increase the size of this set-aside in order to expand our 
ability to support more effective teacher and principal preparation 
programs, help States raise standards for such programs, and recruit 
and retain school leadership teams with the skills and experience 
needed to turn around low-performing schools. We were pleased that this 
Committee supported a small increase in the set-aside in fiscal year 
2014, and we are hoping you will give serious consideration to our 
request to raise the set-aside to 10 percent in fiscal year 2015.
    use of performance and outcome information to inform policy and 
                              improvement
    Question. As our Nation continues to deal with shrinking budgets 
and growing demand for services, the Federal Government needs to find 
ways to invest scarce Federal resources more efficiently and more 
effectively in evidence-based, results-driven solutions. I am pleased 
to see programs like Investing in Innovation (i3) prioritized in the 
President's 2015 budget as they are focused on ensuring evidence-based 
practices are used to improve student outcomes.
    How is the Department using evidence, data and information about 
performance and outcomes to inform policy and drive continuous 
improvement in its programs and grantee interventions?
    Answer. Two key priorities in all of President Obama's budget 
proposals for education have been to use evidence and data to guide 
investment decisions and to structure both existing programs and new 
proposals to build the evidence base for what works in education. For 
example, many of our proposals to eliminate or consolidate education 
programs were based on evaluation and performance data, contributing to 
the elimination of 49 Department of Education programs since President 
Obama took office, for a total annual savings of more than $1.2 
billion. New programs such as Investing in Innovation (i3) were 
specifically designed to build the evidence base for effective 
instruction and improvement. We have built in rigorous evaluation 
requirements for key competitive grant programs, such as Race to the 
Top, School Improvement Grants, and Promise Neighborhoods. Finally, we 
recently amended the Education Department General Administrative 
Regulations (EDGAR) to strengthen the use of evidence in Department 
competitive grant competitions and to improve the quality of data 
generated and reported by grantees.
        funding for historically black colleges and universities
    Question. As we take stock of access and affordability to 
postsecondary educational options, it is critical that we take into 
consideration that historically black universities like Dillard 
University, Southern University, Grambling State University, and Xavier 
University in Louisiana are leading the way in the President's goal to 
graduate more students, boost the economy, and enhance global 
competitiveness. I applaud your ongoing efforts to ensure success for 
all students in their goals to pursue postsecondary options through 
programs like First in the World, TRIO, and Strengthening Historically 
Black Colleges and Universities (HBCUs).
    Can you tell the committee how the Department plans to continue to 
support the needs of HBCUs throughout the Nation with level funding at 
$223.8 million?
    Answer. The President recognizes that HBCU's play a unique and 
vital role in providing higher education opportunities for African 
American students and students from low-income backgrounds. However, 
due to current constraints on budgetary resources, the President's 
request for the Title III Strengthening HBCUs program, like the vast 
majority of Higher Education programs, is maintained at the fiscal year 
2014 level. In addition to the request of $223.8 million in 
discretionary funding, HBCUs will also benefit from $85 million in 
mandatory funding and $57.9 million in discretionary funding for the 
Title III Strengthening Historically Black Graduate Institutions. For 
over 150 years, these institutions have educated generations of 
Americans and produced many of the Nation's leaders in business, 
government, academia, and the military. The fiscal year 2015 budget 
request will enable these institutions to continue serving a growing 
population of students and encourage and prepare more of these students 
to pursue advanced study. The 2015 budget request includes $75 million 
for a new grant initiative designed to improve affordability, quality, 
and success in postsecondary education. The College Success Grants for 
Minority-Serving Institutions and Historically Black Colleges and 
Universities would provide competitive awards to minority-serving 
institutions to support implementation of sustainable strategies, 
processes and tools (including technology) to reduce costs and improve 
outcomes for students.
                   access to postsecondary education
    Question. What are some other ways that the Department intends on 
supporting low-to-moderate income students in pursuing their dream of 
attaining a postsecondary degree?
    Answer. In addition to fully funding the maximum Pell Grant Award 
to $5,830, continuing support for TRIO, GEAR UP, Title III and V 
programs, and making additional investments requested under First in 
the World and the new $75 million College Success Grants for MSIs, the 
President's fiscal year 2015 budget request includes significant 
initiatives to help expand college access and completion for low- and 
moderate-income students, such as:
  --Encouraging States to support, reform, and improve the performance 
        of their public higher education systems through the State 
        Higher Education Performance Fund, which would generate an $8 
        billion new investment to make college more affordable and 
        increase college access and success, especially for low-income 
        students;
  --Rewarding colleges that successfully enroll and graduate a 
        significant number of low- and moderate-income students on time 
        and encourage all institutions to improve their performance 
        through the new College Opportunity and Graduation bonus 
        program;
  --Reforming the campus-based programs to target those institutions 
        with a demonstrated commitment to providing a high-quality 
        education at a reasonable price that enroll and graduate higher 
        numbers of Pell-eligible students and offer an affordable and 
        quality education such that graduates can repay their 
        educational debt;
  --Reinstating the Ability to Benefit provision for students enrolled 
        in eligible career pathways programs, which will allow adults 
        without a high school diploma to gain the knowledge and skills 
        they need to secure a good job; and
  --Helping borrowers manage their debt by extending Pay As You Earn to 
        all student borrowers, ensuring the program is well targeted, 
        and simplifying the borrower's experience while reducing 
        program complexity.
  measuring the success of programs providing access to postsecondary 
                               education
    Question. How will the Department measure the success and impact of 
these programs to ensure a wise investment of Federal dollars?
    Answer. While specific measures for proposed programs have not yet 
been determined, the Department would make sure that the final measures 
are consistent with the overriding goal of the Federal student 
financial aid programs: To ensure that all Americans who wish to pursue 
a postsecondary education have access to high-quality postsecondary 
education by providing financial aid in an efficient, financially 
sound, and customer-responsive manner.
                race to the top--equity and opportunity
    Question. It is clear that the Department is focused on equity and 
opportunity especially in our lowest performing schools. In Louisiana, 
where 250,000 students are attending a school with a D or F letter 
grade rating, this issue rings true with me. Like the Charter School 
Program, it is evident that the Race to the Top--Equity and Opportunity 
is focused on ensuring that students who were once faced with 
inequities have the opportunity and option to reach their full 
potential.
    Can you talk about the impact that Race to the Top--Equity and 
Opportunity will have on our education system, particularly in a State 
like Louisiana?
    Answer. Race to the Top--Equity and Opportunity (RTT-O) will 
address key elements that contribute to persistent opportunity and 
achievement gaps, including those in the lowest performing schools. By 
developing, enhancing, and integrating fiscal, human capital, and 
achievement data systems, grantees will be able to identify LEAs, 
schools, and student groups with the greatest disparities in 
opportunity and outcomes and will be better able to direct resources 
based on need. Strategies for supporting the highest need students 
include attracting, retaining, and supporting high-quality teachers and 
leaders in high-need schools, increasing access to rigorous coursework, 
and providing additional student supports designed to help mitigate the 
effects of concentrations of poverty, which will particularly benefit 
areas with large proportions of students and schools that are 
struggling or failing. Additionally, using integrated data, grantees 
will measure the success of these and other strategies for program 
improvement and will examine the use and alignment of existing Federal 
education resources to ensure they are being used effectively and are 
aligned with their comprehensive plans.
        overview of implementation of school improvement grants
    Question. Since 2009, the Federal Government has spent nearly $6 
billion on school improvement dollars. Schools in Louisiana have had 
the opportunity to benefit from these grants, totaling over $95 million 
at over 90 schools. However, there seems to be a lack of adequate data 
informing Members of Congress and members of the community overall 
about strategies that work within School Improvement Grants (SIG) and 
therefore how we can best invest Federal dollars.
    Can you tell the subcommittee about the successes and challenges of 
SIG implementation over the last 4 years?
    Answer. In February 2014 the Department published an analysis of 
State assessment results for schools receiving School Improvement 
Grants funding from the fiscal year 2009 and 2010 competitions (see 
http://www2.ed.gov/programs/sif/
assessment-results-cohort-1-2-sig-schools.pdf).
    Comparing, where data permit, schools' average proficiency rates in 
the 2011-2012 school year to their rates in the year prior to receiving 
SIG funds, the analysis notably found that:
  --Proficiency rates in SIG schools have on average increased in both 
        reading/language arts and mathematics; and
  --Proficiency rates in 2009 cohort SIG schools continued to increase 
        on average in the second year of implementation.
    In May 2014, the Department's Institute of Education Sciences 
released the first report on its intensive studies of a sample of 25 
schools that began SIG implementation in the 2010-2011 school year (see 
http://ies.ed.gov/ncee/pubs/20144015/pdf/20144015.pdf). Among its 
findings, the report indicated that most schools with higher 
organizational capacity (as determined by ratings on a set of capacity 
indicators) reported perceived improvements in many areas during the 
first year of implementation, whereas schools with lower organizational 
capacity reported improvement in few or no areas.
    These and other findings suggest that the Department should 
continue to improve its support for local turnaround efforts, with a 
particular emphasis on schools struggling to implement interventions 
with fidelity and on key areas of need. For instance, many local 
educational agencies--particularly those in rural areas--have 
difficulty recruiting or developing school leaders with the specialized 
skills essential to carrying out successful school turnarounds. 
Accordingly, in March 2014, the Department initiated the Turnaround 
School Leaders Program, through which SIG national activities funds are 
being used to make competitive grants to support the development or 
expansion of high-quality leadership pathways serving 5 or more SIG or 
SIG-eligible schools. We expect to make 10-15 awards under the program 
later this fiscal year, totaling approximately $19 million. We will 
continue to monitor implementation and identify topic areas that may 
benefit from additional resources in future years.
                 successful school turnaround projects
    Question. What turnaround strategies have you observed making the 
largest impact in schools across the country?
    Answer. The February 2014 analysis of State assessment data 
mentioned above showed that the average proficiency gains of schools 
implementing the turnaround or restart models generally exceeded those 
of schools implementing the relatively less rigorous transformation 
model. The May 2014 case study report found that schools with higher 
levels of strategic leadership or that had experienced a disruption 
from past operations reported perceived improvement in more areas than 
schools without these characteristics, but did not identify 
relationships between perceived improvement and other examined school 
characteristics, including the SIG model implemented.
    With respect to specific improvement actions implemented in 
turnaround schools, the Department is currently developing a set of 
profiles of carefully selected SIG implementation sites that focus on 
topics such as data-based decisionmaking, school climate, and parent 
and community engagement. We expect that these profiles, which are 
scheduled for release in fall 2014, will serve as a helpful reference 
for stakeholders, including local educational agencies preparing school 
intervention plans under SIG.
 using performance information to turn around lowest performing schools
    Question. How does the Department intend to capture accurate data 
that can better inform the decisions of policy makers and 
implementation so that we can better invest Federal dollars and more 
quickly turn around our lowest performing schools?
    Answer. The Department has developed and continues to implement a 
coordinated strategy for obtaining and analyzing a variety of SIG data 
to inform policymaking and local implementation. In addition to the 
strategy-specific information provided by the profiles, the detailed 
implementation reports from the case studies, and the annual analyses 
of State assessment and leading indicator results discussed above, the 
Department is also conducting a formal evaluation of the SIG program 
that will focus, among other things, on the impact of the receipt of 
SIG funds on student outcomes and the relationship between the four 
school intervention models (and related improvement strategies) and 
student outcomes and school performance. The first full evaluation 
report is scheduled for release in late 2014.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
          innovative approaches to literacy grant application
    Question. This year, the Department will be holding a new 
competition for the Innovative Approaches to Literacy grant. For the 
first competition, the Department did not publish the application until 
July--a time when many school districts are not fully staffed to write 
grants.
    When will the Innovative Approaches to Literacy grant application 
become available?
    Answer. The Department is in the process of developing the 
Innovative Approaches to Literacy (IAL) grant application and plans to 
make it available in late June.
    department outreach for innovative approaches to literacy grant 
                              applications
    Question. What outreach does the Department have planned so that 
school districts and national nonprofit organizations have the time and 
information to submit quality proposals?
    Answer. The Department informed professional groups and 
associations when the Innovative Approaches to Literacy (IAL) Notice of 
Proposed Priorities, Requirement, And Definitions was published in the 
Federal Register on February 28, 2014 (Vol. 79. No. 40). In addition, 
professional groups, literacy professionals, and national not for 
profits involved with literacy were made aware of the proposed 2014 
competition in the call for reviewers for the competition. We currently 
are working to publish the final Notice and application package as soon 
as possible to ensure that eligible entities have sufficient time to 
prepare high-quality applications.
    We also are planning to conduct three webinars that will be 
designed to cover all aspects of the grant application process for the 
IAL program. Each of these presentations will include an opportunity to 
ask specific questions regarding the competition and its requirements.
    learning from previous innovative approaches to literacy grant 
                              competition
    Question. As the first round of grants finishes this year, can you 
share with us some preliminary information about what was successful 
and what could be improved for future competitions?
    Answer. The first round of Innovative Approaches to Literacy (IAL) 
grants was enthusiastically received by parents, school administrators, 
reading specialists, library workers, content area teachers, and 
students. The Department gathered data from June through December of 
last year from the annual performance report, project specific goals, 
and the GPRA measures, but needs more time for an in-depth analysis of 
these data due to varying approaches taken across grantees and their 
projects. However, the initial review indicates that the IAL program 
has led to increased parent involvement, improved instructional 
practices, greater access to high quality literacy resources in both 
traditional and digital print, extended library hours, increased 
technology-based instruction, and increased reading ability in both 
reading classes and content area classes. The greatest gains have been 
in programs that combine parent involvement, print distribution (either 
traditional books or digital text), and good instructional practice.
    For future competitions, the Department will explore ways to 
improve the evaluation of the program and identify leading indicators 
of successful programs.
                  access to effective library programs
    Question. We know that student achievement is correlated with 
having access to effective school library programs as well as books in 
the home. This is an important piece of the equity agenda.
    What, specifically, does the Administration plan to do to ensure 
that disadvantaged children have access to effective and well-equipped 
school libraries staffed by well-trained school librarians and books at 
home?
    Answer. The administration's reauthorization proposal for the 
Elementary and Secondary Education Act includes a new Effective 
Teaching and Learning: Literacy program that would make competitive 
grants to State educational agencies to support comprehensive State and 
local efforts to develop and implement high-quality literacy programs. 
Such programs may include efforts to strengthen access to well-equipped 
school libraries as well as home-based literacy instruction, which 
could include making books available to low-income families.
                    college access challenge grants
    Question. Congress gave the Administration a great deal of 
flexibility in determining what waivers under the College Access 
Challenge Grant would be equitable and what constitutes ``significant 
effort'' in redressing a violation of maintenance of effort. Instead of 
using its flexibility, the Department has developed a rigid approach to 
reviewing and approving waiver requests, which resulted in more than 
half of the available funds being returned to the Treasury last year.
    According to an analysis by the American Association of State 
Colleges and Universities, 28 States that were denied a waiver or did 
not receive funds last year had increased higher education 
appropriations in fiscal year 2013. Twenty-one of these States had 
increased funding in fiscal year 2012.
    How many States are in danger of losing their College Access 
Challenge Grant this year, and, how is the Department working with 
States to address this issue?
    Answer. Section 137 of the Higher Education Act (HEA) requires 
States to maintain financial support for higher education at least at a 
level equal to the average amount provided over the 5 preceding fiscal 
years for public institutions of higher education (excluding capital 
expenses and research and development costs), and also for financial 
aid for students attending private institutions of higher education. If 
a State fails to meet these requirements, the Department must withhold 
any funds that would otherwise be available to that State under the 
College Access Challenge Grant (CACG) Program, authorized by section 
781 of the HEA. The Department may waive the maintenance of effort 
requirements for a State if the Department determines that doing so 
would be equitable due to exceptional or uncontrollable circumstances. 
However, we execute this waiver authority carefully and reluctantly, 
given the importance we place on States maintaining fiscal support for 
higher education.
    Unfortunately, the number of requests the Department has received 
for waivers of the requirements of section 137 of the HEA has increased 
dramatically in the past 4 years. In Federal fiscal year 2013, 41 
States failed to meet the maintenance of effort requirements in State 
fiscal year 2012; 33 of these States requested a waiver. Ultimately, 
the Department granted six of the 33 requests it received. Of the 27 
States whose requests were denied, 17 had increases in their revenues 
over the preceding 5-year period and two additional States had sizeable 
surpluses. In such instances, the Department determined that these 
States did not meet the statutory standard of a ``precipitous and 
unforeseen decline in . . . financial resources.''
                 use of maintenance of effort standard
    Of the remaining waiver request denials, the Department applied the 
standard used across the Department's programs with maintenance of 
effort requirements, including the Individuals with Disabilities 
Education Act (IDEA). Under this standard, States requesting a waiver 
that demonstrate a precipitous and unforeseen decline in resources must 
also demonstrate that higher education spending was not 
disproportionately targeted for reductions. The Department believes 
that this standard plays a critical role in preventing harmful cuts to 
higher education spending at the State level and ensuring that higher 
education is treated equitably as States are confronted with difficult 
budget decisions.
    When States fail to meet the maintenance of effort requirements and 
do not receive a waiver of those requirements, section 137(d) of the 
HEA allows States that make a significant effort to correct their 
violations to receive their full College Access Challenge Grant funds. 
Of the 27 States whose waiver requests were denied last year, five 
ultimately received CACG funding by reinvesting in higher education.
    While we recognize that States must prioritize and sometimes make 
tough choices when making budget decisions, we continue to believe that 
granting waivers to States that do not treat higher education equitably 
is contrary to the intent of Congress in drafting section 137 of the 
HEA.
    We are still in the process of determining the number of States 
that have met the maintenance of effort requirements in State fiscal 
year 2013. As in prior years, the Department will continue to work with 
States to ensure that our decisions are based on complete information, 
including providing States with ample opportunities to provide 
additional information in support of their waiver requests. This 
outreach will include extensive contact with State program and budget 
officials via conference call and e-mail to clarify information 
submitted in conjunction with the waiver request, updating the State on 
the Department's assessment of the data, and discussing the State's 
options for meeting the maintenance of effort or waiver requirements, 
or making a significant effort to correct their maintenance of effort 
violation.
    As we begin this year's review of maintenance of effort waiver 
requests, we will continue to work with States to gather information 
and release decisions as expeditiously as possible.
                     postsecondary support programs
    Question. What alternatives has the Department considered to avoid 
having millions of students miss out on the college outreach, student 
aid awareness, financial literacy, and other vital student supports 
provided under these grants?
    Answer. The Department annually invests over $1.1 billion in 
college preparation programs targeted at disadvantaged students through 
the Federal TRIO ($838 million in fiscal year 2014) and GEAR UP ($302 
million in fiscal year 2014) programs. Collectively, these programs 
provide approximately 3,000 grants to States, institutions of higher 
education, local education agencies, and other nonprofit entities to 
undertake activities designed to assist disadvantaged students in 
enrolling and succeeding in postsecondary education.
             teacher quality partnership grants application
    Question. This year, there will be a new round of competition for 
the Teacher Quality Partnership grants. When will the grant application 
become available?
    Answer. Applications for funding under the Teacher Quality 
Partnership program became available on May 28, 2014. Applications will 
be due to the Department July 14, 2014. The Department also is 
currently planning two pre-application webinars for potential 
applicants--Tuesday, June 10, 2014, at 10:00 a.m. and Thursday, June 
12, 2014, at 2:00 p.m.
       teacher quality partnership grants application priorities
    Question. Will the Department be including any new priorities for 
this round of competition, for example, a competitive priority for 
programs that address both teacher and principal preparation?
    Answer. The fiscal year 2014 Teacher Quality Partnership 
competition includes two absolute priorities from the statute, and two 
competitive preference priorities from the notice of final supplemental 
priorities and definitions for discretionary grant programs published 
in the Federal Register on December 15, 2010 (75 FR 78486) and 
corrected on May 12, 2011 (75 FR 27637). Under this competition, the 
Department will support projects training teachers and early childhood 
educators at (a) the pre-baccalaureate level, and (b) in teacher 
residency programs. These two project types are outlined in the 
statute.
    In addition, the Department will provide a competitive preference 
to applications promoting effective science, technology, engineering, 
and math (STEM) teacher preparation and to applications for projects 
designed to support the implementation of internationally benchmarked, 
college- and career-ready academic standards, including the development 
of professional development aligned to those standards as well as 
strategies that translate those standards into classroom practice. The 
Department believes that these priorities will ensure a robust 
competition and effective targeting of Teacher Quality Partnership 
program funds in critical areas of teacher preparation.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
              data collection on online learning programs
    Question. Distance learning plays an increasing role in 
postsecondary education. Millions of college students take at least one 
online course in a given year. The number of students utilizing online 
courses continues to increase rapidly each year.
    Online learning has the potential to expand access to higher 
education to students who might not otherwise have access to physical 
classes. Given the increased use of distance and online learning, what 
steps is the Department of Education taking to collect data on online 
learning and the effectiveness and how institutions could help improve 
and promote online learning and, if not, does the Department have any 
plans to begin collection of this information? Given the importance of 
distance learning in my State, I would like to work with you to focus 
efforts on collecting this data in an effort to improve delivery and 
outcomes of online and distance learning.
    Answer. The Department plans to announce in late spring/early 
summer a new competition for the Center for Distance Education and 
Technological Advancements program. This competition, funded by 
Congress in fiscal year 2014 under the Fund for the Improvement of 
Postsecondary Education, will award a grant to an institution of higher 
education to develop a research agenda that would yield rigorous 
research increasing our knowledge in the area of online learning. The 
Department is still in the process of determining the design and focus 
of the competition.
    In addition, the Department's Institute of Education Sciences 
recently published a Request for Applications under the Education 
Research and Development Center program that includes as one of three 
topic areas a focus on Virtual Learning. The successful applicant will 
establish a Virtual Learning Laboratory to conduct a focused program of 
research that will (1) use experimental methods to evaluate and improve 
the instructional practices, content, and/or learning tools offered by 
one or more widely used online instructional delivery platforms, with a 
particular focus on making improvements for low-income and low-
performing students in K-12; and, (2) advance the field's understanding 
of how the large amounts of data generated within online instructional 
delivery platforms may be used to address important research questions 
and improve teaching and learning.
    In addition, the lab will provide leadership and outreach that 
will: (1) inform policymakers, practitioners, and other nontechnical 
audiences about big data for education research and practice, (2) 
create a hub where researchers, developers and practitioners will come 
together--both virtually and in person--to discuss research goals and 
methods related to online learning, review emerging research findings, 
and support new partnerships and collaborations; and, (3) build the 
field's capacity to conduct well-designed studies of online learning 
and to use big data by offering workshops and other activities.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
  competitive programs and competitive ability of small, rural states
    Question. The fiscal year 2015 Department of Education Budget 
contains a number of important priorities that will continue to improve 
the education received by students throughout the country and in turn 
prepare them for college and the workforce. Focusing on educational 
equity is particularly important as we begin to anticipate the changing 
needs of our future workforce.
    The education community in New Hampshire remains concerned about 
the Department's shift to competitive funding, and as a former teacher 
and governor, I appreciate the unique needs that arise in all schools 
and communities, not only those traditionally defined as most in need 
that often receive funding under competitive programs. States like New 
Hampshire do not necessarily have the resources, such as staff, to 
submit competitive applications for many of the programs that could 
make critical improvements in our State's educational system.
    Stakeholders in New Hampshire indicate that formula-driven grant 
programs provide a more sustained impact that allows educators and 
administrators to perform their critical work. This continued 
investment is critical to ensuring that States and school districts can 
reasonably depend upon the funding source for continuity and can be 
relied on to institute desired changes.
    Your budget request for fiscal year 2015 proposes an increase of 62 
percent for competitive grant programs over the amounts appropriated 
for such programs in fiscal year 2014. Can you provide information 
regarding the number of competitive grant programs that you propose in 
your fiscal year 2015 budget request and the specific steps that you 
are taking to ensure that small, rural States would be supported should 
these programs be funded and implemented?
    Answer. Most competitive grant programs that would be funded under 
our 2015 budget request arise from authorizing statutes such as the 
Elementary and Secondary Education Act. We do believe strongly in the 
use of competitive grants to promote innovation and maximize the impact 
for students of limited Federal education funding by funding the 
highest quality applicants, and this strategy has informed such key 
Administration education reform initiatives as Race to the Top, 
Investing in Innovation, and Promise Neighborhoods. We also believe 
that we have been increasingly successful in structuring our 
competitive grant programs--through such strategies as the use of 
absolute and competitive preference priorities--to maximize the 
opportunities for success by rural applicants. For example, rural 
applicants have demonstrated considerable success in winning grants in 
the Race to the Top--District competitions and the School Improvement 
Grant program. We intend to use similar strategies to ensure that we 
meet the needs of rural States and communities under new competitive 
grant proposals in our 2015 request, such as Race to the Top--Equity 
and Opportunity, STEM Innovation, High School Redesign, and Connect 
Educators. We also are proposing hybrid programs where such an approach 
makes sense. Our Connect Educators proposal, for example, includes both 
formula grant funds aimed at increasing State capacity and competitive 
funds for LEAs prepared to use high-speed networks and related devices 
to improve instruction for all students. Finally, approximately 89 
percent of the discretionary funding for elementary and secondary 
education programs included in our 2015 budget request would continue 
to be allocated to States and school districts by formula.
     participation rate of states and seas in competitive programs
    Question. What data is the Department of Education currently using 
to determine whether all eligible States and districts apply for 
opportunities that they qualify for?
    Answer. The Department does not collect or use such data because no 
State or school district is required to apply for any discretionary or 
formula-based Federal education program. We have, however, provided 
targeted technical assistance to entities that are experiencing 
difficulty developing and submitting high-quality applications for our 
competitive grant programs.
 competitive grant awards and recipients in fiscal years 2013 and 2014
    Question. Can you please provide a comprehensive list of 
competitive grants awarded in fiscal year 2013 and fiscal year 2014 and 
the States or districts that received them?
    Answer. The report included below, 2013 New Discretionary Grant 
Awards to States and LEAs, lists the new fiscal year 2013 discretionary 
grant awards to States and school districts that were identified in the 
Department of Education's financial data base. Fiscal year 2014 
information was not included because few 2014 discretionary awards have 
been made at this time; most awards are made at the end of the fiscal 
year. Note that information on all Federal grant awards is available on 
www.usaspending.gov. Federal agencies provide regular updates to this 
system, so that current award information is available to the public.
    [The report follows:]

            FISCAL YEAR 2013 NEW DISCRETIONARY GRANT AWARDS TO STATES AND LOCAL EDUCATIONAL AGENCIES
                              New Discretionary Grants Awarded in Fiscal Year 2013
   NOTE: Funding is the amount in the year of award only and may include funds from multiple fiscal years for
                                         programs with multi-year funds.
----------------------------------------------------------------------------------------------------------------
                                   Name from                                            Type of
         Award number             application          City             State          recipient        Amount
----------------------------------------------------------------------------------------------------------------
Account name:  English Language Acquisition
Program name:  Language Acquisition State Grants
----------------------------------------------------------------------------------------------------------------
T365C130001..................  Kashunamuit       Chevak..........  AK.............  LEA............     $355,638
                                School District.
T365C130015..................  Yukon-Koyukuk     Fairbanks.......  AK.............  LEA............     $243,256
                                School District.
T365C130022..................  Painted Desert    Flagstaff.......  AZ.............  LEA............     $285,398
                                Demonstration
                                Project.
T365C130008..................  Arlee Joint       Arlee...........  MT.............  LEA............     $299,984
                                School District
                                #8.
T365C130009..................  Arlee High        Arlee...........  MT.............  LEA............     $188,730
                                School.
T365C130005..................  Missouri River    Mandan..........  ND.............  LEA............     $250,000
                                Educational
                                Cooperative
                                (MREC).
T365C130023..................  Stilwell Public   Stilwell........  OK.............  LEA............     $253,825
                                Schools.
T365C130024..................  Tenkiller         Welling.........  OK.............  LEA............     $203,287
                                Elementary
                                School.
T365C130025..................  Chief Leschi      Puyallup........  WA.............  LEA............     $289,850
                                Schools, Inc.,
                                Puyallup Tribe
                                of Indians.
----------------------------------------------------------------------------------------------------------------
Account Name:  Higher Education
Program Name:  Federal TRIO Programs
----------------------------------------------------------------------------------------------------------------
P047A130829..................  Coffeeville       Coffeeville.....  MS.............  LEA............     $236,925
                                School District.
----------------------------------------------------------------------------------------------------------------
Account Name:  Impact Aid
Program Name:  Impact Aid: Construction
----------------------------------------------------------------------------------------------------------------
S041C130002..................  Lower Kuskokwim   Bethel..........  AK.............  LEA............   $2,616,974
                                School District.
S041C130004..................  Red Mesa Unified  Teec Nos Pos....  AZ.............  LEA............   $6,800,440
                                School District.
S041C130018..................  Ganado Unified    Ganado..........  AZ.............  LEA............   $1,076,433
                                School District
                                #20.
S041C130022..................  All Tribes        Valley Center...  CA.............  LEA............   $3,881,900
                                Charter aka All
                                Tribes American
                                India.
S041C130009..................  Harlem High       Harlem..........  MT.............  LEA............      $68,500
                                School District
                                #12.
S041C130012..................  Lodge Grass       Lodge Grass.....  MT.............  LEA............     $470,700
                                Elem. School
                                Dist. #27.
S041C130014..................  Douglas School    Box Elder.......  SD.............  LEA............   $4,000,000
                                District #51-1.
S041C130008..................  Wellpinit School  Wellpinit.......  WA.............  LEA............     $532,689
                                District #49.
----------------------------------------------------------------------------------------------------------------
Account Name:  Indian Education
Program Name:  Special Programs for Indian Children
----------------------------------------------------------------------------------------------------------------
S299A130007..................  Chugach School    Anchorage.......  AK.............  LEA............     $299,943
                                District.
S299A130020..................  Blackwater        Coolidge........  AZ.............  LEA............     $266,314
                                Community
                                School.
S299A130051..................  Magdalena         Magdalena.......  NM.............  LEA............     $293,741
                                Municipal
                                School District.
S299A130037..................  Tahlequah Public  Tahlequah.......  OK.............  LEA............     $298,591
                                Schools.
S299A130077..................  Ada City Schools  Ada.............  OK.............  LEA............     $295,989
----------------------------------------------------------------------------------------------------------------
Account Name:  Innovation and Improvement
Program Name:  Arts in Education
----------------------------------------------------------------------------------------------------------------
U351D130013..................  Rockford Public   Rockford........  IL.............  LEA............     $325,000
                                Schools.
U351D130010..................  Neighborhood      Dorchester......  MA.............  LEA............     $245,609
                                House Charter
                                School.
U351D130015..................  Everett Public    Everett.........  MA.............  LEA............     $293,450
                                Schools.
U351D130039..................  Independent       St. Paul........  MN.............  LEA............     $314,988
                                School District
                                #625.
U351D130020..................  Mt. Vernon City   Mt. Vernon City.  NY.............  LEA............     $314,532
                                School District.
----------------------------------------------------------------------------------------------------------------
Program Name:  Charter Schools Grants
----------------------------------------------------------------------------------------------------------------
U282B130014..................  Innovative        Wilmington......  DE.............  LEA............     $175,000
                                Schools
                                Development
                                Corporation.
U282B130030..................  Innovative        Wilmington......  DE.............  LEA............     $175,000
                                Schools
                                Development
                                Corporation.
U282B130065..................  Chief Tahgee      Pocatello.......  ID.............  LEA............     $192,066
                                Elementary
                                Academy, Inc.
                                (CTEA).
U282B130037..................  Intrinsic         Chicago.........  IL.............  LEA............     $199,760
                                Schools.
U282B130063..................  Catalyst Schools  Chicago.........  IL.............  LEA............     $192,414
U282B130012..................  Madison-Tallulah  Tallulah........  LA.............  LEA............     $200,000
                                Education
                                Center.
U282B130004..................  Cornville         Cornville.......  ME.............  LEA............     $242,329
                                Regional
                                Charter School.
U282B130020..................  Columbus          Columbus........  OH.............  LEA............     $175,000
                                Collegiate
                                Academy, Inc..
U282B130006..................  York Academy      York............  PA.............  LEA............     $207,750
                                Regional
                                Charter School.
U282B130071..................  Utah              Salt Lake City..  UT.............  LEA............     $140,000
                                International
                                Charter School.
U282C130006..................  Arts & College    Columbus........  OH.............  LEA............     $123,975
                                Preparatory
                                Academy.
----------------------------------------------------------------------------------------------------------------
Program Name:  FIE Programs of National Significance
----------------------------------------------------------------------------------------------------------------
S215G130158..................  Lake Worth        Lake Worth......  TX.............  LEA............     $668,249
                                Independent
                                School District.
S215G130159..................  Poteet            Poteet..........  TX.............  LEA............     $416,420
                                Independent
                                School District.
----------------------------------------------------------------------------------------------------------------
Program Name:  Investing in Innovation
----------------------------------------------------------------------------------------------------------------
U411C130060..................  ASU Preparatory   Tempe...........  AZ.............  LEA............   $2,969,338
                                Academy.
U411C130116..................  Maricopa County   Phoenix.........  AZ.............  LEA............   $2,969,722
                                Education
                                Service Agency.
U411C130025..................  Carroll County    Carrollton......  GA.............  LEA............   $2,969,517
                                Schools.
U411C130073..................  Cabarrus County   Concord.........  NC.............  LEA............   $2,969,641
                                Schools.
----------------------------------------------------------------------------------------------------------------
Program Name:  Magnet Schools Assistance
----------------------------------------------------------------------------------------------------------------
U165A130055..................  Texarkana         Texarkana.......  AR.............  LEA............   $3,142,066
                                Arkansas School
                                District.
U165A130031..................  SAN DIEGO         San Diego.......  CA.............  LEA............   $3,853,939
                                UNIFIED SCHOOL
                                DISTRICT.
U165A130049..................  Los Angeles       Los Angeles.....  CA.............  LEA............   $3,714,306
                                Unified School
                                District.
U165A130070..................  Oxnard School     Oxnard..........  CA.............  LEA............   $4,000,000
                                District.
U165A130084..................  Napa Valley       Napa............  CA.............  LEA............   $2,834,293
                                Unified School
                                District.
U165A130094..................  Pasadena Unified  Pasadena........  CA.............  LEA............   $3,141,770
                                School District.
U165A130097..................  Ventura Unified   Ventura.........  CA.............  LEA............   $3,379,273
                                School District.
U165A130042..................  Pueblo City       Pueblo..........  CO.............  LEA............   $3,433,666
                                School District
                                #60.
U165A130027..................  New Haven, City   New Haven.......  CT.............  LEA............   $3,733,989
                                of (inc) DBA
                                New Haven
                                Public School
                                System.
U165A130037..................  Bridgeport City   Bridgeport......  CT.............  LEA............   $3,239,384
                                School District.
U165A130023..................  Seminole County   Sanford.........  FL.............  LEA............     $737,626
                                Public Schools.
U165A130039..................  School Board of   Miami...........  FL.............  LEA............   $3,532,735
                                Miami-Dade
                                County, FL.
U165A130083..................  The School Board  Fort Lauderdale.  FL.............  LEA............   $3,993,290
                                of Broward
                                County, Florida.
U165A130087..................  School Board of   Bartow..........  FL.............  LEA............   $3,997,000
                                Polk County.
U165A130092..................  Brevard Public    Viera...........  FL.............  LEA............   $3,999,747
                                Schools.
U165A130009..................  Unified School    Wichita.........  KS.............  LEA............   $3,999,993
                                District 259
                                (DBA Wichita
                                Public Schools).
U165A130071..................  Springfield       Springfield.....  MA.............  LEA............   $3,850,000
                                Public Schools.
U165A130051..................  Lansing School    Lansing.........  MI.............  LEA............   $3,396,230
                                District.
U165A130088..................  Clarksdale        Clarksdale......  MS.............  LEA............   $1,995,391
                                Municipal
                                School District.
U165A130013..................  NYC Department    Brooklyn........  NY.............  LEA............   $3,150,000
                                of Education--
                                Community
                                School District
                                13.
U165A130022..................  NYC Community     Jamaica.........  NY.............  LEA............   $2,836,829
                                School District
                                28.
U165A130007..................  Richland School   Columbia........  SC.............  LEA............   $1,683,734
                                District Two.
U165A130095..................  School District   Irmo............  SC.............  LEA............   $3,990,500
                                Five of
                                Lexington and
                                Richland
                                Counties.
U165A130045..................  Houston           Houston.........  TX.............  LEA............   $3,999,597
                                Independent
                                School District.
U165A130047..................  Galveston ISD...  Galveston.......  TX.............  LEA............   $4,000,000
U165A130077..................  Waco Independent  Waco............  TX.............  LEA............   $2,199,120
                                School District.
----------------------------------------------------------------------------------------------------------------
Program Name:  Race to the Top
----------------------------------------------------------------------------------------------------------------
S412A130039..................  Office of the     Atlanta.........  GA.............  State..........  $51,739,896
                                Governor, State
                                of Georgia.
S412A130045..................  Office of the     Frankfort.......  KY.............  State..........  $44,348,482
                                Governor, State
                                of Kentucky.
S412A130044..................  Office of the     Lansing.........  MI.............  State..........  $51,737,456
                                Governor, State
                                of Michigan.
S412A130049..................  Office of the     Trenton.........  NJ.............  State..........  $44,286,728
                                Governor, State
                                of New Jersey.
S412A130040..................  Commonwealth of   Harrisburg......  PA.............  State..........  $51,734,519
                                Pennsylvania
                                Governor's
                                Office.
S412A130038..................  Office of the     Montpelier......  VT.............  State..........  $36,931,076
                                Governor, State
                                of Vermont.
B416A130097..................  Galt Union        Galt............  CA.............  LEA............   $9,999,973
                                School District.
B416A130108..................  Lindsay Unified   Lindsay.........  CA.............  LEA............  $10,000,000
                                School District.
B416A130266..................  New Haven         Union City......  CA.............  LEA............  $29,351,345
                                Unified School
                                District.
B416A130131..................  St. Vrain Valley  Longmont........  CO.............  LEA............  $16,589,553
                                Schools.
B416A130341..................  KIPP DC.........  Washington......  DC.............  LEA............   $9,999,844
B416A130077..................  School Board of   Miami...........  FL.............  LEA............  $31,993,016
                                Miami-Dade
                                County.
B416A130156..................  Metropolitan      Indianapolis....  IN.............  LEA............  $28,570,886
                                School District
                                of Warren
                                Township.
B416A130137..................  Guilford County   Greensboro......  NC.............  LEA............  $35,222,004
                                Schools.
B416A130160..................  Iredell-          Statesville.....  NC.............  LEA............  $19,999,703
                                Statesville
                                Schools.
B416A130158..................  Carson City       Carson City.....  NV.............  LEA............  $10,000,000
                                School District.
B416A130040..................  Middletown City   Middletown......  NY.............  LEA............  $19,995,588
                                School.
B416A130264..................  Charleston        Charleston......  SC.............  LEA............  $19,388,399
                                County School
                                District.
B416A130117..................  IDEA Public       Weslaco.........  TX.............  LEA............  $31,228,967
                                Schools.
B416A130301..................  Harmony Science   Houston.........  TX.............  LEA............  $29,866,938
                                Academy.
B416A130186..................  Puget Sound       Renton..........  WA.............  LEA............  $39,964,930
                                Educational
                                Service
                                District.
----------------------------------------------------------------------------------------------------------------
Program Name:  School Leadership
----------------------------------------------------------------------------------------------------------------
U363A130115..................  Wheaton R3        Wheaton.........  MO.............  LEA............     $428,734
                                School District.
U363A130057..................  Tulsa             Tulsa...........  OK.............  LEA............     $990,874
                                Independent
                                School District
                                No. 1 Tulsa
                                Public Schools.
U363A130164..................  Shelby County     Memphis.........  TN.............  LEA............     $623,402
                                Board of
                                Education.
U363A130077..................  Region 5          Beaumont........  TX.............  LEA............     $725,463
                                Education
                                Service Center.
U363A130106..................  Granite School    Salt Lake City..  UT.............  LEA............     $996,743
                                District.
U363A130143..................  The Board of      Welch...........  WV.............  LEA............     $816,915
                                Education of
                                the County of
                                McDowell.
----------------------------------------------------------------------------------------------------------------
Program Name:  Teacher Incentive Fund
----------------------------------------------------------------------------------------------------------------
S374A130171..................  New York State    New York........  NY.............  State..........   $4,242,719
                                Education
                                Department.
----------------------------------------------------------------------------------------------------------------
Account Name:  Rehabilitation Services and Disability Research
Program Name:  Assistive Technology Programs
----------------------------------------------------------------------------------------------------------------
H224D130016..................  Missouri          Blue Springs....  MO.............  State..........     $621,778
                                Assistive
                                Technology
                                Council.
----------------------------------------------------------------------------------------------------------------
Program Name:  Special Education PROMISE Initiative
----------------------------------------------------------------------------------------------------------------
H418P130007..................  Arkansas          Little Rock.....  AR.............  State..........  $18,870,843
                                Department of
                                Education.
H418P130003..................  California        Sacramento......  CA.............  State..........  $20,422,782
                                Department of
                                Rehabilitation.
H418P130005..................  Maryland          Baltimore.......  MD.............  State..........  $19,394,303
                                Department of
                                Disabilities.
H418P130011..................  Research          Albany..........  NY.............  State..........  $19,500,000
                                Foundation for
                                Mental Hygiene,
                                Inc.
H418P130009..................  Utah State        Salt Lake City..  UT.............  State..........  $20,330,901
                                Office of
                                Rehabilitation.
H418P130004..................  Wisconsin         Madison.........  WI.............  State..........  $20,529,147
                                Department of
                                Workforce
                                Development.
----------------------------------------------------------------------------------------------------------------
Account Name:  Safe Schools and Citizenship Education
Program Name:  Elementary and Secondary School Counseling
----------------------------------------------------------------------------------------------------------------
S215E130298..................  County of         Phoenix.........  AZ.............  LEA............     $396,780
                                Maricopa Osborn
                                School District
                                #8.
S215E130003..................  Willits Unified   Willits.........  CA.............  LEA............     $396,373
                                School District.
S215E130012..................  Alhambra Unified  Alhambra........  CA.............  LEA............     $396,657
                                School District.
S215E130185..................  Cajon Valley      El Cajon........  CA.............  LEA............     $399,304
                                Union School
                                District.
S215E130223..................  Mountain Empire   Pine Valley.....  CA.............  LEA............     $397,320
                                Unified School
                                District.
S215E130233..................  Elk Grove         Elk Grove.......  CA.............  LEA............     $398,498
                                Unified School
                                District.
S215E130274..................  Summerville       Tuolumne........  CA.............  LEA............     $340,547
                                Elementary
                                School District.
S215E130303..................  Earlimart School  Earlimart.......  CA.............  LEA............     $249,738
                                District.
S215E130305..................  Montebello        Montebello......  CA.............  LEA............     $395,768
                                Unified School
                                District.
S215E130407..................  Desert Sands      La Quinta.......  CA.............  LEA............     $267,922
                                Unified School
                                District.
S215E130451..................  Sierra Sands      Ridgecrest......  CA.............  LEA............     $200,000
                                Unified School
                                District.
S215E130519..................  Cutler-Orosi      Orosi...........  CA.............  LEA............     $322,694
                                Joint Unified
                                School District.
S215E130025..................  Southington       Southington.....  CT.............  LEA............     $389,789
                                Public Schools.
S215E130073..................  Bloomfield        Bloomfield......  CT.............  LEA............     $308,740
                                Public Schools.
S215E130534..................  School Board of   Gainesville.....  FL.............  LEA............     $317,305
                                Alachua County.
S215E130338..................  Calhoun City      Calhoun.........  GA.............  LEA............     $394,458
                                Board of
                                Education.
S215E130034..................  Geary County      Junction City...  KS.............  LEA............     $399,940
                                United School
                                District #475.
S215E130384..................  Harlan County     Harlan..........  KY.............  LEA............     $400,000
                                Board of
                                Education.
S215E130420..................  Northern          Cold Spring.....  KY.............  LEA............     $371,377
                                Kentucky
                                Cooperative for
                                Educational
                                Services.
S215E130186..................  Terrebonne        Houma...........  LA.............  LEA............     $397,386
                                Parish School
                                District.
S215E130148..................  Everett Public    Everett.........  MA.............  LEA............     $382,900
                                Schools.
S215E130467..................  Harford County    Bel Air.........  MD.............  LEA............     $382,037
                                Public Schools.
S215E130080..................  Academy for       Dearborn........  MI.............  LEA............     $395,267
                                Business and
                                Technology.
S215E130142..................  Eastern Upper     Sault Ste Marie.  MI.............  LEA............     $372,944
                                Peninsula ISD.
S215E130143..................  Salamanca City    Salamanca.......  NY.............  LEA............     $312,009
                                Central School
                                District.
S215E130364..................  Eastern Suffolk   Patchogue.......  NY.............  LEA............     $365,590
                                BOCES.
S215E130047..................  Bellaire Local    Bellaire........  OH.............  LEA............     $169,173
                                School District.
S215E130153..................  Meigs Local       Pomeroy.........  OH.............  LEA............     $379,397
                                School District.
S215E130431..................  Columbus          Columbus........  OH.............  LEA............     $399,160
                                Preparatory
                                Academy.
S215E130137..................  Rattan Public     Rattan..........  OK.............  LEA............     $254,042
                                Schools.
S215E130172..................  Kershaw County    Camden..........  SC.............  LEA............     $394,372
                                School District.
S215E130215..................  Navasota ISD....  Navasota........  TX.............  LEA............     $399,922
S215E130477..................  Waco Independent  Waco............  TX.............  LEA............     $399,584
                                School District.
S215E130241..................  Tooele County     Tooele..........  UT.............  LEA............     $399,649
                                School District.
S215E130355..................  Milton Town       Milton..........  VT.............  LEA............     $204,143
                                School District.
----------------------------------------------------------------------------------------------------------------
Program Name:  Physical Education
----------------------------------------------------------------------------------------------------------------
S215F130110..................  Springdale        Springdale......  AR.............  LEA............     $735,081
                                Public School
                                District.
S215F130160..................  Alameda County    Hayward.........  CA.............  LEA............     $661,906
                                Office of
                                Education.
S215F130165..................  Diego Hills       Lancaster.......  CA.............  LEA............     $211,023
                                Charter School
                                aka Diego Hills
                                Public Charter
                                Sc.
S215F130171..................  Desert Sands      Lancaster.......  CA.............  LEA............     $422,942
                                Public Charter,
                                Inc..
S215F130017..................  New London        New London......  CT.............  LEA............     $687,138
                                Public Schools.
S215F130373..................  Westport Public   Westport........  CT.............  LEA............     $616,157
                                Schools.
S215F130329..................  District of       Washington......  DC.............  LEA............     $570,942
                                Columbia Public
                                Schools.
S215F130109..................  School Board of   Largo...........  FL.............  LEA............     $775,179
                                Pinellas
                                County, FL.
S215F130255..................  Brevard Public    Viera...........  FL.............  LEA............     $311,955
                                Schools.
S215F130260..................  School Board of   Miami...........  FL.............  LEA............     $763,761
                                Miami-Dade
                                County, FL.
S215F130020..................  Cedar Falls       Cedar Falls.....  IA.............  LEA............     $605,083
                                Community
                                School District.
S215F130040..................  Marshalltown      Marshalltown....  IA.............  LEA............     $494,201
                                Community
                                School District.
S215F130099..................  Marion            Marion..........  IA.............  LEA............     $354,001
                                Independent
                                School District.
S215F130148..................  Iowa City         Iowa City.......  IA.............  LEA............     $263,408
                                Community
                                School District.
S215F130012..................  Middleton School  Middleton.......  ID.............  LEA............     $441,228
                                District.
S215F130218..................  Chicago Public    Chicago.........  IL.............  LEA............     $750,000
                                Schools,
                                District 299.
S215F130283..................  Hononegah         Rockton.........  IL.............  LEA............     $615,733
                                Community High
                                School District
                                207.
S215F130150..................  Newport           Newport.........  KY.............  LEA............     $478,403
                                Independent
                                Schools.
S215F130261..................  ERLANGER-ELSMERE  ERLANGER........  KY.............  LEA............     $725,893
                                INDEPENDENT
                                SCHOOL DISTRICT.
S215F130019..................  Watertown Public  Watertown.......  MA.............  LEA............     $391,269
                                Schools.
S215F130056..................  North Brookfield  North Brookfield  MA.............  LEA............     $390,196
                                Public Schools.
S215F130194..................  Maine School      Gray............  ME.............  LEA............     $465,133
                                Administrative
                                District 15.
S215F130198..................  LIVONIA PUBLIC    LIVONIA.........  MI.............  LEA............     $593,365
                                SCHOOLS SCHOOL
                                DISTRICT.
S215F130119..................  Stillwater Area   Stillwater......  MN.............  LEA............     $727,030
                                Public Schools
                                ISD #834.
S215F130368..................  Winona R-III      Winona..........  MO.............  LEA............     $190,358
                                School District.
S215F130064..................  Buncombe County   Asheville.......  NC.............  LEA............     $752,093
                                Schools.
S215F130102..................  Public Schools    Lumberton.......  NC.............  LEA............     $698,129
                                of Robeson
                                County.
S215F130145..................  Charlotte-        Charlotte.......  NC.............  LEA............     $599,514
                                Mecklenburg
                                Schools.
S215F130211..................  Iredell-          Statesville.....  NC.............  LEA............     $749,916
                                Statesville
                                Schools.
S215F130154..................  South Orange-     Maplewood.......  NJ.............  LEA............     $542,081
                                Maplewood
                                School District.
S215F130023..................  Mexico Academy &  Mexico..........  NY.............  LEA............     $640,727
                                Central School
                                District.
S215F130043..................  Holland Central   Holland.........  NY.............  LEA............     $605,957
                                School District.
S215F130105..................  Greater           Amsterdam.......  NY.............  LEA............     $633,071
                                Amsterdam
                                School District.
S215F130221..................  Palmyra-Macedon   Palmrya.........  NY.............  LEA............     $328,417
                                Central School
                                District.
S215F130232..................  Watkins Glen      Watkins Glen....  NY.............  LEA............     $592,110
                                Central School
                                District.
S215F130238..................  Queensbury Union  Queensbury......  NY.............  LEA............     $547,829
                                Free School
                                District.
S215F130258..................  The Renaissance   Jackson Heights.  NY.............  LEA............     $471,986
                                Charter School.
S215F130269..................  South Colonie     Albany..........  NY.............  LEA............     $714,708
                                Central School
                                District.
S215F130309..................  Caledonia-        Caledonia.......  NY.............  LEA............     $448,469
                                Mumford Central
                                School District.
S215F130321..................  City School       New Rochelle....  NY.............  LEA............     $675,000
                                District of New
                                Rochelle.
S215F130418..................  Freeport Union    Freeport........  NY.............  LEA............     $326,416
                                Free Schools.
S215F130158..................  Perry Local       Perry...........  OH.............  LEA............     $762,811
                                Schools.
S215F130311..................  Southern Local    Racine..........  OH.............  LEA............     $384,507
                                Schools.
S215F130326..................  Wickliffe City    Wickliffe.......  OH.............  LEA............     $384,522
                                Schools.
S215F130180..................  Beggs Public      Beggs...........  OK.............  LEA............     $422,176
                                School District.
S215F130153..................  PAWTUCKET SCHOOL  Pawtucket.......  RI.............  LEA............     $575,244
                                DEPARTMENT.
S215F130111..................  Beresford School  Beresford.......  SD.............  LEA............     $398,590
                                District 61-2.
S215F130122..................  Crockett          Crockett........  TX.............  LEA............     $640,012
                                Independent
                                School District.
S215F130324..................  IDEA Public       Weslaco.........  TX.............  LEA............     $747,092
                                Schools.
S215F130281..................  Ogden City        Ogden...........  UT.............  LEA............     $719,869
                                School District.
S215F130022..................  Newport           Newport.........  WA.............  LEA............     $378,000
                                Consolidated
                                School District
                                #56-415.
S215F130065..................  Mead School       Mead............  WA.............  LEA............     $430,409
                                District 354.
S215F130116..................  NorthEast         Spokane.........  WA.............  LEA............     $369,783
                                Washington
                                Educational
                                Service
                                District 101.
S215F130025..................  School District   Monroe..........  WI.............  LEA............     $423,080
                                of Monroe.
S215F130067..................  Southern Door     Brussels........  WI.............  LEA............     $461,590
                                County School
                                District.
S215F130336..................  School District   Wild Rose.......  WI.............  LEA............     $497,431
                                of Wild Rose.
----------------------------------------------------------------------------------------------------------------
Account Name:  School Improvement Programs
Program Name:  State Assessments
----------------------------------------------------------------------------------------------------------------
S368A130003..................  Maryland State    Baltimore.......  MD.............  State..........   $4,999,994
                                Department of
                                Education.
S368A130002..................  North Carolina    Raleigh.........  NC.............  State..........   $6,131,422
                                Department of
                                Public
                                Instruction.
S368A130004..................  Texas Education   Austin..........  TX.............  State..........   $3,988,124
                                Agency.
----------------------------------------------------------------------------------------------------------------
Account Name:  Special Education
Program Name:  Special Education PROMISE Initiative
----------------------------------------------------------------------------------------------------------------
H418P130003..................  California        Sacramento......  CA.............  State..........      $86,498
                                Department of
                                Rehabilitation.
----------------------------------------------------------------------------------------------------------------
Program Name:  Special Education Technical Assistance and Dissemination
----------------------------------------------------------------------------------------------------------------
H326T130036..................  Arkansas          Little Rock.....  AR.............  State..........     $118,534
                                Department of
                                Education.
H326T130032..................  Arizona State     Tucson..........  AZ.............  LEA............     $175,338
                                Schools for the
                                Deaf and the
                                Blind.
H326T130024..................  Colorado          Denver..........  CO.............  State..........     $154,079
                                Department of
                                Education.
H326T130040..................  Delaware          Dover...........  DE.............  State..........      $83,362
                                Department of
                                Education.
H326T130038..................  Iowa Braille and  Vinton..........  IA.............  LEA............      $97,054
                                Sight Saving
                                School.
H326T130081..................  Illinois State    Springfield.....  IL.............  State..........     $335,444
                                Board of
                                Education.
H326T130016..................  Education, KS     Kansas City.....  KS.............  LEA............     $128,122
                                State Board of
                                DBA KS School
                                for the Blind.
H326T130085..................  Kentucky          Frankfort.......  KY.............  State..........     $165,145
                                Department of
                                Education.
H326T130037..................  Maryland State    Baltimore.......  MD.............  State..........     $229,366
                                Department of
                                Education.
H326T130020..................  State of          Roseville.......  MN.............  State..........     $171,335
                                Minnesota,
                                Minnesota
                                Department of
                                Education.
H326T130018..................  Missouri          Jefferson City..  MO.............  State..........     $197,129
                                Department of
                                Elementary and
                                Secondary
                                Education.
H326T130010..................  North Carolina    Raleigh.........  NC.............  State..........     $313,649
                                Department of
                                Public
                                Instruction.
H326T130034..................  North Dakota      Bismarck........  ND.............  State..........      $65,000
                                Department of
                                Public
                                Instruction.
H326T130021..................  Nebraska          Lincoln.........  NE.............  State..........      $78,471
                                Department of
                                Education.
H326T130083..................  Montgomery        Norristown......  PA.............  LEA............     $371,952
                                County
                                Intermediate
                                Unit.
H326T130092..................  Department of     San Juan........  PR.............  State..........      $65,000
                                Education,
                                Associated
                                Secretariat of
                                Special Ed.
H326T130082..................  The South         Columbia........  SC.............  LEA............     $154,204
                                Carolina School
                                for the Deaf
                                and the Blind.
H326T130086..................  Texas Education   Austin..........  TX.............  State..........     $575,000
                                Agency.
H326T130009..................  Utah State        Salt Lake City..  UT.............  State..........      $92,039
                                Office of
                                Education.
H326T130029..................  Office of         Olympia.........  WA.............  State..........     $195,750
                                Superintendent
                                of Public
                                Instruction.
H326T130027..................  Wisconsin         Madison.........  WI.............  State..........     $173,484
                                Department of
                                Public
                                Instruction.
H326T130028..................  West Virginia     Charleston......  WV.............  State..........     $125,020
                                Department of
                                Education.
H326T130093..................  Wyoming           Rawlins.........  WY.............  State..........      $65,000
                                Department of
                                Education.
----------------------------------------------------------------------------------------------------------------

              grant periods of competitive grant programs
    Question. Can you indicate the periods of investment that are 
involved in competitive awards?
    Answer. Project periods for Department of Education competitive 
grant programs generally range from 3 to 5 years. There are exceptions, 
such as when an applicant does not request funding for the full 
proposed project period, and one recent grant competition made 2-year 
grants.
   assessing the impact of formula versus competitive grant programs
    Question. Furthermore, stakeholders are looking for further 
justification for how the Department of Education assesses the impact 
of the dependability and sustained impact of formula grant programs 
versus the unpredictability that can be associated with grants awarded 
competitively. Can you provide your justification for this shift?
    Answer. Formula grant programs typically are intended to provide 
ongoing support to States and school districts in areas where they 
often struggle to produce positive educational outcomes, such as in 
serving students from low-income families, students with disabilities, 
and English Learners. Competitive grant programs, by contrast, 
generally are designed to provide extra resources for a limited period 
of time that allow a State or district to develop and demonstrate 
innovative approaches to meeting educational challenges. Successful 
innovations then may be supported, following the end of the project 
period for a competitive grant program, through a combination of 
Federal, State, and local funding. We see a robust portfolio of 
competitive grant programs as a critical complement to our much larger 
investment in formula grant programs, providing much-needed incentives 
and resources to support State and local innovation and build the 
evidence base for effective educational practice.
              effective teachers and leaders state grants
    Question. Your budget proposal includes a request for the Excellent 
Instructional Team initiative, and a component of this proposal is 
Effective Teachers and Leaders State grants. New Hampshire's higher 
education institutions that train educators are currently working with 
stakeholders in the State toward implementing a program that not only 
trains teachers for the workforce, but also follows them for at least 2 
years post-graduation to provide them with additional support and 
preparation to effectively manage a classroom as they begin their 
careers. This can help ensure that teachers receive the preparation and 
support they need and help keep young educators in the profession.
    The Department's Effective Teachers and Leaders State Grant program 
provides a number of overarching goals that States can implement to 
improve the profession and ensure the highest quality educators are 
working with students. Would your formula grant distribution take into 
consideration the work currently being done by States to support 
quality teacher preparation efforts and ensure that such efforts would 
not be duplicative but could rather build off of the work that is 
already being done?
    Answer. Consistent with the current Title II, Part A statute, under 
the Effective Teachers and Leaders State Grants program, the Department 
would allocate funds to States based on each State's relative share of 
the population, age 5 to 17, and on each State's share of children, age 
5 to 17, from low-income families. States would be able to reserve 
State-level funds for activities such as those you describe, and would 
have flexibility to build on existing work to support and prepare 
teachers as they embark upon their new careers.
incorporating nontraditional science, technology, engineering, and math 
                  activities in after-school programs
    Question. As we continue to look at the jobs of the future in our 
country, it is clear that a strong comprehension of STEM subjects will 
be increasingly important. I believe we need to do more to expand 
understanding of STEM subjects through all facets of education, and I 
view out-of-school time as a critical period during which students can 
participate in nontraditional STEM activities like FIRST robotics in 
New Hampshire. How do you envision your Department incorporating more 
nontraditional STEM activities into federally supported afterschool 
initiatives as you work to provide our Nation's children with the 
skills they will need to succeed in the future?
    Answer. After school programs like 21st Century Community Learning 
Centers are an important example of how we are able to provide flexible 
Federal funding for initiatives that meet State and local needs and 
help States and communities lead the way in innovations that help 
prepare our children for college and careers in our globally 
competitive economy. In the STEM space, of course, we also believe that 
our STEM Innovation Networks proposal could provide significant support 
for the kind of out-of-school learning opportunities offered by 
participation in programs like the First Robotics Competition.
                                 ______
                                 
               Questions Submitted by Senator Jerry Moran
                      preschool development grants
    Question. I recognize the important role that early childhood 
education plays in helping all students enter the classroom prepared to 
learn. That said, I am concerned the administration may direct funding 
for Preschool Development Grants to States that are willing to 
implement administration-driven approaches rather than allow for 
flexibility in funding on State and local identified needs for 
preschool education. Is the Department concerned that predetermined 
approaches would restrict flexibility for State and local entities to 
meet the unique conditions or needs of their communities?
    Answer. The Department is committed to funding high-quality 
preschool programs that meet State and local needs. Although programs 
funded by Preschool Development Grants would be required to meet 
nationally recognized program quality standards, grantees would have 
the flexibility to determine which local communities they wish to serve 
and how these programs should be delivered. For example, preschool 
services could be delivered through a mixed-delivery system of 
providers including schools, licensed child care centers, Head Start, 
or other community-based organizations. In addition, only preschool 
programs funded through this program will need to meet the 
competition's criteria for high-quality preschool programs. Other 
preschool programs within the State will not be required to meet these 
criteria.
    preschool development grants--programs requirements and student 
                                outcomes
    Question. The fiscal year 2015 budget request states that Preschool 
Development grantees will be required to meet minimum standards to 
receive funding, such as specific staff qualifications, training, and 
employee salaries that are comparable to K-12 teachers, among other 
requirements. There are local programs in States currently that are 
making impressive strides in early child education, but may not be able 
to comply with all of these standards based on how they are customized 
to serve their unique communities. Again, while I support early 
childhood education, I am concerned that this approach will not provide 
necessary flexibility. How does this focus on specific requirements 
reconcile with a Department that continuously asserts that it is 
focused on outcomes in education?
    Answer. The Preschool Development Grant program would not require 
States to meet the criteria of a high-quality preschool program to be 
eligible for funds. All States will be eligible to apply. Rather, 
grantees will need to show how the programs implemented with these 
funds will meet the competition's criteria for high-quality preschool 
programs. Preschool Development Grants are intended to support the 
creation of high-quality model programs in select high-need 
communities. Given the scope and scale of these awards, the Department 
believes that grantees should be able to direct resources to the 
highest quality programs--including those that meet high staff 
qualifications and other high-quality benchmarks--in a few communities. 
Research has shown that early childhood teachers' education and 
training have been linked to global measures of program quality, 
language and social interaction between teachers and children, and 
improved student outcomes.
            preschool development grants--funding subgrants
    Question. Will the Department commit to allowing funding to be 
subgranted to entities by States that will work toward meeting high-
quality standards, but may not meet all of the minimum standards at 
this time?
    Answer. The Department is committed to funding high-quality 
preschool programs. Early learning providers do not need to meet all of 
the standards when they apply for a Preschool Development grant. 
However, subgrantees must use grant funds to implement a program that 
meets the high-quality benchmarks outlined in the competition. For 
example, a subgrantee may not currently offer a full-day program or 
maintain a staff:child ratio of 1:10, but would need to commit to doing 
so upon receipt of program funding.
                sustaining preschool development grants
    Question. Given the high cost of implementing some of these 
standards, what assurances will there be that these preschool programs 
will be sustainable after the grant period?
    Answer. The Department is very interested in funding high-quality 
projects that are sustainable after the grant period ends and will 
consider ways to further that goal.
     preschool development grants--encouraging state and community 
                              cooperation
    Question. Flexibility at the State and local levels will be key to 
the success of the grant and the early childhood education systems in 
the States. Is there an expectation that collaborative local councils 
will or can use existing high quality programs at the State and local 
levels to move toward a State early childhood system? And, how will the 
Department encourage opportunities for schools and community programs 
to work together?
    Answer. The Department is very interested in encouraging 
collaboration, both between States and local entities, and among local 
preschool providers and is planning to include such measures in the 
selection criteria for Preschool Development Grants.
            preschool development grants--family engagement
    Question. Please provide clarification as to the Department's 
expectations for family engagement implementation using Preschool 
Development Grants? Will States have the flexibility with funds to 
include evidence-based home visiting with preschool classroom families 
to extend learning and facilitate parent engagement and partnership?
    Answer. The Department is committed to supporting family engagement 
efforts through the Preschool Development Grants program, and is 
considering including family engagement strategies throughout the 
priorities, requirements, definitions, and selection criteria sections 
of the Notice Inviting Applications.
        preschool development grants--students with disabilities
    Question. Will Preschool Development Grants encourage States to use 
funding to maximize more inclusive opportunities so that children who 
have disabilities and the programs that serve them can participate 
fully in this funding opportunity?
    Answer. Yes; one of the elements of the Department's definition of 
high-quality preschool programs is the full inclusion of children with 
disabilities.
          preschool development grants--comprehensive services
    Question. Please provide clarification as to the specific 
comprehensive services that will be required to be provided onsite by 
preschool programs to qualify for Preschool Development Grant funding. 
Will a preschool program be eligible to receive funding should it 
commit to providing comprehensive services in the future under the 
grant if they are not currently provided?
    Answer. Early learning providers delivering a high-quality 
preschool program would need to offer comprehensive services that meet 
children's needs across a range of domains of development, including: 
education, health, mental health, nutrition, and family engagement. 
Comprehensive services must be accessible or delivered on site.
    While the Department believes that providing comprehensive services 
should be a part of a high-quality preschool program, States and 
subgrantees do not have to currently provide comprehensive services to 
be eligible to receive Preschool Development Grant funds.
                college ratings system development funds
    Question. Please provide a detailed breakdown of funding that has 
been used to date to develop a college ratings system. This should 
include the source of funding for each activity, including funds 
relating to the information collection request on development of a 
college ratings system, funds relating to the actual development of the 
system, funds relating to travel and cost of conducting symposiums, 
among all other activities.
    Answer. The costs to date associated with the college ratings 
system, officially the Postsecondary Institutions Ratings System, or 
PIRS, are provided below, excluding full-time equivalent employee (FTE) 
costs.

                  COLLEGE RATINGS SYSTEM COSTS TO DATE
------------------------------------------------------------------------
            Activity                     Costs          Funding Source
------------------------------------------------------------------------
Planning and Development Costs..  N/A...............  N/A
Operations and Maintenance......  Not Yet Developed.  N/A
Symposium Costs (includes         Approximately       Student Aid
 travel).                          $23,500.            Administration
------------------------------------------------------------------------

     college ratings system in the fiscal year 2015 budget request
    Question. Could the Department please provide additional detail on 
the proposed use of $10 million in fiscal year 2015 to develop the 
college ratings system, as well as any planned use of funds beyond the 
$10 million?
    Answer. The college ratings system's development and refinement 
will require ongoing costs beyond the initial costs associated with the 
first iteration that we are currently in the process of developing. 
That is why the President's fiscal year 2015 budget request includes 
$10 million to support further development and refinement of a new 
college ratings system, including Web site design and continuous 
improvement, and validation of the data and methodology. Specifically, 
we anticipate costs for a contractor to design, maintain, and update 
the Web site of the college ratings system; research and data costs 
associated with designing different methodologies and models, and for 
obtaining, validating, and analyzing data for the ratings system; as 
well as ``data-runs'' of rating methodologies and models.
          alternate funding sources for college ratings system
    Question. Please provide detailed information on the source, use, 
and amount of funding that will be utilized by the Department to 
develop the college ratings system if $10 million is not provided in 
fiscal year 2015 specifically for this purpose?
    Answer. If any amount less than the $10 million request is 
provided, the Department would need to utilize a combination of 
existing resources to make up for the shortfall.
                race to the top--equity and opportunity
    Question. In a time of tight fiscal budgets, I question why the 
fiscal year 2015 budget request creates yet another new, competitive 
program under Race to the Top. Why fund the Race to the Top: Equity and 
Opportunity program when it provides duplicative services with ESEA, 
Title I grants that already reach all disadvantaged students?
    Answer. The Elementary and Secondary School Act (ESEA), Title I 
program provides essential support for State and local efforts to meet 
the educational needs of disadvantaged students in high-poverty 
schools. We think that the modest $300 million investment we have 
proposed for Race to the Top--Equity and Opportunity will generate 
innovative approaches and promising practices aimed at increasing 
educational equity that could have a meaningful impact on improving the 
performance and outcomes of the $14 billion Title I program.
 students benefiting from race to the top and elementary and secondary 
                      school act, title i services
    Question. Since Race to the Top was created, over $6 billion has 
been appropriated for initiatives which have been aimed at ultimately 
reducing achievement and opportunity gaps for students. How many more 
students, especially in States like Kansas that have yet to benefit 
from Race to the Top funding, could have benefited from $6 billion in 
additional Title I services?
    Answer. Race to the Top is focused on helping States and school 
districts develop and implement systemic education reforms that can 
transform their ability to improve educational outcomes for all 
students. If an additional $6 billion had been allocated through Title 
I over the past 5 years, we estimate that Kansas might have been able 
to serve, on average, an additional 8,500 students annually. However, 
Kansas' share of that $6 billion--an estimated $42 million--would have 
been considerably less than the nearly $71 million that the State 
received in additional Title I funds provided in fiscal year 2009 
through the American Recovery and Reinvestment Act (ARRA). ARRA 
provided $10 billion for ESEA, Title I, along with $4 billion for Race 
to the Top State Grants, or the bulk of the $6 billion total referenced 
in your question. In other words, ARRA allowed us to invest in 
transformational reform programs like Race to the Top while still 
keeping faith with traditional sources of Federal formula grant support 
relied upon by States and school districts.
                    equity and competitive programs
    Question. How is equity achieved for all students when competitive 
programs, by their nature, result in only some students receiving 
services?
    Answer. The goal of the Race to the Top--Equity and Opportunity 
proposal is to create incentives for States and school districts to 
make comprehensive changes in how they identify and close opportunity 
and achievement gaps. In other words, equity in education is not just 
about equalizing expenditures or services, but also about using data to 
identify the needs of individual students and developing strategies to 
meet those needs. We think competitive grants are a more efficient and 
effective way to target these limited resources on this goal than 
spreading the funds thinly through formula grants. A key purpose of our 
Race to the Top proposal for fiscal year 2015 is to generate a set of 
evidence-based practices and interventions that successfully address 
disparities in educational opportunity and improve outcomes, so that 
those practices and interventions can be scaled up with existing 
Federal resources, such as our annual $14 billion investment in Title 
I, to provide equitable educational opportunities to all students.
 competitive programs and the reduction of achievement and opportunity 
                                  gaps
    Question. How will another $300 million for a new Race to the Top 
program that only reaches students in States and local school districts 
that successfully compete for funding, further the goal of reducing 
achievement and opportunity gaps for students?
    Answer. These funds would be awarded to States and school districts 
that submit high-quality applications demonstrating the greatest 
promise of using data to (1) identify the greatest disparities in 
opportunity and performance and (2) develop effective strategies and 
practices for addressing those disparities. Our goal is to identify a 
set of evidence-based practices and interventions that successfully 
address disparities in educational opportunity and improve outcomes. 
Then we would encourage States and school districts to use existing 
Federal resources, such as ESEA, Title I funding, to scale up those 
proven practices and interventions to provide equitable educational 
opportunities to all students.
   special education--results driven accountability incentive grants
    Question. Why did the Department choose to include $100 million for 
an Incentive grants competition under Special Education at the expense 
of increasing formula funding for Special Education Grants to States?
    Answer. While protecting funding for foundational programs like 
Special Education State Grants, under the Individuals with Disabilities 
Education Act (IDEA) and ESEA, Title I State grants is incredibly 
important, we also need to invest in reform. The reform dollars we 
invest in competitive grants encourage States and districts to rethink 
their existing ways of doing things, including their use of formula 
funds, to produce better outcomes for students--especially students 
that have historically been underserved, like students with 
disabilities. Our new $100 million Results Driven Accountability 
Incentive Grants (RDA) competition will improve special education 
services for children with disabilities while also building State and 
local capacity to continuously improve outcomes.
    Funds under the IDEA, Part B program are primarily used for program 
and services at the local level. The Department believes that these new 
competitive grants can be used together with formula funds to drive 
meaningful, targeted and systemic reforms to address gaps in 
performance that will have a significant and long-term impact on 
results for children with disabilities. RDA would support State efforts 
to identify and implement reforms that would improve results for 
children with disabilities, such as school readiness, academic 
performance, and graduation rates.
                 career and technical education funding
    Question. Given the critical role that hands-on experiences play in 
helping students prepare for future careers, why does the fiscal year 
2015 Department of Education Budget Request only provide level funding 
for Career and Technical Education (CTE)?
    Answer. We agree that the programs authorized under the Perkins 
Career and Technical Education Act provide important support for 
helping students prepare for future careers. The President's budget 
proposal for education represents hard choices for funding among 
multiple worthy programs in a difficult fiscal environment. The fiscal 
year 2015 budget request respects the spending levels set in the 
Bipartisan Budget Act of 2013, with new discretionary funding dedicated 
to areas where we think it will have the greatest impact on improving 
educational outcomes. We also believe that a reauthorized Act that 
strengthens alignment between secondary and postsecondary education and 
enhances accountability will enhance the quality of CTE programs 
available to students at the current funding level.
 impact of innovation fund set-aside on career and technical education 
                   state funding levels and students
    Question. What would be the impact to individual States if Career 
and Technical Education Grants to States are reduced by a $100 million 
set-aside for a new innovation fund? And, how many less students will 
be served in States that are not successful in competing for this 
proposed use of funding?
    Answer. The Department's fiscal year 2015 budget request for Career 
and Technical Education (CTE) State Grants presumes that the fiscal 
year 2015 appropriation would support a reauthorized Perkins program 
consistent with the Department's reauthorization proposal. We envision 
that a reauthorized Perkins program would incorporate revisions to the 
State allocation formula so that the formula drives funds to States 
based on current data. If Congress were to enact the set-aside absent 
reauthorization, we would be happy to work with Congress to explore 
ways to fairly distribute the impact on individual State allocations. 
The impact of the reduction in the amount of funds distributed to 
States would vary due to the provisions of the State allocations 
formula, particularly the hold-harmless provision that ensures that no 
State's share of the appropriation is less than its share of the fiscal 
year 1998 appropriation. We are unable to estimate the impact on 
students served because States do not track the number of students 
served with Federal funds versus State and local CTE funding, and 
Perkins Career and Technical Education program funds constitute a small 
percentage of the total funding used for CTE programs; the majority of 
the funding for CTE programs comes from State and local sources.
    Note that although directing funds to an innovation fund would 
reduce the amount of funds distributed to State and local entities, 
activities carried out through an innovation fund would help to 
strengthen CTE for all students by expanding the availability of CTE 
programs that work and encouraging States to establish policies that 
ensure that CTE programs are of high quality and lead to positive 
academic and career outcomes.
                impact aid payments for federal property
    Question. Mr. Secretary, this subcommittee demonstrated its 
commitment to the Impact Aid program by restoring funding in fiscal 
year 2014 for all sections of the program to 99.8 percent of the fiscal 
year 2012 level. Given strong congressional support, why has the 
Department proposed to once again eliminate Payments for Federal 
Property?
    Answer. The policy of the Administration is to use available Impact 
Aid funds to help pay for the education of federally connected 
children, including children of members of the uniformed services, 
children of Federal employees who both live and work on Federal 
property, children of foreign military officers, children living on 
Indian lands, and children residing in federally assisted low-rent 
housing projects. Given the continued need for fiscal discipline, the 
Administration has proposed to maintain $1.2 billion in funding to four 
Impact Aid programs (Basic Support Payments, Payments for Children with 
Disabilities, Construction and Facilities Maintenance) as part of its 
continued commitment to improving the educational outcomes of federally 
connected students supported by those Impact Aid programs.
    Unlike other Impact Aid programs, Payments for Federal Property are 
made to local educational agencies (LEAs) without regard to the 
presence of federally connected children and do not necessarily support 
educational services for such children. When the Payments for Federal 
Property authority was first established in 1950, its purpose was to 
provide assistance to LEAs in which the Federal Government had imposed 
a substantial and continuing burden by acquiring a considerable portion 
of real property in the LEA. The law applied only to property acquired 
since 1938 because, in general, LEAs had been able to adjust to 
acquisitions that occurred before that time. Over 64 percent of 
districts that currently receive Payments for Federal Property first 
applied before 1970. We believe that the majority of LEAs receiving 
assistance under this program have now had sufficient time to adjust to 
the removal of the property from their tax rolls.
    In addition, many LEAs receiving funds under this authority consist 
of two or more LEAs that consolidated, at least one of which originally 
met the eligibility criterion of a loss of 10 percent of the aggregate 
assessed value of real property removed from the tax rolls. The current 
statute allows such LEAs to retain eligibility even though they are no 
longer demonstrably burdened.
     student impact of elimination of payments for federal property
    Question. What impact would the elimination have on the educational 
opportunities of students in districts that currently benefit from such 
payments?
    Answer. It is not possible to estimate the direct impact on 
educational opportunities of students in districts that currently 
receive Payments for Federal Property as each district's budget 
situation would need to be considered individually. Please also note 
that these funds do not necessarily support educational services to 
federally connected children and are calculated without regard to such 
children.
cost to impact aid program of reduced department of defense funding of 
                        domestic defense schools
    Question. Has the Education Department (ED) discussed with the 
Defense Department the impact on public schools should the Defense 
Department reduce its commitment to the Domestic Defense schools? As I 
am concerned about the strain that would be put on the Impact Aid 
program to offset the increased cost to school districts of educating 
additional students, does the Department have similar concerns and what 
would be the estimated cost to the Impact Aid program?
    Answer. There have been no discussions between the Department of 
Defense and ED regarding the impact of the Department of Defense's 
potential reduction in commitment to Domestic Defense schools. The 
Department of Defense was conducting an independent needs study 
regarding Department of Defense schools in 2012, however, we were not 
informed of its results.
                            entrepreneurship
    Question. As we think about the current fiscal environment, one way 
we can help reduce the Federal deficit is to grow the economy. To do 
this, I have advocated for the need to strengthen our support of 
entrepreneurs given that new businesses account for the creation of an 
average of 3 million jobs each year. Support for entrepreneurship 
begins with developing our next generation of American talent and 
independent thinkers. What specific activities and programs at the 
Department of Education focus on helping students attain the skills 
necessary to become entrepreneurs and compete in a global economy?
    Answer. Nearly all of our programs are aimed at helping students 
attain the college- and career-ready skills they need to be successful 
in our 21st century globally competitive economy, including traditional 
employment in business and industry as well as more entrepreneurial 
activities. In particular, our emphasis on new college- and career-
ready standards and aligned assessments reflects the growing need for 
all students to master the higher-order thinking and reasoning skills 
that are essential for the creative work involved in entrepreneurship. 
And two key proposals in our 2015 request--STEM Innovation Networks and 
High School Redesign--would provide significant new support for locally 
determined activities consistent with your interest in 
entrepreneurship. For example, the $150 million request for High School 
Redesign would support the redesign of high schools in innovative ways 
that better prepare students for college and career success so that all 
students graduate from high school with college credit and career-
related experiences or competencies, obtained through project or 
problem-based learning, real-world challenges, and organized 
internships and mentorships. And a $110 million request for STEM 
Innovation Networks would encourage partnerships of LEAs, higher 
education, nonprofit organizations, and business to increase 
opportunities for students to engage in hands-on STEM learning 
activities that will give them the skills to help America compete and 
innovate in our technology-driven world.
                   education research and development
    Question. I am pleased that the University of Kansas (KU) has been 
a leader in special education research. Currently KU is receiving 
funding from the Office of Special Education programs to develop a 
national center to assist schools in educating general and special 
education students together and improving school-wide academic 
outcomes. Given the tight fiscal budget, what resources can the 
Department direct towards research and development in teaching, use of 
technology and student learning, including learning of special 
education and high-risk students, to make certain that American schools 
are at the forefront of educational progress?
    Answer. The Department's Institute of Education Sciences (IES) 
supports research and development through the National Center for 
Education Research (NCER) and the National Center for Special Education 
Research (NCSER). Since 2002, NCER has invested over $1.5 billion to 
fund a wide variety of studies focused on strategies to improve student 
outcomes. These include research grants on effective teaching, 
education technology, and cognition and student learning, among other 
topics. Since its initial grant competitions in 2006, NCSER has 
invested about $530 million to build a comprehensive program of special 
education research designed to expand the knowledge and understanding 
of children with disabilities from birth through the transition from 
high school. Active grants include those addressing the development and 
testing of interventions and assessments, as well as innovative uses of 
technology, to help children with or at risk of disabilities and their 
families, teachers and other professionals who provide support or 
services. Major NCSER investments in the last few years have included, 
for example, National Research and Development Centers on improving 
mathematics instruction for students with mathematics difficulties; 
developing and testing a comprehensive school-based intervention for 
secondary students with autism; and strategies for accelerating the 
academic achievement in reading and math of students with learning 
disabilities. While budget constraints prevented NCSER from holding 
grant competitions in fiscal year 2014, new proposals for research 
funding will be accepted for fiscal year 2015. Fewer awards are 
anticipated based on available funding. Finally, IES runs a Small 
Business Innovation Research (SBIR) program that offers funding to for-
profit small business for the research and development of commercially 
viable education technology products to support students and teachers. 
For example, one awardee developed iPrompt, which allows teachers to 
customize and present different visual supports for students with 
autism using various mobile devices.
          higher education services for disadvantaged students
    Question. While I support the goals of increasing college access 
and attainment for disadvantaged students, why did the Administration 
choose to create the new $75 million College Success Grants for 
Minority-Serving Institutions program when the proven TRIO programs 
already exist to provide support services to disadvantaged students to 
assist with college completion?
    Answer. TRIO projects provide essential services to help students 
from disadvantaged backgrounds to enter and succeed in undergraduate 
and graduate education. The Administration's request maintains funding 
for these essential programs. However, we also believe that new 
approaches are needed to increase college attainment, particularly 
among under-resourced Minority-Serving Institutions (MSIs) that face 
unique challenges, serve a large share of low-income students, and are 
in need of additional support.
    The College Success Grants for MSIs initiative would provide 
funding for high-quality proposals by individual MSIs or consortia to 
implement evidence-based strategies that are designed to increase the 
numbers of students, particularly Pell Grant recipients, completing 
postsecondary education. While certain aspects of the College Success 
Grants for MSIs program may be similar to the Federal TRIO programs, 
successful applicants would use funding to undertake a much broader set 
of activities than are permitted under TRIO, including the following:
  --Partnering with school districts and schools to provide college 
        recruitment, awareness, and preparation activities, to enable 
        students to enter and complete postsecondary education.
  --Establishing high quality dual-enrollment programs.
  --Implementing evidence-based course redesigns of high enrollment 
        courses to improve student outcomes and reduce costs.
  --Reforming institutional need-based aid policies to enhance 
        educational opportunities for low-income students and provide 
        incentives for on-time completion.
  --Providing comprehensive student support services, both academic and 
        non-academic.
  --Reducing the need for, and improving the success of, remedial 
        education.
         mandatory funding--teacher and principal effectiveness
    Question. I am aware that the Department has requested $5 billion 
in mandatory funding for Recognizing Education Success, Professional 
Excellence, and Collaborative Teacher (RESPECT) grants which would be 
used to address teacher recruitment, overhaul tenure and evaluation 
systems, and link salaries to performance. Recognizing that mandatory 
funding is not likely to be provided this fiscal year, could you 
elaborate on whether the Department intends to use any discretionary 
funding under Title II or other funding streams to begin undertaking 
these activities?
    Answer. Under the Effective Teachers and Leaders State Grants 
program, States would have a limited amount of State-level funds with 
which to provide support for effective teacher career ladders, reform 
certification and licensure requirements, increase professional 
development opportunities, and reform teacher and school leader 
compensation systems. The Supporting Effective Educator Development 
(SEED) program, part of a set-aside under the State Grants program, 
would allow the Department to make additional grants to national 
nonprofit organizations to support teacher and school leader 
enhancement projects. Also, under the State Grants program, the 
Department would make competitive awards to States and school districts 
for the purpose of raising standards for teacher and principal 
preparation. In addition, the proposed Teacher and Leader Innovation 
Fund would support State and school district efforts to develop and 
implement innovative approaches to improving human capital management 
systems through a competitive grant process.
               use of title ii national activities funds
    Question. Mr. Secretary, could you provide the subcommittee with a 
specific breakdown on use of funds to date for any Title II funding for 
national activities in fiscal year 2014?
    Answer. Commitments for Title II National Activities in fiscal year 
2014 are:
  --Impact Evaluation of Teacher and Leader Performance Evaluation 
        Systems (5-year study, ending in 2016).
  --Study of Teacher Quality Distribution and Measures of Teacher 
        Quality (mathematics) (5-year study, ending in 2015).
  --Study of Teacher Prep Experiences and Early Teacher Effectiveness 
        (6-year study, ending in 2016).
  --Impact Evaluation of Math Professional Development for Elementary 
        School Teachers (3.5 year study, ending in 2016).
  --Analytic and Technical Support to the Improving Teacher Quality 
        State Grants Program (Support for data collection, monitoring, 
        and an annual meeting of State coordinators).
  --Support for Connected Educators Month.
  --Impact Evaluation of Data-Driven Instruction: Professional 
        Development for Teachers (4-year study, ending in 2017).
  --Impact Evaluation of Support for Principals (5-year study, ending 
        in 2018).
  chief information officer role in information technology investments
    Question. Describe the role of your Department's Chief Information 
Officer in the oversight of information technology (IT) purchases. How 
is this person involved in the decision to make an IT purchase, 
determine its scope, oversee its contract, and oversee the product's 
continued operation and maintenance?
    Answer. The Chief Information Officer (CIO) has the primary 
responsibility to ensure that Information Technology (IT) is acquired 
and information resources are managed in a manner consistent with 
statutory, regulatory, strategic departmental requirements, and 
priorities. The CIO oversees the Lifecycle Management process (LCM) 
that is used to manage systems from concept through retirement. This 
process includes funding, acquisition, design, implementation, 
operation, and retirement of IT systems. The CIO manages the LCM 
process using the Department's IT governance process, which measures 
the value and priority of IT investments and their alignment to 
departmental strategic objectives. The CIO also ensures that projects 
are managed in accordance with Federal and departmental IT policies and 
industry best practices for IT project management throughout their 
lifecycle.
 funding of demonstration, modernization, and enhancement of it systems
    Question. How much of the Department's fiscal year 2015 budget 
request would be for Demonstration, Modernization, and Enhancement of 
IT systems as opposed to supporting existing and ongoing programs and 
infrastructure? And, how has this changed in the last 5 years?
    Answer. Over the past 5 years, the Department has placed a high 
priority on ensuring its IT programs are able to fund Development, 
Modernization, and Enhancement (DME) activities. The table below shows 
the Department's DME funding over the past 5 fiscal years. Data is 
derived from the OMB Exhibit 53, which is a report of all Federal 
agency IT investments, and Exhibits 300A and 300B, which report on 
budgetary and management information necessary for sound planning, 
management, and governance of IT investments.

                               DEVELOPMENT, MODERNIZATION, AND ENHANCEMENT FUNDING
                                              [Dollars in million]
----------------------------------------------------------------------------------------------------------------
                                                                                        DME funding
               Source                 OMB Exhibit 53  fiscal  Fiscal year   Total DME    as % of IT    Total IT
                                            year column                      funding     budget (%)    funding
----------------------------------------------------------------------------------------------------------------
OMB Exhibit 53 BY 2015..............  BY....................         2015       $124.1        17.80       $697.3
OMB Exhibit 53 BY 2015..............  CY....................         2014        141.9        20.80        683.0
OMB Exhibit 53 BY 2015..............  PY....................         2013         99.2        16.80        590.4
OMB Exhibit 53 BY 2014..............  PY....................         2012         65.2        11.91        547.8
OMB Exhibit 53 BY 2013..............  PY....................         2011         49.1         9.20        536.6
----------------------------------------------------------------------------------------------------------------
NOTE: OMB Exhibit 300A includes IT-related full-time equivalent (FTE) funding.

     department technology applications--cloudfirst and sharefirst 
                              initiatives
    Question. Describe the progress being made in the Department to 
transition to new, cutting-edge technologies and applications such as 
cloud, mobility, social networking, and so on. What progress has been 
made in the CloudFirst and ShareFirst initiatives?
    Answer. The Department is in the process of implementing its Access 
Anywhere transformation initiative. This initiative will allow the 
Department's users to benefit from access to Department IT systems, 
applications and shared IT services from anywhere, at any time, and 
from any device. ED employs multiple virtual private network (VPN) 
technologies to enable remote access to email, files, intranets, and 
applications from a variety of tablet, phone, and PC platforms. Since 
calendar year 2012, ED has offered Bring-Your-Own-Device (BYOD) access 
upon the employee's acceptance of the terms of service for BYOD access.
    During fiscal year 2014 through fiscal year 2017, the Office of the 
Chief Information Officer (OCIO) plans to provide the following cloud 
computing services:
    Infrastructure-as-a-Service (IaaS).--The Department will provide 
fundamental computing resources such as processing, storage and 
networks so that Department users can deploy and run software, 
operating systems and applications. IaaS will increase utilization of 
existing investments, reduce infrastructure investments, and decrease 
IT expenses.
    Platform-as-a-Service (PaaS).--The Department will provide an 
integrated platform-based computing solution on the cloud consisting of 
specific operating systems, applications software and development 
tools; that will be available via the Web. PaaS will improve the 
management and procurement of IT systems development capabilities.
    Software-as-a-Service (SaaS).--The Department will migrate some of 
its desktop software applications and data to the cloud infrastructure. 
The software is accessible from various client devices through a thin 
client interface, such as a Web browser. SaaS will improve the 
management, cost, and accessibility of software applications.
    Additional migration of technology services to the cloud will be 
evaluated on an ongoing basis.
    The table below outlines some of the shared services the Department 
currently utilizes:

                                SELECTED DEPARTMENT OF EDUCATION SHARED SERVICES
----------------------------------------------------------------------------------------------------------------
                                                                                              Shared Service
               Service                      Service model           Deployment model          Provider (SSP)
----------------------------------------------------------------------------------------------------------------
Hiring Services......................  SaaS...................  Shared Service Provider  OPM
Office of Personnel Management (OPM)
 (via Monster Government Solutions)
 supports the ED-HIRES system for
 completing employee job descriptions
 and postings with USAJOBS.GOV.
Personnel Folders....................  SaaS...................  Shared Service Provider  OPM
OPM supports the Department through
 its Electronic Office Personnel
 Folder (eOPF) system, which provides
 secure access to employee personnel
 files in support of human resources/
 human capital.
Talent/Learning Management Services..  SaaS...................  Shared Service Provider  DOI/IBC
Department of Interior/Interior
 Business Center (DOI/IBC) provided
 ED with a Learning Management Module
 (online learning, instructor-led
 course sign-up and SF-182 processing
 for external training) and the
 Performance Management Module (for
 employee performance appraisals) via
 https://tms.nbc.gov/.
Payroll Services.....................  SaaS...................  Shared Service Provider  DOI/IBC
DOI/IBC hosts the Federal Personnel
 Payroll System (FPPS), which is used
 for payroll, time & attendance for
 the Department's employees.
Workforce Transformation and Tracking  SaaS...................  Shared Service Provider  DOI/IBC
 System (WTTS) Services & On-boarding
 Services.
ED is leveraging the DOI/IBC Tracking
 System (WTTS)/Entrance On-Duty
 System (EODS), which integrates with
 FPPS and ED-HIRES for hiring.
Implementation of Invoice Process      SaaS...................  Shared Service Provider  Department of the
 Platform (IPP).                                                                          Treasury
OCIO has collaborated with the
 Department's Office of the Chief
 Financial Officer (OCFO) to support
 the implementation of the Department
 of the Treasury's Invoice Processing
 Platform (IPP). The implementation
 of IPP will allow vendors to submit
 their invoices electronically within
 the IPP application. In addition to
 being Web-based and supporting
 electronic submissions, IPP enables
 the Department to define invoice
 workflow for approval routing. OCIO
 has completed all application
 changes required for Financial
 Management Support System (FMSS) to
 support the IPP. OCIO will work
 collaboratively with OCFO to develop
 and deliver training to the
 procurement staff in a three-phased
 approach, beginning with the pilot
 on Monday, April 8, 2013.
----------------------------------------------------------------------------------------------------------------

    ED leverages cloud computing services for best-of-class solutions 
in support of the CloudFirst initiative. ED is leveraging the Federal 
Risk and Authorization Management Program (FedRAMP) to establish a 
standard approach to assess and authorize cloud services to migrate to 
an end-state that features agile, secure, and cost effective services 
that can rapidly respond to changing mission needs.
      departmental central processing system and fafsa-on-the-web
    Question. One of the major IT investments for the Department of 
Education is the Central Processing System, which is responsible for 
FAFSA-On-The-Web. This project has an appropriated cost of $59.14 
million and is scheduled to be completed by 2015, but has faced 
significant challenges, resulting in both cost variance and schedule 
variance. Recent developments have improved the status of the project; 
however, the Federal IT Dashboard indicates the project is moderate-to-
high risk, and the most recent information submitted to the Dashboard 
was for December 2013.
    Please provide an update about the progress of this project.
    Answer. The Front End Business Integration (FEBI) contract was 
restructured under an initiative called FEBI Modernization during 
fiscal year 2012 to better align the way FSA manages the FAFSA-on-the 
Web releases and other contracted products and services that support 
the Central Processing System (CPS). Prior to modernization, the CPS 
was invoiced as a separate component of the contract, but with the 
contract changes, CPS was included as part of a tiered pricing 
structure where FSA is invoiced based on the volume of FAFSAs 
processed. These structural changes to the contract affected the way 
schedule and cost should be tracked in the OMB Exhibit 300 even though 
the project remained on schedule and at the planned cost. Around this 
same time, FSA underwent an organizational realignment where the 
management of the FEBI contract, funding, and OMB Exhibit 300 were 
shifted to another business unit which caused a disruption in timely 
reporting. In fiscal year 2013, there was also a strategic change to 
the FAFSA on the Web release schedule to allow for the deployment of 
multiple releases throughout the year. Under this multi-release 
schedule, there were further changes to the way the schedule and cost 
should be tracked in the OMB Exhibit 300 even though schedule and cost 
remained on target.
    Since fiscal year 2012, development work has been completed on 
schedule and at the contracted price with no overruns despite the 
reporting discrepancies in the OMB Exhibit 300. Schedule and cost are 
tracked monthly through the invoicing process as new development work 
occurs on CPS and its related products and services. A billing schedule 
with dates for delivery, associated deliverables, and the contracted 
cost is issued as part of the contract modification and when invoices 
are received, the date of completion, contracted cost and associated 
deliverables are verified before payment is made. To date, the 
completion dates and contracted cost of development work have been on 
schedule.
                      fafsa-on-the-web management
    Question. Additionally, the Federal IT Dashboard indicates the 
project manager does not have the required certification. What has the 
Department done to address this?
    Answer. As per Department of Education policy, major IT investment 
project managers have 1 year to complete certification requirements and 
the CPS project manager was granted a waiver. The required FAC-PP/M 
certification approved waiver is effective until November 2014.
    While the current project manager had the necessary experience, she 
needed to complete some additional training. Her waiver application 
contained a training plan, which has been executed over the period of 
her waiver. As soon as all necessary training is complete, she will 
submit her FAC-PP/M application for certification.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
  title ii funding and the supporting effective educator development 
                             grant program
    Question. In Mississippi, the Supporting Effective Educator 
Development (SEED) grant program has been used to train 384 teachers 
over the past 2 years, and will be used to train approximately 175 
additional teachers for placement next year. Needless to say, the 
positive impact that these teachers have had on Mississippi children 
has been remarkable. Can you speak to the importance of the investment 
Congress has made by requesting the Department to designate a 
percentage of Title II funding for this program?
    Answer. We believe the SEED program is an excellent example of the 
kind of innovative and effective work that Congress can support through 
a set-aside of funds under Title II, Part A of the Elementary and 
Secondary Education Act (ESEA). We hope to increase this set-aside from 
the current level of 2 percent in fiscal year 2014 to 10 percent in 
fiscal year 2015, to expand our ability to support similarly effective 
teacher and principal preparation programs, help States raise standards 
for such programs, and recruit and retain school leadership teams with 
the skills and experience needed to turn around low-performing schools.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
 science, technology, engineering and mathematics competitive programs
    Question. If American students are going to compete in a global 
economy, they must succeed in the science, technology, engineering, and 
math (STEM) fields. While I am a leading proponent of STEM instruction, 
it is difficult to understand why the Administration would prioritize 
the consolidation of STEM programs across the Federal Government, but 
then create new, competitive STEM programs within the Department of 
Education.
    Why did the Department choose to direct scarce Federal resources 
toward the creation of new, competitive STEM programs, rather than 
increase investments in the proven Math and Science Partnerships 
program which support services for students in all States?
    Answer. The Administration's STEM Innovation proposal is a key part 
of the Governmentwide strategy for delivering STEM education that is 
more cohesive and coordinated and, thus, more likely to improve STEM 
outcomes for more students. The Mathematics and Science Partnerships 
program in current law--as it primarily supports teacher professional 
development projects that may be implemented in isolation from other 
STEM education efforts--is not designed to support the comprehensive 
reforms our Nation needs to improve our supply of STEM talent.
   prioritizing and funding stem initiatives within competitions of 
                       existing federal programs
    Question. Can the Department elaborate on efforts to prioritize 
STEM initiatives within competitions across existing Federal programs 
within the Department? And, how will the Department continue these 
efforts with fiscal year 2015 funding?
    Answer. The Department continues to carefully identify 
opportunities to target limited program funds on the Administration's 
core education reform areas, including STEM education. In fiscal year 
2013, we included an absolute priority for STEM-focused projects in 
competitions for new grants under Investing in Innovation (grants under 
the competitions totaled $135.7 million) and gave competitive priority 
to STEM-focused projects under Magnet Schools Assistance ($89.8 
million) and Supporting Effective Educator Development ($29.8 million). 
In fiscal year 2014, we are maintaining an absolute priority for STEM 
under Investing in Innovation's Scale-Up grants and including a STEM 
invitational priority in new competitions under Special Programs for 
Migrant Students, Strengthening Alaska Native and Native Hawaiian-
Serving Institutions, and Arts in Education. We expect to maintain a 
STEM focus in Investing in Innovation in fiscal year 2015 and may 
prioritize STEM reforms in making new grants under other programs as 
funding permits.
                          veterans' education
    Question. As our Nation's veterans return from overseas, many will 
take advantage of the education benefits they earned while serving our 
country by pursuing an undergraduate or graduate degree. How does the 
fiscal year 2015 budget request for the Department of Education ensure 
that adequate resources are dedicated to assisting veterans on college 
and university campuses with successful degree completion?
    Answer. The fiscal year 2015 President's budget would enable the 
Department to continue to support approximately 50 Veterans Upward 
Bound projects nationwide. Veterans Upward Bound projects assist 
veterans in preparing for postsecondary education by providing 
comprehensive student support services, including tutoring; mentoring; 
cultural enrichment activities; work-study programs; assistance in 
course selection, preparing for college entrance exams, and in 
completing college applications; and information on available financial 
aid and assistance in completing the FAFSA.
           postsecondary education veterans' resource centers
    Question. In the past, the Department of Education provided funding 
for a Centers of Excellence for Veteran Student Success program that 
specifically assisted veterans. This program supported the 
establishment and development of university-based programs to support 
military veteran student success. Given our Federal responsibility to 
the veterans that have served this country, wouldn't the Department 
agree that these resource centers play a critical role in helping 
veterans achieve postsecondary education success?
    Answer. In fiscal year 2010, Congress provided $6 million to 
support the Centers of Excellence for Veteran Student Success program, 
authorized under Title VIII of the Higher Education Act (HEA). With 
this funding, the Department made 3-year awards to 15 institutions of 
higher education to support the development of Centers to coordinate 
services to address the academic, financial, physical, and social needs 
of veteran students.
    It is absolutely essential that we make certain that veterans can 
access crucial services to enable them to enter and succeed in 
postsecondary education. In 2015, the Administration proposes to 
allocate $14 million to support 50 Veterans Upward Bound projects 
designed to provide veterans with the support they need to maximize the 
educational opportunities that are available to them.
                race to the top--equity and opportunity
    Question. This Administration has touted the Race to the Top 
program as critical to the development and testing of model education 
reform strategies, as well as the implementation of these reforms 
throughout the country. However, to what extent has this over $6 
billion investment led to reform strategies being replicated in States 
that have yet to receive any Race to the Top funding? Please provide 
specific, meaningful, impactful, and sustained examples as to how 
students in States that have yet to receive funding have benefited from 
Race to the Top.
    Answer. Race to the Top has changed the debate around education 
across the Nation and reinforced next-generation reforms launched by 
States. One reason that more than 40 States have been approved for 
Elementary and Secondary Education Act (ESEA) flexibility is that the 
competition for Race to the Top helped initiate key reforms that 
positioned the majority of States to move beyond No Child Left Behind 
(NCLB) and commit to far-reaching changes around standards and 
assessments, new differentiated accountability systems emphasizing 
turning around the lowest-performing schools and closing achievement 
gaps, and developing and implementing educator evaluation systems that 
take into account student growth data. Race to the Top has contributed 
to the fact that, since 2009, 46 States and the District of Columbia 
(DC) have developed statewide reform plans and 42 States and DC have 
adopted high college- and career-ready standards.
    Race to the Top States have led the way in many of these important 
reform efforts and other States can learn from their experiences. For 
example, Race to the Top States collaboratively created a Student 
Learning Objectives (SLO) Toolkit. The SLO Toolkit helps States and 
Local Educational Agencies (LEAs) implement measures of student growth 
in tested and non-tested grades and subjects. It provides resources 
related to making SLO policy, providing SLO tools, selecting or 
creating assessments and setting targets, communicating with teachers 
and principals, training district staff and school administrators, and 
ensuring continuous improvement. The Toolkit is available at https://
rtt.grads360.org/services/PDCService.svc/
GetPDCDocumentFile?fileId=4504.
    Additionally, there are numerous publications and case studies that 
the Department has compiled and made available to all States. These 
resources include lessons learned and other materials from Race to the 
Top States that are applicable to all States and LEAs and are available 
at http://www2.ed.gov/about/inits/ed/implementation-support-unit/tech-
assist/index.html.
                              pell grants
    Question. While I have reservations about the direction that this 
Administration is headed in with respect to the proposed college 
ratings system, I think we all agree that graduation rates for Pell 
Grant recipients are a serious concern. It is important that we work 
together to not only increase graduation rates for Pell Grant 
recipients, but to also address the sustainability of the program 
before it experiences discretionary shortfalls in future years. Yet, 
proposing a $7 billion mandatory funding proposal for a College 
Opportunity and Graduation Bonus program is unrealistic and does not 
represent a good faith effort towards working together to achieve these 
goals. Mr. Secretary, what can the Department of Education do at this 
moment to help increase the graduation rate of Pell Grant recipients 
without linking it to a controversial college ratings system or 
drastically increasing mandatory or discretionary funding and thereby 
exacerbating the pending shortfall in the Pell Grant program?
    Answer. Let me start by clarifying that the 2015 cost of the 
proposed College Opportunity and Graduation Bonus program would only be 
$647 million; $7 billion would be the cost of the program over the (10-
year) budget window.
    I strongly believe that rewarding colleges for results through this 
program would advance our shared goal of increasing graduation rates 
for Pell Grant recipients and promoting on-time completion. The College 
Opportunity and Graduation Bonus program would reward colleges that 
successfully enroll and graduate a significant number of low- and 
moderate-income students on time, and encourage all institutions to 
improve their performance, but also incentivize eligible institutions 
to continue improving their performance and graduate even more low-
income students by providing a larger bonus amount for additional Pell 
graduates. Grants would be used for making key investments and adopting 
best practices that will further increase college access and success 
for low-income students, such as by awarding additional need-based 
financial aid, enhancing academic and student support services, 
improving student learning and other outcomes while reducing costs, 
using technology to scale and enhance improvements, establishing or 
expanding accelerated learning opportunities, as well as other 
innovations, interventions, and reforms.
    In addition to this program, the fiscal year 2015 President's 
budget proposes to make two reforms to the Pell Grant program. First, 
it will strengthen academic progress requirements in the Pell Grant 
program in order to encourage students to complete their studies on 
time. Second, it would reinstate the Ability to Benefit provision for 
students enrolled in eligible career pathways programs, which would 
allow adults without a high school diploma to gain the knowledge and 
skills they need to secure a good job.
    Finally, the 2015 President's budget proposes to reform Federal 
allocation in the campus-based programs to target those institutions 
that enroll and graduate higher numbers of Pell-eligible students, and 
offer an affordable and quality education such that graduates can repay 
their educational debt. If adopted, these reforms would have a 
significant impact on increasing the graduation rate of Pell Grant 
recipients.
 regulations affecting management and disbursement of federal student 
                                  aid
    Question. I understand that a Negotiated Rulemaking Committee was 
established by the Department to consider how Federal Title IV student 
loan credit balances are distributed. While I support the need for 
transparency, I am also concerned about the overregulation of higher 
education institutions and already heavily regulated banks.
    Is it the Department's intent to cover all accounts held by a 
student who receives a Federal student aid disbursement? If so, why 
does the Department presume jurisdiction over privately held accounts 
that may be unrelated to Title IV funds?
    Answer. The Department's primary goal in formulating draft 
regulations and conducting negotiated rulemaking governing payment of 
Title IV credit balances has been to ensure that students have access 
to their credit balances, and to protect students from the concerning 
banking practices identified by the Government Accountability Office 
(GAO) (see the related report at http://www.gao.gov/products/GAO-14-
91), the Department's Office of Inspector General (OIG) (see the 
related report at http://www2.ed.gov/about/offices/list/oig/
auditreports/fy2014/x09n0003.pdf), and the U.S. Public Interest 
Research Group (see the related report at this site http://
www.uspirg.org/sites/pirg/files/reports/thecampusdebitcardtrip_may2012_
uspef.pdf), among others. The Department is trying to ensure that 
students have easy, free, and convenient access to their full Title IV 
credit balances so they can afford academically related expenses and 
complete their academic programs in a timely manner.
    regulated banks and non-bank campus financial service providers
    Question. How will the Department take into account the difference 
between regulated banks and non-bank campus financial service providers 
when considering regulations?
    Answer. Over the course of the negotiated rulemaking process, 
negotiators discussed a number of possible approaches to ensure 
sufficient student protections within the context of Title IV credit 
balance disbursements without expanding the regulations beyond the 
Higher Education Act's purview. The committee made significant progress 
on this front and the Department will carefully consider all proposals 
in drafting a Notice of Proposed Rulemaking (NPRM). From the point of 
view of the Department, practices that erode credit balances pose the 
same risk to student, Department, and taxpayer interests regardless of 
whether they are engaged in by banks or non-bank campus financial 
service providers.
                    regulatory cost-benefit analysis
    Question. The proposed rule may have measurable costs to all 
parties should it be promulgated. Will the Department commit to 
undertaking and making public a cost-benefit analysis of the impact of 
additional regulations on students, higher education institutions, and 
financial institutions prior to their implementation?
    Answer. As required under Executive Orders 12866 and 13563, the 
Department will include a regulatory impact analysis (RIA) in the 
Notice of Proposed Rulemaking (NPRM). The Executive Orders require that 
the Department propose or adopt regulations only upon a reasoned 
determination that their benefits justify their costs, tailor the 
regulations to impose the least burden possible, and select those 
approaches that maximize net benefits. The public is free to comment on 
this RIA and provide the Department feedback on the impact of the 
proposed regulations.
      disbursement of federal student aid--debit and prepaid cards
    Question. A recent Government Accountability Office (GAO) report 
acknowledged that the benefits of college debit and prepaid cards can 
include convenience for students and cost savings and efficiencies for 
schools. Did the Department take into account the impact on 
efficiencies in the disbursement of Federal student aid when proposing 
changes to the management and disbursement of Title IV Higher Education 
Act funds? If so, please explain in detail.
    Answer. The Department recognizes that, as noted in the GAO and 
Office of Inspector General (OIG) reports, the debit and prepaid cards 
offered to students provide certain benefits to students and 
institutions, especially compared with the sole use of credit balance 
disbursements via paper checks. During the negotiated rulemaking 
process, we repeatedly solicited feedback from representatives of 
students, institutions, third-party servicers, and the banking sector, 
and made significant progress in amending our regulatory proposals to 
meet the goals of these various constituencies. However, we were also 
troubled by the primary findings of the GAO and OIG reports, which 
noted a fee structure that often deprives students of a significant 
portion of their Federal student aid funds, a lack of convenience 
access to those funds, and a lack of neutrality both in the 
presentation and delivery of credit balances. In its regulatory 
proposals presented at the negotiations, therefore, the Department 
sought to maintain the advantages to students of choice of financial 
accounts while ensuring that easy, free, and convenient student access 
to Title IV credit balances remained the primary goal.
  transparency and consumer choice in provision of federal student aid
    Question. Additionally, the GAO report included a recommendation 
that schools and college debit and prepaid card providers present 
students with objective and neutral information on their options for 
receiving Federal student aid payments. Recognizing that transparency 
is important to consumer choice, regulated banks often already provide 
transparent disclosures related to their accounts and card usage. Will 
the Department commit to working with financial institutions and 
schools to improve existing transparency disclosures prior to issuing 
final regulations, especially given that this issue may be addressed 
without the need for new and burdensome regulations?
    Answer. One of the unique aspects of the negotiated rulemaking 
process is that it affords both the Department and representatives of 
affected constituencies the opportunity to discuss regulatory proposals 
and work toward a draft regulatory proposal that is better for students 
and takes into account the important perspectives of those who provide 
services to students. One of the committee's areas of agreement was the 
importance of neutral presentation of information relating to financial 
accounts, so students could make an informed and individualized choice 
that is best for them. As the NPRM is drafted, the Department will 
continue to consider the feedback received at the negotiating table and 
the numerous supporting documents submitted by the nonFederal 
negotiators. Once an NPRM is published, the Department will carefully 
consider all comments that are submitted regarding the NPRM as part of 
the rulemaking process.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander
          costs associated with gainful employment regulation
    Question. The proposed Gainful Employment (GE) regulation 
represents an unprecedented expansion of administrative and regulatory 
functions at the Department of Education. Given the complexity of the 
regulation and reporting requirements for the nearly 8,000 affected 
programs, I am interested in understanding the costs associated with 
this new scope of work for the Department.
    Please provide exactly how much the Department has spent to date on 
promulgating this rule, beginning with the first rulemaking process in 
2010 and including an itemization of how much taxpayers spent defending 
the regulation before the U.S. District Court for the District of 
Columbia.
    Answer. In fiscal years 2011-2012, prior to work stoppage in August 
2012, Federal Student Aid obligated a total of $5,783,561. The table 
included below excludes full-time equivalent (FTE) costs.

      DISTRIBUTION OF FSA GE OBLIGATIONS IN FISCAL YEARS 2011-2012
------------------------------------------------------------------------
                                          Fiscal year
                                  --------------------------    Totals
                                       2011         2012
------------------------------------------------------------------------
Data Collection, Calculations and   $3,083,298   $1,019,463   $4,102,762
 Distribution....................
Social Security Agency                 250,000  ...........      250,000
 Interaction.....................
Challenge Solution...............  ...........    1,430,800    1,430,800
                                  --------------------------------------
      Total by fiscal year.......    3,333,298    2,450,263    5,783,561
------------------------------------------------------------------------

    In addition to the amount spent above by Federal Student Aid for a 
system, the Department estimates that it spent over $100,000 on the 
first negotiated rulemaking process that began in 2010, and 
approximately $125,000 on the second negotiated rulemaking process for 
non-FTE related expenses including facilitation, logistical support and 
travel for some of the negotiators.
 estimated costs associated with implementation of gainful employment 
                               regulation
    Question. Additionally, please provide a comprehensive estimate of 
the annual financial costs and the number of full-time equivalents 
(FTEs) that will be needed to administer the regulations if the rule is 
implemented as proposed, including a breakdown of the costs associated 
with each step in the process such as interactions with the Social 
Security Administration (SSA) and data computations related to wages, 
earnings and programmatic default rates.
    Answer. The proposed Gainful Employment (GE) regulations are 
estimated to provide budgetary savings between $666 million and $973 
million over 10 years (http://www.gpo.gov/fdsys/pkg/FR-2014-03-25/pdf/
2014-06000.pdf). In addition to producing these savings, additional 
benefits include: Improving quality of programs, reducing student debt, 
assisting prospective and current students and their families to make 
more informed decisions, and eliminating poor performing programs. The 
Department of Education and the Office of Federal Student Aid (FSA) 
anticipate needing additional staff, as well as non-pay budgetary 
resources, in order to successfully implement the proposed regulations.
    Specifically, Federal Student Aid (FSA) anticipates the need for 
approximately 28 FSA full-time equivalent employees (FTEs). This total 
includes FTEs for the GE Operations Team (16) to manage the challenge 
process and approvals and the challenge systems solution and labor 
pool; FSA systems teams National Student Loan Data Systems (NSLDS-4); 
and FSA's Program Compliance Regions (8).
    Separately, FSA expects to spend approximately $46 million in non-
pay on implementing GE regulations in fiscal years 2013-2016. This 
includes the following expenses:
  --GE Data Collection and Calculations of Debt Measures and 
        Disclosures-$10 million.--We estimate the National Student Loan 
        Data System (NSLDS) and other current systems will need 
        approximately $10 million for FSA system updates to collect GE 
        data from schools, receive and store additional data from the 
        Social Security Administration (SSA), calculate three debt 
        measures and eight disclosure metrics, distribute the data to 
        schools, make recalculations based on challenges, and 
        distribute data to other FSA systems.
  --Social Security Administration (SSA) Interactions-Less Than 
        $100,000.--Based on an interagency agreement with SSA, FSA will 
        receive aggregate earnings information from SSA on an annual 
        basis. This data will be used in the calculations of any Debt 
        to Earnings ratios and Median Earnings disclosure information. 
        The estimate for the interagency agreement is less than 
        $100,000 over 4 years.
  --Challenge Solution With Labor Pool-$35 million.--FSA is currently 
        looking at solution alternatives for the management of student 
        level data challenges that will be received from institutions 
        for individual programs that have evidence that data elements 
        within the calculations are inaccurate. To manage a high level 
        of challenges, FSA is looking at solution alternatives that 
        will include a system with workflow capabilities, interfaces 
        with FSA and other partner data systems, analytical 
        capabilities for basic checks in challenge data, and contracted 
        staffing to resolve challenges within the timeframe indicated 
        in the regulation. To resolve the challenges, we estimate 
        needing 50 contractors, making it the primary cost driver for 
        challenge management. While this is a current estimate, the 
        variability of challenge volume (i.e., how many challenges FSA 
        actually receives) may increase or decrease the overall total 
        cost.
  --Contractor Support for Program Management of GE Implementation-Less 
        Than $1 million.--This includes contractor support for the 
        program management of implementing the gainful employment 
        requirements. The contractor(s) would manage the schedule, 
        documentation, and other aspects of program management for 
        implementation.

                          ESTIMATED GAINFUL EMPLOYMENT REGULATION IMPLEMENTATION COSTS
----------------------------------------------------------------------------------------------------------------
                                                                     Fiscal year
                                                ----------------------------------------------------    Totals
                                                     2013         2014         2015         2016
----------------------------------------------------------------------------------------------------------------
Data Collection, Calculations and Distribution.  ...........   $3,000,000   $4,500,000   $2,500,000  $10,000,000
SSA Interaction................................      $18,849       20,000       20,000       20,000       78,849
Challenge Solution.............................      199,521    2,500,000   18,410,000   13,910,000   35,019,521
Contractor Support for Program Mgmt............      209,946      169,946      169,946      169,946      719,784
                                                ----------------------------------------------------------------
      Total by fiscal year.....................      428,315    5,689,946   23,099,946   16,599,946   45,818,153
----------------------------------------------------------------------------------------------------------------

        gainful employment institutional accountability metrics
    Question. I generally believe that all regulations should be 
implemented prospectively. In the case of the Department of Education's 
Gainful Employment regulation, it is my understanding that although the 
Department is providing a transition period for the regulation's 
implementation, the proposed transition period still uses student loan 
debt levels from previous years that institutions may not be able to 
influence. What steps is the Department taking to ensure that the 
accountability metrics, such as the student debt levels in the debt-to-
earnings ratio, are constructed to provide institutions with ample 
opportunity to revise policies and procedures to improve program 
performance?
    Answer. Several provisions in the proposed rule would give 
institutions time and opportunity to improve programs that do not meet 
the standards. First, all programs are given multiple years to pass the 
accountability metrics before they would become ineligible for Title 
IV, HEA program funds. Second, for marginal programs, the Department 
proposes to create a ``zone'' status where programs are given more time 
to improve before they would lose access to Federal student aid. And, 
finally, the proposed rule includes a transition period for the first 4 
years after implementation of the regulations during which, in 
calculating a program's debt-to-earnings rates, we will take into 
account any immediate cost, and in turn student debt, reductions that 
institutions make.
       gainful employment--calculation of debt-to-earnings ratios
    Question. The Department of Education is taking an unprecedented 
step by using personal student data to calculate program eligibility 
for Title IV, including calculating a debt-to-earnings ratio using 
individualized direct wage data from the Social Security Administration 
(SSA).
    Please provide an overview of the steps involved in the matching of 
personal student loan debt levels to the Social Security 
Administration's wage database to calculate the debt-to-earnings 
ratios.
    Answer. For each program, the Department will develop a list of 
students in the applicable cohort period based on information submitted 
by the institution. The list is subject to a corrections process. Once 
the list is final, the Department will submit it to SSA. The Department 
will obtain from SSA the aggregate mean and median earnings for the 
program--and not individualized earnings data--for those students on 
the list whom SSA has matched to its earnings data. If SSA is unable to 
match certain students on the list, the Department will exclude from 
the calculation of the median loan debt the same number of students 
with the highest loan debts as the number of students whose earnings 
SSA did not match. The information used to calculate the median loan 
debt is from the Department's National Student Loan Data System (NSLDS) 
and is not submitted to SSA. The debt-to-earnings rates are then 
calculated based on the program-level median debt and mean or median 
earnings--and not calculated on an individual level.
                gainful employment--privacy protections
    Question. Additionally, please describe the steps that the 
Department is taking to ensure that personal information is not 
compromised during the calculation of the debt-to-earnings metrics 
during the data transfers between the Department and the Social 
Security Administration (SSA).
    Answer. The SSA and the Department will comply with the 
requirements of the Federal Information Security Management Act 
(FISMA), 44 U.S.C. 3541-3549; related Office of Management and Budget 
(OMB) circulars and memoranda, such as Circular A-130, Management of 
Federal Information Resources (November 28, 2000), and Memorandum M-06-
16, Protection of Sensitive Agency Information (June 23, 2006); 
National Institute of Standards and Technology (NIST) directives; and 
the Federal Acquisition Regulations. These laws, directives, and 
regulations include requirements for safeguarding Federal information 
systems and personally identifiable information (PII) used in Federal 
agency business processes, as well as related reporting requirements.
    The file transmitted through a secure batch process from the 
Department to the SSA will contain items of PII necessary to complete 
the match with SSA records. The return file from SSA will not contain 
any PII. The data files exchanged remain the property of the providing 
agency. SSA will retain the electronic files received from the 
Department only for the time required for any processing related to the 
information exchange under the agreement and will electronically 
dispose of the data. SSA will destroy the data received from the 
Department after completing the information exchange activity.
    The Department and SSA will each follow their own procedures for 
reporting loss of data or breach of PII notifications. The Department 
and SSA will use administrative, physical, and technical safeguards to 
ensure the data provided or created in this process is under the 
immediate supervision and control of authorized personnel in a manner 
that will protect the confidentiality of the data. Electronic files 
will be encrypted using the FIPS 140-2 standard. The Department and SSA 
will store the data provided or created in an area that is physically 
and technologically secure from access by unauthorized persons during 
duty hours as well as non-duty hours or when not in use (e.g., door 
locks, card keys, biometric identifiers, etc.). Only authorized 
personnel will transport the data provided or created.
            institutional access to debt-to-earnings metrics
    Question. It is my understanding that the proposed Gainful 
Employment (GE) regulation offers very little visibility to 
institutions on the performance of their programs prior to the 
Department of Education's release of the metrics for accountability 
purposes. In particular, institutions will have no visibility into the 
direct earnings information from the Social Security Administration 
that will be used to generate the debt-to-earnings metrics. What 
alternative measures of earnings, including those outside of the 
transition period, such as the use of Bureau of Labor Statistics salary 
information, will be available to institutions to help them understand 
where they stand on the metrics and provide institutions with some 
ability to improve program performance?
    Answer. To help institutions understand how their programs might 
fare under the debt-to-earnings metric, the Department has published 
two sets of informational results that include program-level earnings: 
The first in connection with the previous rulemaking, and the second 
with the release of the Notice of Proposed Rulemaking in March 2014. 
These data sets are an estimated 1-year snapshot of potential results 
under the proposed rule for informational purposes only and are not 
intended to predict long-term outcomes for programs. In addition, 
institutions will be able to approximate a program's program cohort 
default rate by breaking its institutional cohort default rate down by 
program level.
    Once the regulations are implemented, for programs without an 
earnings history, an institution will have available, through the 
required disclosures for GE programs, earnings and other performance 
information of comparable programs that can be used as a benchmark for 
estimating the performance of a program. Institutions would also have 
the ability to appeal their debt-to-earnings rates results by 
submitting alternate measures of earnings from two sources, data 
obtained from a State earnings database or data collected through a 
survey of students who completed the program.
    congressional provisions for school improvement grants program 
                              flexibility
    Question. Since 2009, this Administration has spent more than $6 
billion through the School Improvement Grants (SIG) program to help 
States turn around low-performing schools. States receiving these 
grants must agree to implement one of four federally defined turnaround 
models. The latest results released by the Department of Education 
confirm that schools receiving grants have made little progress in 
improving student achievement.
    Recently, Congress granted greater program flexibility to the 
School Improvement Grants by allowing States to develop and present for 
approval, their own models for turning around low-performing schools. 
What steps has the Department of Education taken to implement this 
provision in a manner consistent with congressional intent? And, will 
you confirm that States, which have received waivers through the 
Administration's ESEA Flexibility program, will be able to take 
advantage of this provision?
    Answer. The Department is currently developing a notice of proposed 
requirements that would implement the new SIG program provisions in the 
fiscal year 2014 appropriations act, make other changes that reflect 
lessons learned from 4 years of implementation under the current 
requirements, and help ensure consistency across the Department's 
programs. We anticipate publishing the proposed requirements in August 
2014 and finalizing the requirements no later than the end of the 
calendar year. The requirements would apply to the subgrant 
competitions that States conduct in spring 2015 using fiscal year 2014 
funds.
    A local educational agency applying for fiscal year 2014 funds in a 
State implementing ESEA flexibility would not be prevented from taking 
advantage of the provision allowing implementation of an alternative 
school improvement strategy established by the State and approved by 
the Department.
        innovation in evaluation of teacher preparation programs
    Question. You recently announced your intention to issue new 
Federal regulations governing the evaluation of teacher preparation 
programs. Ensuring that teachers are well-prepared to lead their 
classrooms has traditionally been left to the States, and many States 
are currently developing new policies in this area. For example, 
Tennessee and Louisiana are using data from teacher evaluation systems 
to improve their teacher preparation programs. But given that we don't 
have proven models of effective policy in this area, I am concerned 
that the Department's plans to impose a one-size-fits-all Federal 
mandate that States use data from teacher evaluation systems to assess 
their teacher preparation programs will discourage State innovation. 
What efforts will the Department make to ensure that States have the 
flexibility to develop innovative ways to assess the performance of 
their teacher preparation programs?
    Answer. This summer we will release a proposal to support the 
pipeline of future teachers by strengthening teacher preparation 
programs; importantly, we will seek additional input on this plan 
through a public comment process. This proposal will encourage all 
States to develop their own meaningful systems to identify high- and 
low-performing teacher preparation programs across all kinds of 
programs, not just those based in colleges and universities, while also 
asking States to move away from current input-focused reporting 
requirements, streamline the current data requirements, incorporate 
more meaningful outcomes, and improve the availability of relevant 
information on teacher preparation. These changes will help to improve 
systems-level accountability for supporting the high-quality 
instruction all students deserve. Moreover, strengthened preparation 
and support will help to make teaching an increasingly desirable and 
rewarding career.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
  support for year-round school programs--i3 and promise neighborhoods
    Question. As you noted during the hearing, extended day education 
and year-round schools are a proven way to improve student achievement. 
Given this, is the Department of Education providing funding for any 
year-round school models through any of its programs aimed at 
innovation in education, such as your Investing in Innovation (i3), or 
Promise Neighborhoods programs? If not, why not?
    Answer. For the 2014 competition for i3 Development grants, the 
Department included a priority for improving low-performing schools by 
either (1) changing elements of the school's organizational design to 
improve instruction by differentiating staff roles and extending and 
enhancing instructional time; or (2) changing elements of the school's 
organizational design to improve instruction by differentiating staff 
roles and extending and enhancing instructional time.
    This year's pre-application competition for Development grants 
closed on April 14, 2014, and of the 94 applications submitted under 
the priority for improving low-performing schools, 14 applications 
addressed the subpart for extending and enhancing instructional time. 
At this time, the review process is still in progress. Although the 
Department had not included a priority that explicitly focuses on 
extended day education and year-round schools on any of the i3 
competitions to date, in 2011 Boston Public Schools received an i3 
Development grant to focus on extended learning time under a priority 
for improving low-performing schools.
    Under the Promise Neighborhoods program, there are currently two 
grantees that provide support for year-round schools. The program has 
not included a specific priority or requirement for year-round schools, 
but they are an accepted model.
                  year-round school programs research
    Question. Is more research needed to show how these year-round 
programs are effective?
    Answer. My understanding is that research on the academic benefits 
of year-round schools has been inconclusive. As with other approaches 
to restructuring the school day, week, or year, the success of year-
round schools may depend on both the particular State and local context 
and the details of implementation. For example, if a year-round 
schedule is adopted primarily to address overcrowding and other 
facility constraints, and is not accompanied by an effort to rethink 
the delivery of instruction to take advantage of the new schedule, it 
may not produce improved academic outcomes.
             other program support for year-round schooling
    Question. With what other existing grant programs could the 
Department fund year-round schools? I am particularly interested in a 
school model of shorter breaks spread out throughout the year. I have 
seen this model improve student achievement in Chicago charter schools.
    Answer. Most Federal elementary and secondary education program 
funds may be used to support year-round schools, as eligibility for 
these programs is not dependent on the structure of the school year. 
However, we do not have any programs that specifically support State 
efforts to restructure the school year, such as by implementing year-
round schools.
          year-round schools and student achievement outcomes
    Question. Does the Department track or collect information 
regarding year-round schools in any way, including which areas of the 
country have such schools and what are the student achievement 
outcomes?
    Answer. The Department does not track separately information on 
year-round schools.
foreign language immersion programs and investing in innovation funding
    Question. Does the Investing in Innovation (i3) Fund support any 
foreign language immersion programs for grades K-6? And, if not, why?
    Answer. The i3 program does not include a priority or subpart that 
specifically reference foreign language immersion, and there is not 
currently a grantee in the portfolio whose project has this focus. 
However, the i3 program does include an absolute priority focused on 
English learners (and has included a competitive preference priority in 
previous i3 competitions). Currently 46 of the 117 grants include a 
focus (either explicitly under an absolute or competitive preference 
priority, or implicitly through the project's work) on English 
learners.
    The Department's process for developing priorities for the i3 
competition is complex and considers, among others, policy needs, 
urgent needs, the quality of the evidence base on particular topics, 
and the availability of models. To date, foreign language immersion 
programs have not emerged as a pressing area to be addressed through 
the i3 program during our consideration of topics for past 
competitions.
                       uses of i3 program funding
    Question. What is the i3 program spending its money on?
    Answer. The Department has awarded approximately $1.07 billion to 
117 projects since 2010. Five of those 117 projects have been Scale-Up 
grants, for a total of $219.9 million; 35 have been Validation grants, 
for a total of $575.6 million; and 77 have been Development grants, for 
a total of $277.4 million.
    The table below shows the main topic areas for which the Department 
has provided funding, mostly through absolute priorities. The 
information in this table does contain duplication because grantees 
sometimes address more than one of these topic areas. The table shows 
aggregated information for all the cohorts that have received funding 
to date. The first cohort was funded in fiscal year 2010, and no grants 
have ended yet. The first set of grants to expire will do so later in 
2014.

                             TOPIC AREAS FUNDED BY THE INVESTING IN INNOVATION FUND
----------------------------------------------------------------------------------------------------------------
                          Topic Area                                Number of grants          Total funding
----------------------------------------------------------------------------------------------------------------
Teacher and Principal Effectiveness...........................                       23             $314,483,707
Turning Around Low-Performing Schools.........................                       22              264,027,914
Science, Technology, Engineering, and Mathematics (STEM)......                       26              220,158,904
Standards and Assessments.....................................                       21              180,805,322
Use of Data...................................................                        9               66,422,464
Parent and Family Engagement..................................                        8               22,216,648
Serving Rural Communities.....................................                       24              249,503,263
English Learners..............................................                       38              351,635,234
Students with Disabilities....................................                       17               98,176,186
Technology....................................................                        3               17,991,838
----------------------------------------------------------------------------------------------------------------

               successful and effective i3 program models
    Question. The i3 program, or the Investing in Innovation Fund, is 
now 4 years old; what are the successes and effective models that the 
Department has seen as a result of this program?
    Answer. The first cohort of i3 grantees was funded in September 
2010. These projects are 4 to 5 years in length, and complete findings 
about their implementation and effect will not be available until 2015 
at the earliest, when the first cohort concludes its project 
activities. While most i3 grantees will be sharing findings in a formal 
evaluation report at the end of their grant projects (and the i3 
program will have a report of the national evaluation of i3 in spring 
2016), some grantees are releasing interim reports with interim 
findings. Grantees with interim reports that show positive findings 
include Reading Recovery (The Ohio State University), Success for All 
Foundation, and AppleTree Institute. In the 2013 grant competition, we 
found that one of the projects funded under the Validation competition 
used evidence produced under a 2010 Development grant to meet the 
moderate evidence requirement and receive the Validation grant. We are 
very excited about seeing the progression of i3 grantees across the 
evidence pipeline.
    In addition, the Department has made modifications to grant 
competitions based on lessons learned from previous competitions. 
Specifically, we give careful consideration to priorities we use each 
year to identify gaps in the portfolio where a competition would help 
us find projects with potential for success and effective models.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
              investment in career and technical education
    Question. I am very proud of the career and technical education 
(CTE) classes offered across the State of Arkansas. I constantly hear 
about the programs and their strong collaborations with employers and 
businesses in their communities, full classes and many students who are 
honor students and both career- and college-ready. In striving to 
provide the best possible education for our students and prospects for 
their future, why aren't there further investments in CTE, in many 
cases a proven successful program, in the fiscal year 2015 President's 
budget request?
    Answer. We agree that the programs authorized under the Perkins 
Career and Technical Education Act provide important support for 
helping students prepare for future careers. The President's budget 
proposal for education represents hard choices for funding among 
multiple worthy programs in a difficult fiscal environment. The fiscal 
year 2015 President's budget request respects the spending levels set 
in the Bipartisan Budget Act of 2013, with new discretionary funding 
dedicated to areas where we think it will have the greatest impact on 
improving educational outcomes. We also believe that a reauthorized Act 
that strengthens alignment between secondary and postsecondary 
education and enhances accountability will enhance the quality of CTE 
programs available to students at the current funding level.
         ensuring widespread benefits from competitive programs
    Question. In testimony you have delivered to both the House and 
Senate Appropriations Committees, it is clear there is a focus and 
investment in competitive funding and grants, and a desire for 
innovation with these new competitive grants. Since the President has 
not requested any increases in ESEA, Title I and IDEA formula funding 
which are so crucial to a majority of districts across the country, 
especially in a rural State like Arkansas which has a more difficult 
time finding resources to compete for these grants, I'm concerned about 
the focus of your budget. How are you planning on disseminating 
innovative ideas and best practices from all of these new grants to 
ensure that schools who aren't beneficiaries of these grants will 
benefit in some way from these investments?
    Answer. The Reform Support Network (RSN), which was created to 
support the Race to the Top grantees as they implement reforms in 
education policy and practice, also shares promising practices and 
lessons learned with other States attempting to implement similarly 
bold education reform initiatives. Similarly, the School Turnaround 
Learning Community supported by the School Improvement Grants program 
shares turnaround resources with all schools, districts, and States.
          competitive programs and equity and opportunity gaps
    Question. Do you have any concerns that further competitive funding 
will create more opportunity gaps and less equity?
    Answer. We believe targeted, competitively awarded investments can 
produce innovative models of effective instruction and improvement that 
can shrink opportunity gaps and increase educational opportunity for 
all students, and serve as models on how to use existing funds to 
improve equity.
             support for successful charter school programs
    Question. In many cases, public charter schools operate at best 
with around 80 percent of funding that traditional public schools have, 
and these high-performing charters are doing exceptional work even 
within these financial constraints, like one rural public charter in my 
State, the KIPP Delta Collegiate which was recently ranked by US News 
and World Report as the 2nd Best High School in Arkansas. What 
investments or policies in this budget or actions is the Department 
taking to help successful charters spread their impact?
    Answer. The fiscal year 2015 President's budget supports efforts to 
expand the number of high-quality educational options available to our 
Nation's students in several ways. Most notably, the budget includes 
$248 million for a new charter schools program, Supporting Effective 
Charter Schools, which under the Administration's proposal to 
reauthorize the Elementary and Secondary Education Act would support 
grants to State educational agencies (SEAs), charter school 
authorizers, charter management organizations, local educational 
agencies (LEAs), and other nonprofit organizations for the start-up or 
expansion of high-quality charter schools. Funds could also be used for 
grants to SEAs, LEAs, and financial institutions to improve access by 
high-quality charter schools to facilities and facilities financing.
    Successful charter schools also would benefit from other key 
proposals in the budget. For instance, charter high schools are well-
positioned to access the $150 million requested for the proposed High 
School Redesign program, which would support innovative approaches for 
improving the high school experience and increasing the number of 
students prepared for college and careers without the need for 
remediation. The effective practices of high-performing charter schools 
could also be further developed, validated, and scaled up with 
resources from Investing in Innovation, for which the Administration 
has requested $165 million for fiscal year 2015.
                              trio funding
    Question. Given that the Administration has focused so heavily on 
expanding the numbers of low- and moderate-income, first generation 
students entering into college and on their successful graduation, is 
there a reason why TRIO funding in the fiscal year 2015 budget is 
maintained at fiscal year 2014 levels?
    Answer. The President has articulated a bold vision for the United 
States to once again lead the world in college attainment by 2020. We 
regard the Federal TRIO programs as a key component of the President's 
strategy to realize this ambitious goal. In fiscal year 2014, Congress 
restored most of the sequester reduction to the Federal TRIO programs, 
providing $838.3 million, a level the Administration has proposed to 
maintain in the fiscal year 2015 President's Budget Request. At this 
level, the Department expects to support approximately 2,790 TRIO 
projects serving nearly 800,000 students nationwide.
    However, the Administration believes that such a bold objective 
also requires new Federal approaches to stimulate States and 
institutions of higher education to pursue innovative college access 
and completion strategies. To that end, the President's 2015 budget 
request includes the following:
  --Encouraging States to support, reform, and improve the performance 
        of their public higher education systems through the State 
        Higher Education Performance Fund, which would generate an $8 
        billion new investment to make college more affordable and 
        increase college access and success, especially for low-income 
        students;
  --Rewarding colleges that successfully enroll and graduate a 
        significant number of low- and moderate-income students on time 
        and encourage all institutions to improve their performance 
        through the new College Opportunity and Graduation Bonus 
        program;
  --Reforming the campus-based programs to target those institutions 
        with a demonstrated commitment to providing a high-quality 
        education at a reasonable price, that enroll and graduate 
        higher numbers of Pell-eligible students, and that offer an 
        affordable and quality education such that graduates can repay 
        their educational debt;
  --Reinstating the Ability to Benefit provision for students enrolled 
        in eligible career pathways programs, which will allow adults 
        without a high school diploma to gain the knowledge and skills 
        they need to secure a good job; and
  --Helping borrowers manage their debt by extending Pay As You Earn to 
        all student borrowers, ensuring the program is well-targeted, 
        and simplifying borrowers' experience while reducing program 
        complexity.

                          SUBCOMMITTEE RECESS

    Senator Harkin. Thank you very much, Senator Kirk.
    Thank you, Senator Moran.
    Thank you, Mr. Secretary.
    Secretary Duncan. Thank you.
    Senator Harkin. The meeting will stand adjourned.
    [Whereupon, at 11:06 a.m., Wednesday, April 30, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
